<html>
<title> - U.S. FISH AND WILDLIFE SERVICE: OVERSIGHT OF THE FEDERAL AID PROGRAM</title>
<body><pre>[Senate Hearing 106-958]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-958

                    U.S. FISH AND WILDLIFE SERVICE: 
                  OVERSIGHT OF THE FEDERAL AID PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON FISHERIES, 
                          WILDLIFE, AND WATER

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

 OVERSIGHT OF THE USE OF ADMINISTRATIVE FUNDS IN THE OPERATION OF THE 
       FEDERAL AID PROGRAM OF THE U.S. FISH AND WILDLIFE SERVICE

                               __________

                             JULY 19, 2000

                               __________

  Printed for the use of the Committee on Environment and Public Works


                   U.S. GOVERNMENT PRINTING OFFICE
71-520                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
 Mail: Stop SSOP, Congressional Sales Office, Washington, DC 20402-0001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED SIXTH CONGRESS
                             second session
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director
                                 ------                                

        Subcommittee on Fisheries, Wildlife, and Drinking Water

                   MICHAEL D. CRAPO, Idaho, Chairman
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        FRANK R. LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             RON WYDEN, Oregon
ROBERT F. BENNETT, Utah              BOB GRAHAM, Florida
KAY BAILEY HUTCHISON, Texas          BARBARA BOXER, California

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 19, 2000
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...    13
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....    14

                               WITNESSES

Clark, Jamie, Director, U.S. Fish and Wildlife Service...........     4
    Prepared statement...........................................    40
Hill, Barry, Associate Director for Energy, Resources and 
  Science, U.S. General Accounting Office........................     3
    Letter, U.S. Fish and Wildlife Service.......................     7
    Prepared statement...........................................    31
Lamson, Susan, Director, Conservation Wildlife and Natural 
  Resources, National Rifle Association..........................    22
    Prepared statement...........................................    62
Nussman, Mike, Vice President, American Sportfishing Association.    24
    Prepared statement...........................................    65
Peterson, R. Max, Executive Vice President, International 
  Association of Fish and Wildlife Agencies......................    21
    Prepared statement...........................................    45
Riley, Terry Z., Director of Conservation, Wildlife Management 
  Institute......................................................    26
    Prepared statement...........................................    68

                          ADDITIONAL MATERIAL

Memorandum, International Association of Fish and Wildlife 
  Agencies.......................................................    53
Letters:
    American Fisheries Society...................................    70
    National Wildlife Federation.................................    71
    U.S. Fish and Wildlife Service, to GAO.......................     7
Statement, Safari Club International.............................    72

                                 (iii)

  

 
                    U.S. FISH AND WILDLIFE SERVICE: 
                  OVERSIGHT OF THE FEDERAL AID PROGRAM

                              ----------                              




                             U.S. Senate,  
   Senate Environment and Public Works Committee,  
     Subcommittee on Fisheries, Wildlife and Water,
                                            Washington, DC.
    The subcommittee met, pursuant to notice, at 9:32 a.m. in 
room 406, Dirksen Senate Building, Hon. Michael Crapo (chairman 
of the committee) presiding.
    Present: Senators Crapo, Boxer, and Smith [ex officio].

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. This hearing will come to order.
    This is the Subcommittee on Fisheries, Wildlife and Water 
hearing on the U.S. Fish and Wildlife Service use of Federal 
Aid program administrative funds. I appreciate the witnesses 
joining us here today to explore the issue of the U.S. Fish and 
Wildlife administration of the Federal Aid program.
    This program has been a great success. However, revelations 
of the use of administrative funds has cast a shadow on the 
program, and that's part of the reason that we are here today. 
we need to ensure that the faith placed in this program is 
restored. And the intent of this hearing is to find out what 
must be done to restore the trust and responsibility and 
accountability within the program.
    It's rare to find citizens advocating a tax. But hunters, 
shooting enthusiasts, fishermen and boaters have all stepped up 
to the plate to help fund a program that helps wildlife and 
sports fish and all Americans. It's important that the people 
who pay into this program have the assurance that their money 
is going toward the programs that they were intended for, for 
State wildlife and sport fish restoration programs.
    I would be remiss if I did not note all the hard work that 
Representative Don Young of Alaska, chairman of the House 
Resources Committee, has invested in this issue. It was 
Chairman Young who initiated the investigations into the 
problems with the program and brought public attention to the 
U.S. Fish and Wildlife Administration. Additionally, Chairman 
Young was the first to introduce legislation to help rebuild 
the trust in the program by reforming the administration of 
these funds in the Division of Federal Aid.
    The House Resources Committee and General Accounting Office 
investigation into the U.S. Fish and Wildlife Federal Aid 
program have raised serious questions about the management and 
administration of the program. I anticipate that the General 
Accounting Office will outline the findings of their 
investigation in their testimony.
    I look forward to hearing the testimony of the GAO, the 
U.S. Fish and Wildlife Service and testimony from those who 
have so willingly contributed so much to the program, and those 
who benefit from that program. These testimonies and 
discussions will be helpful in discovering the problems and 
strengths of the program, and most importantly, what is 
necessary to fix the problem.
    The problems uncovered by the House investigation and the 
General Accounting Office clearly indicate that fixes are 
necessary. A 423 to 2 vote in the House shows that this is not 
a partisan reform. It's obvious that legislation is necessary 
to restore faith in the system.
    This is about good government. And although this is a 
hearing on administration of the program, I have no doubt that 
there will be discussions and critiques of the bills that have 
been introduced to address the problems with the administration 
of these funds. I look forward to this discussion.
    Before we start, I'd also like to thank the many people who 
have submitted written testimony for the record. The public 
uses and benefits from the Federal Aid program projects and 
programs are vital to ensuring support for the program. 
Hunting, fishing, dog field trials, hunter education and 
improvement programs are all important and appropriate 
activities under the Federal Aid program. And we appreciate 
hearing from the advocates of each of these uses.
    I look forward to a constructive hearing and one that will 
explore how we can best ensure that trust and accountability 
are restored to the Federal Aid and wildlife and sport fish 
restoration programs. I welcome our witnesses here today, and 
we will be calling you to the table after other members, if 
they show, are going to have an opportunity to share some 
comments.
    Without objection, those who cannot join us will be 
permitted the opportunity to provide written testimony for the 
record.
    I should say that we've had a lot of interest expressed in 
this. It may not appear so from the lack of attendance at this 
point. But I understand that the CARA markup--is that right?--
is going on right now. So a lot of our friends on the committee 
and otherwise who would like to be here to either participate 
or listen are unavoidably at another location. We hope that 
they will be able to make it here for part of the hearing.
    And I'll assure those of you who have prepared your 
testimony and made the effort to get here that even if some of 
them are held up in the CARA hearing for the entirety of this 
hearing, that your testimony will be read, reviewed and 
carefully evaluated.
    And since we at this point do not have any other members 
present who may wish to make a statement, I believe that we 
will proceed immediately to the first panel. Our first panel is 
Mr. Barry Hill, the Associate Director for Energy, Resources 
and Science of the General Accounting Office; and the Honorable 
Jamie Clark, Director of the U.S. Fish and Wildlife Services. 
We welcome you both here today.
    And Mr. Hill, we will have you go first. I will explain to 
all of the witnesses, including those who are not in the first 
panel, what the rules are. We have a series of lights here. 
You'll be given 5 minutes to summarize your written testimony. 
That's never enough time to get through all of your written 
testimony, and so we encourage you to try to summarize it as 
best you can, so that the opportunity for give and take can 
take place between us in terms of questioning.
    I assure you that your written testimony is very carefully 
evaluated.
    And with that, oh, I should explain, the green light will 
stay on for 4 minutes. The yellow light will come on for the 
remaining minute, and then the red light means that you should 
wrap up your testimony so we can proceed.
    Mr. Hill.

    STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR FOR ENERGY, 
     RESOURCES AND SCIENCE, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Mr. Chairman.
    Before I begin, I want to thank you for the opportunity to 
discuss the results of our work on the Fish and Wildlife 
Service's wildlife restoration program. And I'd like to point 
out that the information I'm presenting today is based on the 
work that we completed last September. Therefore we've not had 
an opportunity to update the work or to determine what actions 
the Fish and Wildlife Service has taken in response to our 
findings.
    The work we did last year focused on the Service's 
management and oversight of the administrative funds associated 
with the wildlife restoration program, and to a lesser extent, 
the sport fish restoration program. Our results were provided 
to the House Resources Committee in testimonies on July 20th 
and September 29th, 1999. Funds for the wildlife and sport fish 
restoration programs are derived from excise taxes from the 
sale of firearms, ammunition, archery equipment, fishery 
equipment, and other items. These programs received about $550 
million in fiscal year 1998, of which about $31 million was 
used for administration and implementation, $13.5 million for 
wildlife and $17.4 million for sport fish.
    The Service's Office of Federal Aid has the responsibility 
for providing overall program support and direction for 
implementing both of the restoration programs.
    Let me briefly recap our July 19, 1999 testimony. Last 
July, we identified numerous problems with the way the 
administrative funds were used and managed. We believed that 
these problems had spawned a culture of permissive spending 
within the Office of Federal Aid. The problems we identified 
were not trivial, and included inadequate controls over 
expenditures, revenues and grants, inability to track millions 
of dollars in program funds, non-compliance with basic 
principles and procedures for managing travel funds, non-
compliance with basic internal control standards or Office of 
Management and Budget guidance for maintaining complete and 
accurate grant files, inconsistent use by regional offices of 
administrative funds and the use of these funds for purposes 
that were not clearly justified, inaccurate charges for 
Service-wide overhead, lack of routine audits to determine 
whether administrative funds were being used for authorized 
purposes and questionable processes used for resolving audit 
findings involving States' use of program funds.
    It's important to point out that many of the problems we 
identified were the same as those we previously reported on in 
1993 pertaining to the sport fish restoration program. 
Therefore, the agency had not been entirely responsive to our 
earlier recommendations to correct the management problems.
    Now, I'd like to turn my remarks to what we said about the 
options to improve the use of the administrative funds. In 
light of the broad scope of the management problems that we 
identified, we believe that there were at least three primary 
options to consider for controlling the use of administrative 
funds. First, the Office of Federal Aid could have been given 
additional time to correct the problems we identified in our 
work. This option would probably have had the least impact on 
the Office's current operations, but it would have required 
followup at some point in time to verify that the promised 
corrective actions had been taken.
    Second, legislative limits could be placed on how the 
Service spends administrative funds. For example, the spending 
of administrative funds could be limited to functions necessary 
for the Office of Federal Aid to carry out its most basic 
responsibilities, such as administering the formula for getting 
grant funds to the states and other qualified government 
recipients. This option would likely result in less money being 
spent for the administration of the program and would make more 
funds available for distribution to the States and other 
qualified government recipients.
    A third option would be to require the Service to use 
appropriated funds to administer the wildlife and sport fish 
restoration programs and devote all excise tax revenues to 
State and other qualified government recipient grants. This 
option would require the Service to annually justify to the 
Congress the amounts of funds it needs for administering the 
program.
    Therefore, the programs would be more visible to the 
Congress and would be competing against other programs within 
the Department of Interior for appropriated funds.
    Finally, Mr. Chairman, subsequent to our July 20th 
testimony, the House Committee on Resources asked us to respond 
to a number of questions that it had about issues raised at 
that hearing. We've included our responses to those questions 
as an appendix to my statement today.
    Mr. Chairman, this concludes my prepared statement. I'd be 
happy to answer any questions that you have.
    Senator Crapo. Thank you very much, Mr. Hill.
    And we'll ask questions after Jamie has concluded her 
testimony. So Ms. Clark, would you please proceed?

  STATEMENT OF JAMIE CLARK, DIRECTOR, U.S. FISH AND WILDLIFE 
                            SERVICE

    Ms. Clark. Thank you and good morning, Mr. Chairman.
    I do appreciate the opportunity to talk with you about the 
Federal Aid program this morning. I know that you personally 
are aware of how important the Federal Aid program is to Fish 
and Wildlife and to hunting and fishing in our country.
    The sport fish and wildlife restoration programs have 
provided reliable, consistent funding for conservation for many 
years, and will continue to do so in the future. They've 
brought back some of our most important game species. They've 
allowed for the growth of fish and wildlife management as a 
profession. And they've provided for hunter safety training. 
They also have provided facilities and opportunities for 
hunting, fishing and boating.
    I must admit that when I became Director 3 years ago, I 
didn't expect to be spending so much time on strengthening the 
management of our Federal Aid program. The program's been in 
existence for over 60 years, and candidly, it seemed to be 
running along pretty well. In hindsight, the program had become 
perhaps so familiar and routine that as the years went by, it 
was not receiving the kind of top level management scrutiny 
that it needed.
    In the last year, both the General Accounting Office and 
the majority staff of the House Resources Committee 
investigated the Service's management of the Federal Aid 
administrative dollars. They did find poor record keeping, 
citing deficiencies in our use of funds and other management 
concerns. And as the current Service Director, I have the 
responsibility for these programs and for these problems. And 
I'm committed to fixing them on my watch. These programs are 
way too important to be poorly managed.
    There have been a number of allegations about diversion, 
waste, or illegal use of Federal Aid funds made by some 
parties. I don't want to spend a lot of time responding to 
these, but I'd like to briefly address a few of the inaccurate 
claims that have raised considerable concerns among our 
program's constituents. First, no Federal Aid money was ever 
granted to any anti-hunting organization, nor did the Service 
ever intend to issue such a grant. No employee was ever 
dismissed for refusing to grant money to an anti-hunting 
organization.
    Second, and equally important, no money is missing. GAO 
auditors did find poor record keeping in our Washington 
division of Federal Aid Office, and there were discrepancies 
between accounting systems maintained in the division, in our 
Service-wide accounting system in Denver. These accounts have 
all been reconciled and every single dollar has been accounted 
for.
    Finally, I'd like to point out that despite these various 
allegations, the GAO has never accused the Service of doing 
anything illegal. Interestingly, GAO has yet to even issue a 
final report on this audit, though I formally asked them for 
it, which seems surprising in view of their harshly worded 
House testimony last fall.
    Although we strongly disagreed with some of their 
testimony, as detailed in my formal statement, we nevertheless 
took GAO's criticisms very seriously. We've undertaken a wide 
ranging review of the program, both internally and in 
cooperation with our State partners. And as a result, we've put 
in place a considerable number of changes to improve 
management.
    With the help of the International Association of Fish and 
Wildlife Agencies, we convened a State Federal review team. The 
team issued recommendations in November, and we're in the 
process of implementing many of them right now. We've tightened 
oversight of spending with the Federal Aid program and are 
phasing in spending reductions to lower the administrative 
costs to 4 percent of total receipts for each program.
    We've eliminated the Federal Aid administrative grants and 
the Director's Conservation Fund, two grant programs with 
record keeping that was strongly and rightfully criticized by 
GAO. We've implemented a direct cost assessment for common 
service expenses.
    We're now testing a new computer interface for 
communication between the Federal Aid accounting system and the 
Service's main financial system to avoid any future 
discrepancies in accounting for program funds in the future. 
We've also initiated an outside audit of our Federal Aid 
administrative expenses, and the Washington office of Federal 
Aid now has new leadership while organizational changes and 
personnel changes have been made both in Washington and the 
regions.
    In short, our critics did identify some real administrative 
problems that clearly needed corrections. My formal statement 
has more details on what we're doing to resolve these problems. 
The Service has many very dedicated professionals who are 
working to put the program back on course, who are working with 
States and constituent groups to ensure that the Federal Aid 
program not only improves, but prospers.
    And I pledge to you, Mr. Chairman, and to all of America's 
hunters, boaters and anglers that the Service can and will do a 
better job and a more effective job of administering these 
critically important programs.
    I'd like to touch briefly on the pending legislation. We 
have three concerns. First, the funding level is insufficient 
to permit proper management of the program. We've proposed to 
reduce the amount of administrative funds from the wildlife 
restoration fund by 50 percent and from the sport fish funds by 
one third, so that we would not use more than 4 percent from 
either program for administration.
    That's a major reduction. To cut further would require us 
to eliminate staff. Neither GAO nor any of the other program 
constituency groups has ever contended that our program is 
overstaffed.
    Second, there's no flexibility to permit us to meet 
legislative but unanticipated expenses. We propose a process 
similar to reprogramming to address this, in which we'd give 
the committee and House Resources written notice, 30 days in 
advance, for the justification prior to making any such 
expenditure.
    And last, the bill in Title III directs that specific staff 
positions within this program be created and abolished. That's 
unnecessary micromanagement, which I hope you'll resist.
    Mr. Chairman, both you and Congress and those who pay for 
these programs have a right to expect the funds for the Federal 
Aid program to be wisely used. With the changes we've 
initiated, we expect this will be the case, and we welcome any 
oversight hearing at this time next year to further review and 
measure the efficiencies we're implementing in our 
administration of the Federal Aid program.
    This concludes my statement and I'd be pleased to respond 
to questions.
    Senator Crapo. Thank you very much.
    Let me begin first with you, Mr. Hill, and some questions. 
In your statement, you noted that there had been an absence of 
routine audits in the Federal Aid's use of administrative 
funds. Given the problems that you found, who should conduct 
those audits and how often should such audits be performed?
    Mr. Hill. We have not carefully examined either the House 
bill or the Senate bill. But I do believe that the Senate bill, 
2609, does include independent audits to be done every 2 years. 
We think this would be a very good idea. That kind of audit 
oversight is necessary, and I believe it calls for an 
independent auditor to basically conduct these audits, which we 
would also support.
    Senator Crapo. Thank you. When you completed your work last 
September, the Office of Federal Aid said that it was taking a 
number of initiatives to address the concerns that were raised. 
Can you review some of the steps that were promised, or 
promised actions, and do you think that those actions are 
sufficient if they are implemented?
    Mr. Hill. Yes, Mr. Chairman. As a matter of fact, those 
corrective actions were sent to us in an August 10th letter 
from the Fish and Wildlife Service. And if I could, I'd like to 
submit that for the record.
    Senator Crapo. Without objection.
    [The information referred to follows:]

                           U.S. Department of the Interior,
                                  Fish and Wildlife Service
                             Washington, DC 20240, August 10, 1999.

Mr. Barry T. Hill, Associate Director,
United States General Accounting Office,
Washington, DC 20548

Dear Mr. Hill: The General Accounting Office raised a number of 
important issues at the July 20, 1999, oversight hearing by the House 
Resources Committee regarding the Fish and Wildlife Service's 
administration of the Federal Aid program. As the hearing was recessed 
before we had the opportunity to present testimony, we are writing to 
clarify several issues and inform you about a number of important 
initiatives and actions the Service has already taken, or has begun, to 
improve the overall effectiveness of the Federal Aid program. The 
Service is committed to assuring the quality and integrity of the 
Federal Aid program.

   FISH AND WILDLIFE SERVICE INITIATIVES TO IMPROVE THE FEDERAL AID 
                                PROGRAM

    First, we want to highlight a number of corrective measures that 
were initiated by the Service well before the beginning of the current 
GAO audit. In September 1998, we published a Federal Register query to 
solicit public input to identify better ways to manage the 
administrative grants. Subsequently, we decided to terminate both the 
administrative grants program and the Director's Conservation Fund. 
While due in part to budgetary constraints, the decision was also in 
recognition of concerns received in response to the Federal Register 
notice regarding the management of these grants. In a May 12, 1999, 
letter to the International Association of Fish and Wildlife Agencies 
(IAFWA), the Service officially announced its plans. We then published 
a Federal Register notice terminating Federal Aid administrative 
grants.
    At an early May meeting with the IAFWA, the Service initiated an 
oversight evaluation of Washington and regional-level administration of 
the Federal Aid program to be conducted in cooperation with our State 
partners. The State/Service Review Team met formally for the first time 
on July 27 and 28, 1999, and then again on August 4--6, 1999,
    to identify ways in which Federal Aid can be refined and improved 
to meet the challenges ahead. During this evaluation, the Review Team 
will also carefully consider current and previous GAO findings and 
recommendations to improve program management.

            GAO POINTS THAT HAVE BEEN OR ARE BEING ADDRESSED

    First, GAO's testimony correctly refers to an $85 million 
discrepancy due to administrative errors, such as clerical mistakes, as 
the Service attempts to reconcile accounts in its new grant financial 
management and information system. However, this figure is not put in 
context. Many of these ``errors'' were nothing more than differences 
between informal accounts maintained by staff and actual postings by 
our Financial Service Center. Such differences arose due to the timing 
of official postings. In 1998 in order to address this and other 
problems, Federal Aid and the Service's Division of Finance commenced a 
joint effort to identify the specific grant records, correct data 
errors, and most importantly, create a new data management system. This 
reconciliation has been a time and labor intensive effort, but much 
progress has been made. In fact on the date of the hearing, the 
discrepancy had been reduced to less than $7.5 million, and we soon 
expect to have full reconciliation. We are also confident that we will 
complete the new management system in the fall of 1999, and it will 
eliminate recurrence of this problem.
    There is also a reference in GAO's testimony to a ``missed 
opportunity to earn over $400,000 in interest income.'' The Service's 
transfer of $9.7 million for work on the National Survey of Hunting, 
Fishing and Wildlife Associated Recreation represented the amount we 
believed at the time was essential for the Bureau of the Census to 
ensure on-schedule completion of the survey. We recognize that interest 
income was lost. To avoid similar future losses, we will make only 
those payments essential for incremental progress in carrying out the 
survey. We would note that the Service was cost-conscious in its 
planning for the 1996 Survey and was able to complete this project at a 
cost almost $5 million less than the 1991 National Survey.
    GAO testimony notes travel discrepancies in the Of lice of Federal 
Aid. Concurring that this problem warrants immediate attention, the 
Service has suspended the Limited Open Travel Authorization for the 
entire of lice and re-apprised all staff of Service travel rules and 
regulations. In addition, the Chief of the of rice was directed to 
submit all future travel vouchers to his supervisor, the Assistant 
Director for External Affairs, for appropriate review.
    GAO testimony notes that the Service does not have a routine audit 
program for the review of the use of administrative funds. In 1998, the 
Service initiated efforts with the Defense Contract Audit Agency (DCAA) 
to establish such an audit program, but DCAA ultimately advised us they 
would be unable to develop this program. The Service agrees that an 
audit program for administrative funds is important and has asked the 
State/Federal review team to offer guidance as we establish an audit 
procedure.
    GAO states that there is neither uniformity nor guidance concerning 
regional office uses of administrative funds. The Service has sought to 
provide a workable degree of consistency--recognizing that our State 
clients and their needs vary dramatically from Region to Region. As 
part of our annual budget guidance, the Service has directed Regional 
Directors as follows: ``No assessments may be levied against any 
program, budget activity, subactivity, or project funded by the 
[Federal Aid in Wildlife Restoration] Act unless advance notice of such 
assessments and the basis therefore are presented to the committee on 
Appropriations and are approved by such committee.'' The Service 
acknowledges that not all Regions have followed this guidance. In order 
to assure accountability and adherence to budget guidance, the Service 
will identify and adopt specific steps to help provide consistency and 
uniformity. Additionally, the Service will seek guidance in this area 
from the State/Service Federal Aid Review Team.

            GAO POINTS THAT NEED CLARIFICATION OR CORRECTION

    GAO made a number of points in their testimony we believe were 
based on incomplete or erroneous information or assumptions.
    GAO's testimony refers to an accumulation of ``over $100,000 in 
contract generated fees, the disposition of which is unclear.'' The 
Service has thoroughly reviewed the contract in question and finds no 
ambiguity whatever regarding the ``fees'' generated under this 
contract. The contract specifically states that the Government pays to 
the contractor the costs of providing services to cooperators. The 
contractor is allowed to charge non-cooperators, primarily non-
government organizations and private researchers, costs for copying, 
compiling, and mailing information they request. Thus, the ``generated 
funds'' are not ``profits'' to the contractor, but are fees the 
contractor collects to offset its costs. Nonetheless, the Service's 
contracting officer will make necessary modifications to clarify 
language to avoid possible misinterpretation.
    GAO also notes that the Service has completed audit reports on how 
grant funds are being used in 22 States, and that the resolution in the 
case of two states may not comply with legal program requirements. In 
the view of our Solicitor, these resolutions are consistent with legal 
requirements and the Service may decide these matters within its 
policymaking authority.

                          ADDITIONAL CONCERNS

    Other witnesses at the hearing made misleading and inaccurate 
statements about Federal Aid grant recipients. Therefore, we hope that 
GAO will respond quickly to the committee's request to specify the 
recipients of the Director's former Administrative Grants and the 
Director's Conservation Fund moneys. It is important to clarify that 
none of the Federal Aid grant funds have been directed to animal rights 
or anti-hunting groups. Your response to the committee will help them 
verify that the Service has issued grants only to groups representing 
the recipients authorized by law--hunters, anglers, and boaters--or to 
projects of benefit to State wildlife agencies and managers.
    In summary, it is important to note that Service management is 
providing leadership in identifying and dealing with Federal aid 
issues. The Service acknowledges the accuracy and merit of many of the 
GAO findings and welcomes your assistance in our efforts to improve our 
management of the Federal Aid Program. At the same time, we hope that 
GAO will take note of our efforts to address criticisms of our 
administration of Federal Aid. The success of this time-tested program 
is essential, not only to our State partners, but also to the natural 
resources of this nation.
            Sincerely,
                                  John G. Rogers, Director.

    Mr. Hill. Basically, there were a number of actions 
promised, and some of these actually were promised prior to the 
conclusion of our audit work. For example, they terminated both 
the administrative grant program and the Director's 
Conservation Fund.
    In dealing with the travel voucher approval situation they 
re-appraised all the staff of what the rules and regulations 
were. They advised the chief of the Office of Financial Aid to 
only have a supervisor sign his travel vouchers and not have 
subordinates sign them.
    And they also said they were going to deal with the issue 
of the lost interest income by making payments to the Census 
Bureau for studies and surveys on a more incremental basis, 
rather than in an up-front lump sum.
    Senator Crapo. And have those actions been completed, to 
your knowledge?
    Mr. Hill. That I do not know. We have not done any 
additional followup work. So we don't know what the status of 
those actions or if they have been implemented effectively.
    Senator Crapo. That was going to be my next question. If 
they are or were implemented already, or if they are ultimately 
implemented, do you think that those actions are adequate?
    Mr. Hill. I think the actions that are outlined in the 
August 10th letter, if implemented effectively, would go a long 
way toward correcting many of the problems and the abuses that 
we found operating in the program.
    Senator Crapo. Let me just briefly shift over to you, 
Director Clark. With regard to those actions promised in that 
letter, have they been fully implemented at this point?
    Ms. Clark. Many of them that Mr. Hill mentioned have. In 
fact, all the ones that he has mentioned. We had suspended, GAO 
did find some very serious management discrepancies. And we 
took swift action to address those.
    We suspended or eliminated the two funds that he mentioned 
prior to this review, for financial reasons and management 
reasons. The travel issue that he brought up and the signing of 
travel vouchers and travel papers, were also suspended. We have 
new leadership in the whole Office of Federal Aid and are 
undergoing an entire management review of the operation, both 
in Washington and the regions. All the money has been accounted 
for and we have an outside contractor that's reviewing and 
auditing the Federal Aid administrative unit and the 
administration of funds within the Federal Government.
    Senator Crapo. Thank you.
    Let me say, as I proceed with further questions for you, 
Director Clark, I want to say first of all, I have appreciated 
working with you on many issues, and have trust in your 
management and your commitment to address this issue and find 
solutions to it. And I believe that when you say that you 
recognize a problem exists and you're going to solve it that 
you will. And so I appreciate that very much.
    In fact, I also appreciate your candor in indicating that 
this was a program that maybe fell between the cracks in terms 
of its oversight, and that it's become a problem that you're 
now aware of and you're going to address it. And I think that's 
a very candid explanation of what may have brought us to this 
point.
    Certainly with a program that's 60 years old and had the 
kind of public support that this did, one would think that 
perhaps it had found itself a groove and was operating 
properly. And apparently that's not the case, and so we're here 
to find out how to fix it. But I do want to say that I 
appreciate your attention to these matters, and have confidence 
in your commitment that you will try to solve them.
    Nonetheless, we are going to go through and evaluate this 
very carefully, and that's one of the purposes of this 
oversight hearing.
    In your testimony, you indicated that no anti-hunting 
groups had been given any funds and that no one had lost their 
job for refusing to approve grants to anti-hunting groups. I'm 
sure you're aware of the allegations that have been made. I 
just wanted to go over that again with you carefully, because 
I've seen information that raises a big question about that. 
But you are indicating that no money has been used out of this 
fund for groups that are anti-hunting, and that there is no 
pressure within the agency to cause employees of the agency to 
direct funds in that direction?
    Ms. Clark. Absolutely not. I mean, it's very clear what 
these funds are to be used for. That doesn't mean we don't get 
grant requests. I can't control the incoming. But certainly we 
have an obligation to manage the outgoing. And there have been 
no moneys granted to anti-hunting organizations, and as my 
testimony indicates, no employee was ever dismissed for failing 
to do so.
    Senator Crapo. And you would agree, wouldn't you, that the 
purpose of these funds, that it is not a proper purpose or a 
proper use of these funds to support anti-hunting efforts, such 
as those which are at issue in these allegations?
    Ms. Clark. I would agree.
    Senator Crapo. You also indicated that no money was 
missing. And my understanding was that in about 1998, the 
Service undertook a strong effort to reconcile the financial 
and reporting systems that tracked sport fish and wildlife 
obligations. It was my understanding that as of about August of 
last year, there was still a discrepancy of about $7.5 million. 
And I understand then that today you're telling me that that 
discrepancy has also been closed, and that you are in a 
position to account for all of the dollars.
    Ms. Clark. The discrepancy is zero.
    Senator Crapo. Good. You also raised some legislative 
concerns. Your first concern was the concern with regard to the 
funding levels being insufficient. As you're aware, the funding 
levels in the Senate bill have been raised above that which was 
in the House bill. But do you still believe the Senate bill is 
insufficient?
    Ms. Clark. Yes, I do. And I say that with some hesitation, 
because I think it's awkward to react to an amount while we're 
undergoing a review, we're undergoing a pretty significant 
review about what is the appropriate Federal oversight role. 
And so rather than saying it's $10 million or $15 million or 
$30 million, or a percentage, you know, we worked hard or are 
working hard to describe the legitimate uses and the legitimate 
roles. And in our review thus far, we believe ratcheting down 
to 4 percent of whatever the total is is appropriate, which 
will cause some streamlining and some consolidation.
    But clearly, the numbers in the House bill would have sent 
us beyond, I think, any appropriate Federal oversight limits. 
That's something we'd like to work with the committee on.
    Senator Crapo. And then you also indicated, I think your 
second concern was the concern with regard to how you would 
deal with unanticipated expenses. What would your proposal be 
there?
    Ms. Clark. I certainly agree--I'm right there with the 
committee about refining and clarifying and making very 
transparent the appropriate uses of these two funds, these two 
accounts, you know, what is a legitimate use and what are the 
kinds of projects and proposals that should be funded.
    But clearly, and I've learned this in other programs, the 
minute you have a closed loop process, something can pop out. 
And so that happens with appropriations at times, and we have 
the reprogramming process that allow the agency, the Department 
to come to Congress to engage in a conversation or a debate on 
whether or not that could also be considered appropriate.
    So I don't mind at all the list of allowable uses. But we 
think that having a kind of reprogramming like capability to 
address unforeseen circumstances, that may be in the Congress's 
mind, would be an appropriate use. But it just wasn't 
anticipated when we were creating the list for the legislation. 
But the process would involve Congress in that kind of 
deliberation.
    Senator Crapo. So now, in Mr. Hill's testimony, he talked 
about several different possible ways to approach this, one of 
which would be to have an annual appropriations approach by 
Congress. I assume you're not suggesting that for the overall 
administrative funds section. But do I understand you to be 
suggesting perhaps something like that in the context of 
unanticipated expenses, where you would come to Congress and 
ask for reprogramming?
    Ms. Clark. It's a reprogram-like exercise. I believe it 
would be prudent for us to have the flexibility, at any given 
time during the year to come back to the Congress if there was 
an opportunity or an issue that fell outside that list of 12 or 
whatever the number is. And have the discussion, if it's off-
cycle, of whether or not that could be an appropriate use or an 
appropriate expenditure of the flexible administrative funds. 
And so I call it reprogramming, because that's a process I'm 
used to on the appropriations side. But it's something like 
that.
    Senator Crapo. Mr. Hill, what do you think of that idea?
    Mr. Hill. Well, clearly this is an important program and 
there are administrative expenses that can be expected in any 
type of program like this. You want to make sure that there are 
sufficient funds to cover legitimate administrative expenses. 
The problem in the past was in making sure that the expenses 
that were being claimed were legitimate and were directed or 
being used toward the administration of this program.
    So I think if Fish and Wildlife can come back and 
demonstrate that these are legitimate costs of running the 
program that are currently not covered under the law, it is 
certainly worth your attention and has to be dealt with.
    Senator Crapo. Thank you. I just have one other question, 
then I'll turn to my colleagues for their opening statements, 
and then we'll allow them to also have a round of questions.
    My question was on your third point, Director Clark, and 
that is your point that the legislation should not micromanage 
by directing what staff positions are needed or not needed. 
Could you get a little more detailed in terms of what specific 
concerns you have with the proposals that are in the 
legislation?
    Ms. Clark. Certainly. On the organizational front, I 
believe strongly whatever the program is that the Fish and 
Wildlife Service is responsible for, the accountable official 
is the director. I've certainly learned that in living 
technicolor in the last year.
    But that aside, I think it is unnecessary micromanagement, 
given the kind of nature of an executive branch organization, 
to prescribe what a division chief of the organization should 
or shouldn't be. So whether or not I have an assistant director 
for Federal Aid or we combine programs or whether or not we 
abolish the chief of a division I think is not necessary, when 
in fact the accountable official is the director. And I believe 
that the director, whoever that might be, should be the 
accountable official and have discretion to align their 
organization to meet today's resource challenges in whatever 
way the constraints of budget and organization require, as long 
as they're responsive to the Congress.
    Senator Crapo. Thank you. Mr. Hill, do you have an opinion 
on this issue?
    Mr. Hill. This is a difficult one, because you've got a 
program here that for 60 years has basically run with little 
oversight. Now we find it's got poor management and internal 
controls. I think the knee jerk reaction of Congress, 
rightfully so, when the agency has not managed this program, is 
to step in and make sure that the taxpayers' dollars are being 
used wisely.
    So there's a fine line here. I think it's a question of 
trust in the agency. The agency does not, based on their 
record, have a lot of trust right now, rightfully so. So it's a 
balancing act. I think the solution to this thing is for 
continued and long-term oversight by the Congress on a yearly 
basis.
    Senator Crapo. Thank you. I will note for Senator Smith and 
Senator Boxer that we were aware, because of other things going 
on this morning, that you may not be able to get here on time. 
So I indicated that when you arrived, you'd be welcome to make 
your opening statements.
    Senator Boxer. I insist.
    [Laughter.]
    Senator Crapo. Then we'll turn first to Senator Boxer.
    Senator Boxer. Thank you.
    Senator Crapo. And pleased be assured that following your 
opening statements, you'll also have full opportunity for 
questioning.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman.
    I did have the honor, and a very hard day, we lost Senator 
Coverdell, Fritz Hollings' brother passed away, it's just a 
tough day for some of our colleagues and for a lot of us. And I 
just want to say thank you for understanding.
    I had the privilege of introducing Norm Mineta to John 
McCain's committee today. He has, as you know, been nominated 
for Secretary of Commerce. So I just came from there. It was a 
joyful moment in this difficult time.
    Mr. Chairman, I'm pleased that you're having this oversight 
hearing to discuss the Federal Aid program. For decades, this 
program has served as a vital source of funding for Fish and 
Wildlife restoration efforts and habitat conservation programs. 
And I do understand that serious concerns have been raised 
about the way the program has been administered, and I don't in 
any way debate the fact that there are problems.
    But I do believe that the Fish and Wildlife Service is 
taking important steps to remedy these issues. And I think what 
must not get lost in this discussion is the fact that that 
Federal Aid program is a critically important conservation 
program, and one that has, despite its problems and for the 
most part, functioned effectively and accomplished its goals.
    And I think any changes to it should be done carefully and 
in a way that allows the program to continue to function 
effectively. I am concerned that some of the proposals I've 
heard about go too far in their effort to limit Federal 
oversight of these State grants. The U.S. Fish and Wildlife 
Service has an important role to play in this process. Among 
other things, we need to ensure that they have the fiscal 
resources that they need to accomplish this task of oversight. 
If we ask them to operate with one hand tied behind their back, 
the whole program will suffer. We'll only have more problems 
with the program.
    So I do look forward to working with the subcommittee and 
the full committee and my chairman, Chairman Smith, to develop 
a proposal that addresses some of the concerns that have been 
raised, but which also allow for appropriate and necessary 
Federal oversight.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much, Senator Boxer. And 
before either of you arrived, I did indicate myself that I have 
a very good working relationship personally with Director 
Clark, and have confidence in her commitment to resolving these 
issues.
    Senator Boxer. Thank you so much.
    Senator Crapo. Senator Smith.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Senator Crapo. I, too, have had a 
good working relationship with Ms. Clark. These things are 
embarrassing, but you know, we have to work through them. And 
Congress does have, you know, we do have oversight. And 
unfortunately, the only time that oversight seems to get any 
attention is when we find, something turns up wrong. If the 
oversight was done properly, maybe we wouldn't have these 
problems in the first place.
    I thank you, Senator Crapo, for having the hearing. These 
programs are very important to our States, as you well know. I 
do have a statement for the record, Mr. Chairman, so I won't go 
through all of it. But I am concerned about the GAO, what you 
found, that not all the money that States are entitled to are 
in fact being given. That's the bottom line.
    And both Wallop-Breaux and Pittman-Robertson specifically 
require that the Fish and Wildlife Service distribute all funds 
remaining after prescribed administrative costs are deducted 
back to those States. Instead, the Administration has done 
other with those funds, and I would, I do have some specific 
questions on that in terms of, when the appropriate time comes 
for questions, I'd like to ask you, Mr. Hill, what about a the 
legal authority to do that.
    But you know, without replaying them all, the dinners and 
so forth and all this stuff, it's embarrassing. And again, 
these taxpayer dollars are supposed to go to those States for 
these programs which have done so much good over the past 50 
years, I guess. So I hope that working together, we'll be able 
to come up with solutions that will put an end to this.
    And I look forward to my opportunity to ask questions, Mr. 
Chairman. And I ask unanimous consent that my complete 
statement be made part of the record.
    Senator Crapo. Without objection.
    [The prepared statement of Senator Smith follows:]

    STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE STATE OF NEW 
                               HAMPSHIRE

    Good morning. Thank you for joining us today to discuss the way 
that the United States Fish and Wildlife Service has administered the 
Wallop-Breaux and Pittman-Robertson Acts. This is an important issue 
and I look forward to hearing the testimony. Also I want to extend my 
thanks to Senator Crapo for holding this hearing.
    Funding for the Wallop-Breaux and Pittman-Robertson Programs are 
extremely important to the states. I know in New Hampshire that these 
programs provide a significant amount of the State's Fish and Game 
Department's funding. Considering how important this funding is to New 
Hampshire and other states, I was appalled to learn about the Fish and 
Wildlife Service's mismanagement of these programs. A public trust has 
been violated when the General Accounting Office finds that a program 
is riddled with ineffective management and oversight, inadequate 
internal controls and a culture of permissive spending
    When the Pittman-Robertson and Wallop-Breaux Restoration Funds were 
created over 50 years ago, the intent of Congress was to allow 
sportsmen to contribute to the preservation and enhancement of the 
fields, streams and great outdoors that they enjoy so much. These Acts 
together authorize the collection of an excise tax from the 
manufacturers and importers of hunting and fishing equipment. Congress 
entrusted the Fish and Wildlife Service, through the Federal Aid 
Division, with the responsibility of managing these programs and 
distributing the funds to the states. Unfortunately, the Fish and 
Wildlife Service has violated that trust.
    These are significant wildlife programs, with substantial resources 
to fund them. Last year alone, sportsmen contributed over $430 million 
to the programs. Every time a hunter buys a gun, or an angler buys a 
rod, they know a portion of the cost is supposed to be given to the 
states to fund conservation projects such as fish stocking or habitat 
restoration. I say ``supposed to'' because GAO recently found that not 
all of the money the States are entitled to is, in fact, being given to 
them. Both the Wallop-Breaux and Pittman-Robertson Acts specifically 
require that the Fish and Wildlife Service distribute all funds 
remaining after prescribed administration costs are deducted back to 
the states. Instead, the Administration has squandered the funds.
    The problems that plague these programs are numerous. The Service 
created several grant programs which they had, at best, questionable 
authority to do. Initially, they failed to account for millions of 
dollars. They ignored their own established guidelines for approving 
travel. Furthermore, GAO reported earlier that the Service reimbursed 
grantees for alcohol and dinners that cost over $150.00. If the Fish 
and Wildlife Service had been a private business and the IRS audited 
them, there would be a good chance that the owners of that company 
would be sitting in jail by now. This is unacceptable behavior.
    It is my hope that this oversight hearing will provide a thorough 
airing of the problems identified by the GAO and any measures 
implemented by the Service to address those problems. I believe that, 
working together, we will be able to come up with solutions that will 
put an end to the mismanagement that is in existence today and, at the 
same time, institute a more effective way in which to manage these 
programs in the future. These are worthwhile programs and it is our 
responsibility to work together to solve any management problems to get 
these programs back on track.
    Senator Crapo. I have finished my first round of questions. 
And so, Senator Boxer, if you have questions, we'll turn to 
you.
    Senator Boxer.
    Senator Crapo. Senator Smith, please feel free to go ahead 
with your first round of questions.
    Senator Smith. Mr. Hill, do you believe that Fish and 
Wildlife Service has the statutory authority to create the 
Director's Conservation Fund on the administrative grants?
    Mr. Hill. The Act expressly states that a percentage of the 
funds can be used for ``administration and execution of the 
program.'' This is traditionally what has been called and 
considered the administrative funding of the program.
    The Act also sets legislatively prescribed maximums that 
can be used for the administration and execution. It's up to 8 
percent for the wildlife program and a maximum of 6 percent for 
the sport fish program. So that's clearly specified in the 
legislation.
    However, the statute does not specify what constitutes 
program execution. I think this is where the gray area comes 
in. So because of that, the legislation doesn't specifically 
authorize or direct the Fish and Wildlife Service to establish 
either an administrative grant program or a Director's 
Conservation Fund.
    But even though this is not specifically authorized or 
directed by the legislation, certainly it's not precluded by 
the legislation, either.
    Senator Smith. Ms. Clark, I just, this is your, Fish and 
Wildlife Service, sport fish and wildlife restoration program 
pamphlet. It's a glossy, it's nicely done. And you know, as I 
look at it, it's troubling to me that if you had, you see these 
compare and contrast here between the three, you have the 
current $22 plus million program and over here in the middle 
you have the proposed 4 percent at $18 million.
    And that's fine. But over here is what's troubling. Over 
here on this column you have a headline, Sport Fish and 
Wildlife Restoration Improvement Act, H.R. 3671, which is 
Congressman Don Young's legislation, which is a piece of 
legislation pending before Congress. And then you proceed to 
tear that apart, that legislation. For example, you contrast 
all the way across there, you say in the $22 million program, 
35 grant managers, biologists, 15 financial specialists, 37 
support personnel process grants within 10 to 15 work days. 
Then over here under this proposal, you say, well, those work 
days would be 25. And over here you point out that it would be 
60 days.
    And then you go on and on down the line, you really nail 
the legislation hard in terms of what impact it would have on 
you, which I don't dispute the fact that you have a right to 
your opinion. But isn't that lobbying with taxpayer dollars? 
This is a pending piece of legislation in the U.S. Congress. 
And I don't think it's appropriate to do that.
    Now, that means that somebody's tracking legislation using 
taxpayer dollars to send out this brochure to lobby against a 
piece of legislation in Congress, whether it's good or bad or 
whether you're for it or against it. I mean, I could go through 
several bullets in here that are pretty nasty in terms of what 
you're saying about this legislation and what it's going to do 
to you. And it may very well do that, and you may very well be 
right.
    But my point is, is that appropriate. And I would just ask 
you, what account does that come out of? What lost out here 
because somebody spent this money lobbying? This is lobbying, 
that's what it is. If you look up the definition of lobbying, 
it's trying to influence the passage of a piece of legislation. 
And that's what this is doing. And it's being done at taxpayer 
expense.
    Ms. Clark. Well, I'm embarrassed to say I have not seen 
that publication, Senator. But clearly, the Administration, the 
Fish and Wildlife Service has a very straightforward position 
on the House bill. And we've been asked on numerous occasions 
to consider the effects of the House bill on the current 
administration or the expected administration of the program.
    Putting it in a glossy format is not a wise use of our 
time. But I don't doubt the facts that you are reading to me 
are very legitimate effects of enacting the legislation.
    So the Fish and Wildlife Service's, the Administration's 
positions on the effects of the House legislation are the 
effects that have been publicly stated prior. But I don't 
disagree with the format that we've launched it in. I do need 
to check into that. I have not seen that.
    Senator Smith. I understand. I just think this is a serious 
error in judgment on somebody's part. To me it just shows, I 
don't like the, I've never enjoyed nor will I do it now, to sit 
and just literally beat up on a witness. That's very easy for 
somebody to do sitting up here.
    But the point is, what is the end result, what are we 
trying to accomplish. I think what I sense is a bit of digging 
in and defensiveness regarding some of the things that came out 
of GAO. And I think on the contrary, what we need to do is look 
at this in a way to correct these errors.
    And I think what I am seeing here, and again, that's the 
only reason I bring it up, there's nothing wrong with you 
coming here and saying, testifying against a piece of 
legislation, saying, look, I mean, this is what it's going to 
do to my agency. But again, this is a piece of literature 
that's put out at taxpayer expense by your agency. And I don't 
know what the cost was, but I'm sure it was not cheap, I mean, 
glossies cost money.
    Ms. Clark. I'd be glad to followup and get back to you 
specifically with what the intended purpose of that was and the 
background. But if I could make just one comment. I'm way 
beyond being defensive about this program at this point.
    [Laughter.]
    Ms. Clark. Clearly, it was a wakeup call. This program has 
been on autopilot longer than it should have. And I've taken 
very serious responsibility for regaining the trust of the Fish 
and Wildlife Service with these important dollars, and making 
sure that these dollars go to wildlife restoration and to sport 
fish restoration. So I want to be clear about that.
    Did we disagree with some of the allegations and the issues 
raised by GAO? Yes, and we've been public about that. That's 
probably not a surprise and GAO has responded and listened.
    But is there a serious problem with this program? Were 
there serious problems that GAO raised and the House Resources 
Committee raised? Absolutely. And we immediately, we convened, 
I put together six teams, I about shut the agency down, because 
I pulled in our finance, pulled in external to Federal Aid, we 
can't evaluate ourselves internally, pulled in inside expertise 
in the audit functions and in the finance functions that are 
outside the Division of Federal Aid, and an external auditor.
    Because I was struggling not to react. There was a lot of 
kind of sensationalism, allegation out there. And I was trying 
not to react until I had fact. And there were some facts that 
weren't real pretty. And I believe we have a corrective action 
plan that will get us in the right place.
    And the legislation that's being framed around that 
corrective action, as far as I'm concerned, is rightful and 
fine. I'm just concerned that it be reasonable, so that we 
don't overcorrect.
    Senator Smith. That's fair enough, and I know my time has 
expired, Mr. Chairman. Let me just say we'll work with you, and 
you are a career person that came up through the career ranks, 
and I think you have a lot at stake here, which I think is 
good.
    Ms. Clark. Absolutely.
    Senator Smith. So let's try to work together to correct it. 
But you ought to look into that particular point there.
    Ms. Clark. I certainly will.
    Senator Smith. Because I don't think that's appropriate, 
honestly. And even if it were something that I would support, 
or oppose one way or the other, I don't think it's appropriate. 
But we'll work with you.
    Ms. Clark. Thank you.
    Senator Crapo. Thank you.
    Senator Boxer, did you have any questions?
    Senator Boxer. I just want to say that I agree with Senator 
Smith and his critique here. I think it's fine if somebody 
writes a letter into the agency that says, dear Ms. Clark, I 
heard about this bill that Congressman Young has, what are the 
facts. You want to respond to that, you want to send a fact 
sheet out, that's one thing.
    But I agree with Senator Smith on this point. I mean, I 
looked at it, I don't think it, it is factual, it doesn't say 
this is the worst piece of legislation ever to hit the Hill, 
but it's clearly improper, in my view. Unless again you're 
writing this in response to some inquiry, fine. So I want to 
associate myself with him on that point.
    And I do want to thank you for your candor here. You know, 
it's awful when bad things happen to good programs. And I think 
you put your finger on it, when something runs on automatic 
pilot and people say, well, they did that before, and I guess 
it's OK if I go to dinner, because they did that before, it's 
very dangerous. So I think it should be a signal to all of us, 
you know, whether it's in our own offices and looking at what 
we do all the time, and reevaluating what we do all the time.
    And I'm just pleased that you're willing to, first of all, 
look into this. Because I think this is important, not only for 
this agency, but all agencies under any president. And you 
understand, you know, it's an understandable thing that people 
are going to fight for their survival and their program, and 
they don't see it as wrong.
    I mean, I've seen Members of Congress who felt, well, I did 
it this way 30 years ago. What do you mean I can't do it this 
way any more? Well, there are changing ethics, and there are 
changing values. We grow and we learn, we make mistakes and 
we've got to change. And this is a program that clearly just 
needs to be looked at from what I would call the zero based 
budgeting way, you just bring it down to the bottom and build 
it up and get rid of these bad practices.
    And I am just comfortable, Mr. Chairman, that this will 
happen. And I'm very hopeful that we will be able to work 
together. And I think with your attitude, Director Clark, I 
think we're going to be in OK shape. And with the leadership of 
my colleagues, who I think are being quite reasonable here, and 
I want to compliment them as well.
    Thank you.
    Senator Crapo. Thank you.
    I just have a couple other quick questions. Mr. Hill, can 
you explain how the service-wide administrative support account 
is funded and used? Just briefly.
    Mr. Hill. The service-wide administrative support account 
is an account that's used to pay for service-wide overhead and 
support such as phone bills, rent, training, and postage. The 
funding for the account comes from three sources. There's 
appropriated money that's used. There's money from reimbursable 
agreements. And there's money that comes from a general 
administrative services account, which is an assessment across 
programs to help pay for the indirect expenses.
     Senator Crapo. And can you tell me in your investigation, 
did you find whether any reintroduction efforts or other 
projects and initiatives had been funded through the service-
wide administrative support calendar?
    Mr. Hill. Yes, we found that through the period of 1990 
through 1998 that this account was used to fund over $10 
million of director's office projects and initiatives that 
included $400,000 for Atlantic salmon work, $200,000 for wolf 
monitoring and reintroduction, $100,000 for rhinoceros 
conservation studies. All of these were projects that were 
being funded with an account that was set up to pay for 
indirect expenses. These are clearly not indirect expenses.
    Senator Crapo. And Director Clark, it's my understanding 
that this revelation is one you've already dealt with? Could 
you just explain how you're handling that issue?
    Ms. Clark. Certainly. Well, the service-wide account is as 
Mr. Hill explained. And the general administrative services, 
the kind of assessment piece, we've refined, given the advances 
in computer technology and the Department of Labor and GSA 
having better space tracking capability for our Federal space. 
And so we've gone to a direct cost. So each of our programs, 
and we have many of them, now pay the direct cost of what their 
overhead is. The projects, whether it's wolf introduction or 
Atlantic salmon or rhino tiger kinds of work, were in fact 
historically funded out of what was managed out of the 
Director's office.
    But the color of money, that's the only way I know how to 
explain it, the accounting, the color of money can be tracked 
back to endangered species or refuge operations or fisheries. 
It was just the way that the Director discretionarily, that's 
probably not even a word, but would manage some of these 
projects that would come up during the year that wasn't within 
the regional director's allocation.
    The way that is' now handled is each of the programs, 
whether it's refuge ops or fisheries or habitat conservation or 
endangered species or the myriad of programs that we manage, 
hold, for want of a better way to say it, hold money in 
Washington to deal with projects that come up during the year. 
And it's about this time of year that we kind of have a 
projection of what we're going to close out September with, and 
so we'll release those dollars to the regions in the project 
area, or in the program area that they are.
    For instance, the best way I can give you an example, out 
in the west, we're dealing in Yellowstone with brucellosis, the 
bison, elk, interaction. And it cropped up this year between 
the National Park Service and us, dealing with the need to kick 
off an EIS with the Senators and the Governors and 
Congressional members of those States, Montana and Wyoming. We 
released, because we had what I call holdback in Washington, in 
refuge ops, I just authorized a release of whatever it was, 
just for discussion's sake, $100,000 out of that account, out 
of refuge ops.
    Prior to it being sitting in those accounts, it would 
cobble together in the Director's office. But the color of 
money could always be tracked back to the program, and now it 
stays sitting in the program. That's kind of a convoluted 
answer. But it's much more transparent and much more visible, 
and there's not a debate over where those moneys came from, as 
a result of the way that we're now tracking the budget and the 
way that we're now managing the accounts.
    Senator Crapo. Mr. Hill, is that the kind of corrective 
action that will solve this problem?
    Mr. Hill. I can't say. We haven't looked at what the new 
system they have. I think clearly we envision that this account 
would strictly be set up to pay for overhead expenses. To 
commingle appropriated funds being used to support projects 
versus paying rent and phone bills gave us problems last year. 
I'm not sure if the corrective action that the Director just 
explained would solve that or not. We'd have to look at that in 
some detail.
    Senator Crapo. Thank you. Now, these projects that you're 
talking about, Director Clark, are they what falls in the 
category I've heard referred to as national projects, or 
projects that are done on a national scale, so they don't 
become part of the funds that are allocated out to the States 
for the States to use?
    Ms. Clark. That's a different issue. That's the allegations 
about the slush fund. And the projects that I was referring to 
were coming out of service-wide accounts.
    Senator Crapo. OK.
    Ms. Clark. The slush, the Director's conservation account 
that we believed and our solicitors believed was within the 
side boards of execution, and as Mr. Hill said, there's not 
been a well defined agreement on the administration and 
execution, which is what the statutory language, but what the 
side boards of execution are.
    But those dollars that were in the Director's conservation 
fund funded explicit issues like National Fishing Week, 
Becoming an Outdoors Woman, Hunter Ethics, Shooting Symposium, 
Webless Migratory Bird Research. And so all of those dollars, 
which were Federal Aid administrative dollars, all funded 
wildlife restoration or sport fish restoration. And those were 
clearly managed in a different way.
    Senator Crapo. And it's my understanding that that fund, 
the Director's conservation fund, has been eliminated.
    Ms. Clark. It has been eliminated, as has the National 
Administrative Grants program, which was also under question. 
But I'll say this, the National Administrative Grants program 
that some also challenged whether it met the definition of 
execution, funded grants that came to us after deliberation by 
a committee of the International Association of State Fish and 
Wildlife Agencies.
    So the States as partners evaluated all these proposals 
with the Fish and Wildlife Service and came up with these 
lists. And that's what will ultimately become, those kinds of 
projects will ultimately become in some iteration of management 
or legislation the projects of national benefit.
    Senator Crapo. And so those projects won't necessarily be 
lose, they'll just be handled in a different way at this point.
    Ms. Clark. Possibly, yes.
    Senator Crapo. All right, I have no further questions. 
Senator Smith and Senator Boxer, do you have any more?
    All right, thank you very much to both of you. We will 
excuse you at this time. And we appreciate your attention to 
these issues.
    We will next call up panel No. 2. Mr. R. Max Peterson, the 
Executive Vice President of the International Association of 
Fish and Wildlife Agencies; Ms. Susan Lamson, the Director of 
Conservation and Natural Resources, of the National Rifle 
Association; Mr. Mike Nussman, Vice President of the American 
Sportfishing Association; and Mr. Terry Riley, Director of 
Conservation for the Wildlife Management Institute.
    We thank all of you for coming. Again, I would remind you 
of the instructions on your testimony to please try to watch 
the lights, so that we'll have time for the questions as the 
members of the panel come back. And we will start with you, Mr. 
Peterson.

    STATEMENT OF R. MAX PETERSON, EXECUTIVE VICE PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Peterson. Thank you, Chairman Crapo.
    You have my full statement, so I will try to brief it, if 
you will make it available for the record.
    Senator Crapo. We do, and I should indicate that the full 
statements of all of you will be a part of the permanent 
record.
    Mr. Peterson. Let me first recognize that the two programs 
we're talking about, the Federal Aid in Wildlife and the Sport 
Fish Recreation programs, are undoubtedly the two most 
successful programs we've ever seen in terms of Federal-State 
cooperation and funding fish and wildlife. There isn't any 
question that the 1937 Act that established the Wildlife 
Restoration Fund and made it permanent made it possible to 
recover common species like deer and turkey and elk and so on.
    So the question of the effectiveness of these programs is 
not in question. What is in question is whether the 
administration of these programs within the discretionary 
funding of the Service has been used wisely.
    I would start out by saying that we are, as States, very 
concerned about the problems, and we do not agree that they can 
simply be solved administratively. We think Congress needs to 
define what's administration. We think Congress needs to 
specifically authorize a multi-State grant program, which has 
been very important to the States. Because it doesn't make 
sense for all 50 States to each do something if they can do it 
cooperatively.
    Let me just give you one example. Recently, we've had a 
project called the Automated Wildlife Data System to help 
States automate their systems of issuing fishing and hunting 
licenses and to collect data on wildlife. When one State did 
this alone, it cost $8 million to $10 million. When the States 
went together with the project, you could get hardware 
manufacturers and software manufacturers interested in putting 
money into it, and we reduced the cost to about $1 million per 
State.
    So that program is very important. It's been in place for 
about 25 years. It has been considered within the discretion 
and use of administrative funds, although our own counsel some 
years ago said that they would feel better if it were 
specifically authorized in the Act.
    And so we're in favor of legislation that specifically 
defines administration. I don't at all doubt Director Clark's 
indication that she's committed to doing things to improve this 
program. Let me point out that a year from now, there will 
probably be somebody different sitting in that chair. And these 
problems are not problems that were created entirely down in 
the Federal Aid shop. The excessive overhead was done at the 
Director's level. The excessive overhead, the establishment of 
the Director's Conservation Fund, which went from about $50,000 
from John Turner to $1 million was done at the Director's 
level. The excessive travel was authorized sometimes at various 
levels.
    So I think that I understand that Director Clark said she 
got a rude wakeup call when she heard about this, and she 
didn't expect to hear about it. But the problem is, when you 
have a very broad definition of the use of funds, people get 
very creative in how they use those funds. We expressed grave 
concern in 1995 when these funds were used to transfer fish 
hatcheries. We didn't see what this fund had to do with the 
transfer of fish hatcheries, Federal fish hatcheries.
    We've expressed concern for more than 5 years now at what 
we consider questionable expenditures from administrative 
funds. Because if it is not spent for administration, it's 
apportioned to the States. The statute says up to 6 
percent(Wallop-Breaux), or up to 8 percent(Pittman-Robertson). 
Up until about 1993, the full amount was not used. Beginning at 
that point, which was prior to Director Clark, the full amount 
was taken. And since then, the full amount's been taken.
    The National Administrative Grants Program was dropped, not 
because of questions about legality, but because of use of 
funds for administration. In other words, it was wiped out 
because of the growing cost of administration.
    As I see it, as this fund has grown over the years, using 
the formula, there was additional funding sitting there. And 
having, as you know, run a Federal agency at one time, I know 
the temptation to say, well, why don't we use the discretion we 
have to use a little more of those funds for overhead. And I 
think that's a temptation that should be removed.
    So we favor Congressional legislation, and we think that 
will help the reform of it.
    Let me mention one other thing Director Clark did mention. 
We had a joint Federal-State review team last year that looked 
at these programs. These programs have been administered 
essentially the same since 1937. The States' capability is much 
different now than it was in 1937 or 1950. We need to update 
these programs reflecting the State capability. I don't think 
we need as much direct detailed involvement in projects as 
we've seen in recent years.
    We do need and favor the oversight of the Fish and Wildlife 
Service. We do favor audits, both of the States and the Fish 
and Wildlife Service. We're as concerned about the integrity of 
these programs as anybody. Mr. Chairman, we would be glad to 
work with you and others and with the Service as they attempt 
to help these programs.
    Thank you.
    Senator Crapo. Thank you very much, Mr. Peterson.
    Ms. Lamson.

STATEMENT OF SUSAN LAMSON, DIRECTOR, CONSERVATION WILDLIFE AND 
         NATURAL RESOURCES, NATIONAL RIFLE ASSOCIATION

    Ms. Lamson. Thank you, Mr. Chairman.
    I appreciate the invitation extended to the NRA to testify 
this morning.
    Given citizens' general disdain of taxes, it's nothing 
short of remarkable, as you mentioned in your opening 
statement, Mr. Chairman, that in the 1930's, in an era of great 
economic upheaval and misery, sportsmen passed into law a self-
imposed excise tax to raise funds for wildlife, called the 
Federal Aid and Wildlife Restoration Act, and commonly known as 
Pittman-Robertson.
    Because the purchase price of every firearm and every box 
of ammunition includes the Pittman-Robertson excise tax, it 
makes every firearm owner, hunter and recreational shooter a 
stakeholder in how Pittman-Robertson is managed. I don't think 
it would be farfetched to suggest that if the excise tax, if an 
excise tax like Pittman-Robertson was suggested today, the 
response would be a resounding no. And the answer would be no, 
because the faith and trust of sportsmen and millions of gun 
owners across the country has been eroded by the findings of 
investigations conducted by the General Accounting Office and 
the House Resources Committee.
    It's not necessary, though, in my testimony to address 
those findings. They're a matter of public record, and they've 
been highlighted already this morning.
    But what I'd like to do is focus on what I think we are all 
here for, the solutions. All of our members support sound 
wildlife conservation and firearm safety programs and a 
continuation of Pittman-Robertson. What they want are the 
problems with the management of the trust fund to be fixed and 
fixed soon.
    Using the reform legislation that's been introduced, H.R. 
3671 and S. 2609, as templates, there are a number of 
provisions we, the NRA, would like to have in a reform bill. 
First, we feel it would be crucial for a reform bill to contain 
a specific list of what costs are allowed to be covered by 
administrative funds in order to eliminate the problem of 
permissive spending.
    And let me say this morning, we could certainly support a 
relief valve that the Director suggested. But I think we have 
to have a specific list.
    Second, a mechanism is needed to ensure the taxpayer/
sportsman that his dollars are truly being held by the Service 
in trust. That means audits should be required, along with 
reporting requirements, so that all the sportsmen, who are in 
essence stakeholders, are informed about the financial 
management of their trust fund.
    And I think it's also a way to make small course changes 
when needed, which will prevent a crisis situation from 
developing again that requires reform legislation to solve.
    Third, NRA supports the reduction in the amount of 
administrative funds that the Act presently authorizes. 
However, we can support an increase in what the reform bills 
set aside as long as the increase can be justified.
    Fourth, the NRA strongly supports provisions in both bills 
that reserve a specific amount of excise tax revenue to be 
apportioned among the States for hunter education and shooting 
range programs. In the 1970's, when the Act was extended to 
handguns and archery equipment, sportsmen backed down from 
asking for some of that revenue to be earmarked for shooting 
ranges after receiving assurances from the States that those 
funds would be used to benefit recreational shooting, because 
that's where most handgunners and archers happen to conduct 
their sport.
    Unfortunately, the promise didn't play out. While there are 
a number of States that have used some of that discretionary 
money for range development, many States have a dismal track 
record. Providing a modest amount of dedicated or earmarked 
funds over and above the discretionary funds that are already 
allowed in law will help to fulfill a commitment made long ago.
    Fifth, the NRA supports the creation in law of a multi-
State grant program and supports the funding level in the 
Senate version of the reform bill. However, we're not wedded to 
that dollar figure, either, and would support a higher amount, 
so long as the States concur.
    What is important to NRA is that the multi-State funds not 
be used by any organization or for any project that promotes or 
encourages opposition to hunting or trapping, that the projects 
benefit a majority of the States, and that sportsmen be 
consulted in the preparation of the multi-State project list.
    And last, the NRA supports establishing a position of 
Assistant Director for Wildlife and Sport Fish Restoration 
Programs within the Fish and Wildlife Service. Such a position 
is needed. Many of the problems uncovered about the Federal Aid 
program I believe can be attributed to the fact it was 
relegated to a lowly position within the Service, a backwater 
program, if you will.
    Furthermore, if Congress passes the Conservation and 
Reinvestment Act, hundreds of millions of dollars will flow 
through the Pittman-Robertson trust fund annually, in Title III 
of CARA. It will greatly increase the Service's trust fund 
responsibilities and, therefore, I think it ought to be 
reflected in the Service's management matrix and should be done 
in this reform bill.
    So in conclusion, the NRA is most anxious for the Congress 
to pass reform legislation. We know what the problems are and 
the solutions. There may be disagreement over some of the 
provisions. But I'm confident that resolution can be achieved 
if everyone who's at the table is committed to really getting 
the reform bill passed this Congress.
    Thank you.
    Senator Crapo. Thank you very much.
    Mr. Nussman.

      STATEMENT OF MIKE NUSSMAN, VICE PRESIDENT, AMERICAN 
                    SPORTFISHING ASSOCIATION

    Mr. Nussman. Thank you, Mr. Chairman.
    I appreciate the opportunity to testify today on behalf of 
the American Sportfishing Association. In addition, the 
recommendations in my testimony are supported by the American 
Flyfishing Trade Association, and the American League of 
Anglers and Boaters, a coalition of 25 angling and boating 
interest groups.
    Federal Aid in Sport Fish Restoration is an excellent 
example of a user pays-user benefit program. It was launched in 
1950 when Representative John Dingell and Senator Edwin Johnson 
passed the Federal Aid in Sport Fish Restoration Act. Based on 
the Pittman-Robertson Act that placed an excise tax on hunting 
equipment, the Sport Fish Restoration Act was aimed at dealing 
with the expanding number of anglers and the declining quality 
of the fishery resource.
    Using the same user pay-user benefit model as PR, the DJ 
Act was an immediate boon to underfunded States' fish and game 
agencies. And during the years following the passage of the 
Act, moneys from the collection of excise taxes vastly improved 
the quality of America's sport fishing resources.
    In 1984, in response to a growing list of needs, a new set 
of amendments to the program was passed by Senator Malcolm 
Wallop and then Representative John Breaux. These 1994 Wallop-
Breaux amendments expanded the list of taxable sport fishing 
articles to include nearly all sport fishing equipment. All 
together, the Wallop-Breaux amendments increased the pool of 
money made available to the States by sixfold, from an average 
of $40 million before 1984 to over $240 million this year.
    Since the 1984 amendments, the Act has undergone a number 
of changes to better reflect the new challenges we face in 
angling and boating. These changes include the establishment of 
a clean vessel program, a coastal wetland program and a 
national outreach effort.
    The impact of Dingell Johnson-Wallop Breaux on fisheries 
has been substantial. Over $3 billion has been provided to the 
States since the original Act passed 50 years ago. Indeed, Mr. 
Chairman, the DJ-Wallop-Breaux Act has had a huge impact on the 
sport fishing industry as well. It affects our pricing 
decisions, it affects our marketing efforts, it even affects 
our production choices.
    However, through the investments in the fishery resource, 
the program has enabled the sport fishing industry to grow 
substantially throughout the 1960's, the 1970's and the 1980's. 
GAO has raised a number of serious questions regarding the 
administration of this program. We, as you might imagine, are 
deeply concerned by those charges. No industry can pay 10 
percent of every dollar it collects in addition to income taxes 
on its profit and not be troubled by the GAO testimony.
    There's no doubt that the Fish and Wildlife Service can and 
should do a better job of administering its sport fish and the 
wildlife restoration programs. The two bills that have been 
introduced, S. 2609 and H.R. 3671, make significant strides 
toward defining the responsibilities of the Service and 
increasing their accountability to Congress and to the States.
    However, we believe the legislation falls short in four 
specific areas. First, the bills provide too little funding for 
the multi-State conservation grant program. Currently at least 
four existing programs that are supported strongly by the 
States and the industry would fall under this new effort. These 
include the national survey, the management assistance team, 
administrative grants and the library reference service. The 
funds provided by the two bills are not sufficient to fund 
these existing programs, much less other projects of multi-
State or national benefit. We would recommend that 2 percent of 
each fund, or approximately $4.5 million each, be set aside for 
this effort.
    Second, neither bill provides funding for the Sport Fishing 
and Boating Partnership Council. The Council was created to 
provide a mechanism to give advice to the Secretary of Interior 
on sport fish restoration and other fishing and boating issues. 
The States, the industry, as well as anglers and boaters, are 
represented on the Council. We believe the Council is an 
invaluable tool for ensuring that those that pay the tax have 
their voices heard.
    Third, we believe the Service needs around $16 million to 
administer both the sport fish and the wildlife programs. The 
bills provide somewhat less than that, and we fear that it 
would affect the long-term success of these efforts.
    And fourth, over the years, several grant programs have 
been added to the Sport Fish Act. These include clean vessel, 
boating infrastructure and outreach. Legislation should clearly 
specify that the administrative funding for these programs 
should come from the funding set aside for each individual 
effort.
    In closing, Mr. Chairman, let me say that we believe the 
legislation is needed to provide direction and focus for the 
Sport Fish Act. We believe our recommendations will enhance the 
legislation and ensure the continued success of these very 
important programs.
    Thank you very much.
    Senator Crapo. Thank you very much.
    Dr. Riley.

STATEMENT OF TERRY Z. RILEY, DIRECTOR OF CONSERVATION, WILDLIFE 
                      MANAGEMENT INSTITUTE

    Mr. Riley. Thank you, Mr. Chairman.
    You'll have to forgive me a little bit if I stammer and 
stutter. I just moved here from South Dakota, and I'm more used 
to leaning up against a tractor tire or avoiding stepping in 
cow pies when you talk with local farmers.
    Senator Crapo. That suggests to me you're probably going to 
give us just some good old down-home, common sense in your 
testimony.
    Mr. Riley. Well, I concur a lot with what has already been 
said, and I don't wish to elaborate on that any more. It is in 
my written testimony and hopefully that will become part of the 
record, as you had mentioned earlier.
    The Wildlife Management Institute has a long term interest 
in both the PR Act and the associated program developments that 
have gone on at the State level. In fact, I spent the early 
part of my career working for a State agency in Iowa as the 
pheasant biologist, and Iowa and pheasants go together very 
well, particularly when it translates into $40 million to $60 
million a year to the State's economy.
    The grants I received from the Pittman-Robertson Wildlife 
Restoration Act were vital to the program there, and they kept 
me going professionally for quite a long time in my career. 
Many of my other jobs working for State and Federal agencies, 
before I joined the Wildlife Management Institute, involved 
dollars and programs that were funded through the PR Act. And 
they are an important component of wildlife management on the 
ground and the States desperately need these dollars.
    To make a long story short, we don't believe that a lot of 
the concerns that have been expressed about the administration 
of these acts need to be fixed legislatively. We believe most 
of them have already been fixed. And we can work on ways to 
make sure that they can be fixed, and that they remain fixed 
into the future, perhaps with some kind of advisory team made 
up of sportsmen and sportsmen's groups that actually can 
oversee what's going on and perhaps report back to Congress on 
a regular basis, perhaps once every 5 years.
    However, we all know that legislation is possible, and to 
make sure that we don't miss out on the opportunity to make 
some changes and update the legislation that was signed many 
years ago, we have made recommendations and they are in my 
written testimony.
    In conclusion, I really feel that these are vital programs. 
Again, probably if we have fixes in the legislation, they would 
be focused more on making the programs that we have even 
better. Perhaps strengthening some of the multi-State 
administrative grants that have helped a lot of States pull 
together their own resources and accomplish projects over a 
large region, rather than just everybody trying to do their own 
thing out there.
    So I think it's a very valuable program and we support it 
very much, and we hope that if there are legislative fixes, 
they do strengthen the program rather than tear it down some.
    Thank you.
    Senator Crapo. Thank you very much, Dr. Riley.
    Senator Smith?
    Senator Smith. Thank you very much, Mr. Chairman. Let me 
just ask each of you, if you would, to respond to this 
question. You heard the testimony and the questioning of the 
previous panel in terms of the problems that have prevalent, I 
guess, in the agency for a few years, and the GAO's analysis of 
that.
    I think one of those problems has been lack of oversight. I 
think that always is the problem, as I said to the previous 
panel, we only have oversight when we find out there's a 
problem, unfortunately, which is not doing good oversight. 
Congress does not, in my view, do a very good job of oversight. 
We're always investigating something, as I say, after the 
problem arises.
    Let me just ask you this. Do you believe it would be useful 
to place this program on a 5-year reauthorization schedule? N 
Not in any way to sunset anything, that's not the purpose or 
the intent. But just like other programs, such as endangered 
species, Duck Stamp Act, they're all on 5 year authorizations. 
How would you feel about this program being put on a similar 
authorization?
    Mr. Riley, we'll start with you and just go right down the 
line.
    Mr. Riley. Well, I would have a lot of fear or that. 
Working out in the real world out there, there are many fears 
about writing new legislation, or at least reviewing it, 
because the players change and the issue change. And those, as 
Ms. Lamson said earlier, if they had to rewrite the legislation 
now, or at least introduce legislation that was similar to it, 
we may not get it through.
    Senator Smith. Well, we don't have to rewrite it, just have 
to amend it. We have a $385 billion or $390 billion Pentagon 
budget. They have a 5-year reauthorization schedule. Why not 
this? Wouldn't this help to avoid some of the problem? I mean, 
it's costing you, isn't if, if we find there is mismanagement, 
then it's going to cost you folks on the receiving end? But I 
don't mean to argue about it.
    Mr. Riley. Well, my feeling on it is basically, if you go 
back and try to amend something that's working very, very well 
and has worked very, very well, it may perhaps waste taxpayer 
dollars to do that. Particularly if other fixes, other possible 
fixes are available.
    Senator Smith. So, and I'll ask the same question of the 
rest, but in your opinion, there's been no negative impact to 
you as a result of what's happened here at the national level 
with what you just heard in the previous panel?
    Mr. Riley. Based on my experience of using the dollars and 
applying for grants through the program, as a pheasant 
biologist in Iowa and through other positions I have held, it 
has been a very, very successful process. And I will say that 
there are times that I was glad that I saw other proposals that 
were not approved, because they did not meet the standards of 
the Act.
    Senator Smith. Well, if people are taking foreign trips and 
spending money on alcohol and food at $150 a pop, wouldn't that 
negatively impact what money you might receive at your end?
    Mr. Riley. I agree it probably would.
    Senator Smith. All right, that's all.
    Mr. Riley. Obviously, with this large of a program and the 
complexities associated with the different levels of 
bureaucracy, most State agencies won't see those kind of 
things, and especially any biologist that puts together a grant 
proposal and goes after the dollars.
    Senator Smith. Well, one of the reasons we didn't see them 
either is because we don't do oversight. And with an 
authorization, you'd have to look at it every year and you 
wouldn't run into that.
    But anyway, Mr. Nussman, same question.
    Mr. Nussman. Thank you, Mr. Chairman.
    No, no one cares more about this program than my members. 
Each quarter they write a check. For many of them, it's the 
largest check they write during the year. So would they like to 
see better administration? Do they think Congressional 
oversight would play a role? Yes, absolutely.
    However, we want to make sure the medicine is not worse 
than the disease.
    I believe we need to have more Congressional oversight of 
the program. It absolutely is essential. Having said that, we 
would be fearful that we would get into a situation where we 
would be fighting back amendments for which moneys would be 
taken for purposes that were not envisioned under the original 
Act.
    But I do think it would be appropriate for us to have more 
oversight, rather than less oversight.
    Senator Smith. OK. Ms. Lamson.
    Ms. Lamson. I think in the House and Senate bills, the 
provisions that provide audits and reporting requirements, and 
the reporting requirements are to the Congress, the States, to 
the public, I would feel comfortable with just having that as 
the way of having that sort of audit oversight of the program. 
And I think that that would be sufficient.
    If that proved not to be the case, I think what has 
occurred in this past year with the House attention and also 
the attention of this committee on the issues shows that when 
sportsmen and industry come forward in this kind of situation 
and say, we've got some problems, that the Congress has in fact 
responded.
    So I'd like to see the audit process work. I think that 
that is enough assurance, that process.
    Senator Smith. Mr. Peterson.
    Mr. Peterson. It seems to me that most reauthorization acts 
end up in a big argument about what's going to be authorized 
within the law. In other words, amendments to the basic law. I 
think what you're looking at here is oversight, which it seems 
to me that the best thing you can do to ensure oversight is 
first more clearly define what constitutes administration, so 
that you don't invite people to wander off and spend money on 
things that are inappropriate.
    Second, I agree with the idea there should be an audit. The 
States are subject to periodic audits now, and we used that at 
times when some unit of government got thinking they might take 
off a little more for overhead or so on. The fact that the 
State had to undergo an audit was an important deterrent to 
doing that.
    So I think audits are extremely important. They should be 
independent audits. And those audit reports should be made 
available to the Congress. And I think it should be a periodic 
report to the Congress, saying, here's the way we spent this 
money, so that Congress knows how the money's been spent.
    So I'm all in favor of additional oversight. I don't 
believe that reauthorization per se is the way to do it. Right 
now, you probably know that the boat fuel tax that goes into 
Wallop-Breaux is subject to reauthorization as a part of the 
transportation bill, periodically. But you never really get 
into the detailed administration there. You end up with arguing 
how the money's going to be spent, which doesn't detect what 
you were talking about in terms of, are we sure the money's 
being spent properly.
    Senator Smith. Thank you.
    Senator Crapo. Thank you.
    Let me ask a series of questions to the whole panel, and 
I'd like to ask you to keep your remarks as brief as possible, 
because this could get really long.
    But when Director Clark testified, she indicated three 
areas of concern with the existing legislation that we were 
considering. I'd like to see what the reaction of the members 
of the panel is to each of those three suggested changes to the 
legislation. Some of you have already indicated your answers to 
some of these questions. But I want to just get a feeling from 
the panel.
    Her first point was that the level that both bills have for 
funding of administrative purposes was too low. I believe that, 
Mr. Nussman, you agree with the fact that it's too low, and you 
suggested a $16 million figure.
    What is the reaction of the other members of the panel to 
that issue? Is the amount in the legislation that is proposed 
too low?
    Mr. Peterson?
    Mr. Peterson. Yes, I think it is too low. We recommend $16 
million, that's what we'd recommend. And that's based on the 
Federal-State review team, who did a pretty in-depth review of 
the program. It's not a number picked out of the air.
    Another alternative would be a fixed amount that would be 
adjusted based on CPI, if you don't like the percentage.
    Senator Crapo. All right. Ms. Lamson?
    Ms. Lamson. NRA doesn't have a position on a specific 
dollar figure, other than in my remarks that we agree it can be 
increased, but it ought to be justified.
    Senator Crapo. All right. And Mr. Riley.
    Mr. Riley. We believe that 4 percent would be appropriate, 
of their overall fund.
    Senator Crapo. OK. Did you add anything, Mr. Nussman? I 
think I already got your answer.
    Mr. Nussman. No. We basically looked at the Federal-State 
review team and took their number.
    Senator Crapo. OK. I want to divert for just a second. Dr. 
Riley, you said you were a pheasant biologist?
    Mr. Riley. Yes, I was.
    Senator Crapo. Did you mention the State of Iowa?
    Mr. Riley. Yes, sir.
    Senator Crapo. How's the pheasant hunting in Iowa?
    Mr. Riley. It's getting better.
    Senator Crapo. All right, good. Maybe you could come and 
help us get it improved in Idaho.
    The next point that Director Clark made was, she sees a 
need for a flexible response in the event that the amount of 
funding we determine is available is not adequate, so something 
that she described as a reprogramming effort or something like 
that could be put in place. And again, Ms. Lamson, you've 
indicated that that's an agreeable concept with you, but you 
feel it has to be closely monitored, so that we stick with the 
proper purposes.
    But again to the panel, any objection to a very tightly 
worded and closely monitored mechanism by which Congress could 
authorize additional funding in terms of administrative needs?
    Mr. Peterson. Conceptually, no. It could be done as part of 
the annual budget process, too.
    Senator Crapo. OK. Mr. Nussman?
    Mr. Nussman. I do think it would make a lot of sense to 
have some capability to use funds for special unforseen 
circumstances.
    Senator Crapo. Dr. Riley?
    Mr. Riley. I totally agree, particularly with populations 
of grassland nesting birds that are declining very rapidly, and 
they're going to have a significant impact on landowners if all 
of a sudden they become listed as endangered or threatened. If 
we have administrative costs that would be focused on dealing 
with those issues, that could be a real bonus. So I think it 
would be important to have that option.
    Senator Crapo. All right. And then the third point that she 
made was that the legislation seems to micromanage by directing 
the creation of an office of assistant director, or in other 
words, telling the agency what management structure it should 
use to operate in this context. Any comments on that issue? Mr. 
Peterson.
    Mr. Peterson. I'd say we reluctantly agree that the 
legislation should provide for an assistant director. Our 
executive committee looked at that. With the expected passage 
of the Conservation and Reinvestment Act, we're talking about 
almost $1 billion of funding. And I think one of the problems 
that we've had is the Federal Aid program was run at too low a 
level, as Ms. Lamson's already said.
    I think the recent reorganization, which combines this 
program with migratory birds, is not a good idea. Because the 
migratory bird part is a big load. And combining that with 
administering the Federal Aid program to us does not make 
sense, to tell you the truth.
    Senator Crapo. All right. Ms. Lamson.
    Ms. Lamson. Just to underscore what I said in my oral 
remarks, yes. We think it should be should be raised to the 
level of assistant director. I agree with Mr. Peterson that it 
should bemade a standalone position. I think that the 
stakeholders, the industry, the sportsmen, deserve that.
    Also as I mentioned, if you're looking at the Conservation 
Reinvestment Act, and NRA supports that because of Title III, 
and the funding going to the States, that could be over $300 
million a year. It's a significant amount of money that could 
potentially come into the Service. And we agree with the 
Service managing it.
    But I think, you know, it's a new day. We ought to be 
looking at a different management approach on this.
    Senator Crapo. Mr. Nussman?
    Mr. Nussman. I would agree with what's been said thus far.
    Senator Crapo. Thank you. Dr. Riley?
    Mr. Riley. I would probably say that I would rather see the 
Administration, executive branch at least, decide how to 
structure their own positions they assign. However, we do 
believe that the level of administration with this program has 
not been adequate.
    Senator Crapo. All right, thank you. And just one last 
question. And this one is really sort of a yes or no answer. 
Several of you, again, have already answered this. But one part 
of the legislation here is the creation of a national or multi-
State grant program. I am assuming that there is a lot of 
support for that part of the legislation. Do any of you not 
support that part of the legislation?
    I take it you all support it then. All right, thank you.
    That concludes my questions.
    Senator Smith, do you have any further questions?
    Senator Smith. No, I have no further questions, Mr. 
Chairman.
    Senator Crapo. All right, thank you very much. I should say 
to all of you that this hearing record will be kept open for an 
additional week, if you desire to submit any further testimony 
or comments on what has come up today. And you may get some 
questions in writing from members of the panel who were not 
here or other questions from those of us who were here. And we 
would ask you to respond to those very quickly if you do get 
those questions.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:01 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

Statement of Barry T. Hill, Associate Director, Energy, Resources, and 
Science Issues, Resources, Community, and Economic Development Division 
                United States General Accounting Office

    Mr. Chairman and members of the subcommittee: We are pleased to be 
here today to discuss the Fish and Wildlife Service's (Service) 
management and oversight of the administrative funds associated with 
the Wildlife Restoration Program and, to a lesser extent, with the 
Sport Fish Restoration Program. The information we present today is 
based on work that we completed and presented in testimonies to the 
House Committee on Resources on July 20 and September 29, 1999. \1\ At 
that time, the Service promised a number of corrective actions. We have 
not determined whether, or how, the Service has implemented those 
promised actions.
---------------------------------------------------------------------------
    \1\ Fish and Wildlife Service: Management and Oversight of the 
Federal Aid Program Needs Attention (GAO/T-RCED-99-259, July 20, 1999) 
and Fish and Wildlife Service: Options to Improve the Use of Federal 
Aid Programs' Administrative Funds (GAO/TRCED-99-285, September 29, 
1999).
---------------------------------------------------------------------------
    The Wildlife Restoration Program was begun in 1938 following the 
passage of the Federal Aid in Wildlife Restoration Act, often called 
the Pittman-Robertson Act. The purpose of the act is to restore, 
conserve, manage, and enhance the nation's wildlife resources and to 
provide for public use and benefits from these resources. The Service, 
an agency of the Department of the Interior, administers the program. 
The Service's Office of Federal Aid (Office) provides overall support 
and direction for implementing the Wildlife Restoration Program as well 
as a sister program, the Sport Fish Restoration Program. This sister 
program provides funds to restore and manage the nation's sport fishery 
resources and to provide public use and benefits from these resources. 
The programs received a total of about $550 million in fiscal year 
1998-$170 million for Wildlife and $380 million for Sport Fish.
    Funds provided for these programs are derived from federal excise 
taxes from the sale of firearms, ammunition, archery equipment, fishing 
equipment, and other items. The core mission of these programs is to 
distribute funds to states and other qualified government recipients 
for the purposes of wildlife and sport fish restoration. A portion of 
the funds can be used by the Office for the programs' administration 
and implementation-up to 8 percent for wildlife and up to 6 percent for 
sport fish. Of the roughly $550 million these programs received in 
fiscal year 1998, about $31 million was used for administration and 
implementation-$13.5 million for Wildlife and $17.4 million for Sport 
Fish.
    Our testimony today will recap the results of our work on the 
management and oversight of the Federal Aid program which provided 
options to improve the program's use of administrative funds and 
provided additional information related to the use of administrative 
funds.

Problems in the Way Administrative Funds Are Managed and Used
    Last July we reported numerous problems with the way administrative 
funds are used and managed. We believe that these problems led to a 
culture of permissive spending within the Office of Federal Aid. The 
problems we identified included the following:

    <bullet>  controls over expenditures, revenues, and grants were 
inadequate;
    <bullet>  millions of dollars in program funds could not be 
tracked;
    <bullet>  basic principles and procedures for managing travel funds 
were not followed;
    <bullet>  basic internal control standards or Office of Management 
and Budget guidance for maintaining complete and accurate grants files 
was not followed;
    <bullet>  regional offices used administrative funds inconsistently 
and for purposes that were not clearly justified;
    <bullet>  charges for Service-wide overhead may not be accurate;
    <bullet>  routine audits to determine whether administrative funds 
were being used for authorized purposes were not conducted; and
    <bullet>  the process for resolving audit findings involving 
states' use of program funds was questionable.

    It is important to point out that many of the problems we 
identified last July were the same as those we identified over 6 years 
earlier. In 1993, we reviewed the use of administrative funds for the 
Sport Fish Restoration Program. \2\ As part of our work last year, we 
found that the Service had not been entirely responsive to our earlier 
recommendations to correct the management problems we identified in our 
previous review.
---------------------------------------------------------------------------
    \2\ Fisheries Management: Administration of the Sport Fish 
Restoration Program (GAO/RCED-94-4, Nov. 8, 1993).
---------------------------------------------------------------------------

Options to Improve the Use of Administrative Funds
    At the time of our September 1999 testimony, we believed that there 
were at least three primary options to consider for controlling the use 
of administrative funds. First, the Office of Federal Aid could have 
been given additional time by the Congress to correct the problems we 
identified in our work. In August 1999, the Service said that it had 
taken or was taking a number of corrective actions including continuing 
with its reconciliation efforts to track the use of administrative 
funds, requiring supervisory review and approval of travel vouchers, 
and evaluating how to establish a procedure for performing routine 
audits of administrative funds. This option would probably have had the 
least impact on the Office's current operations, but it would require 
follow-up at some point to verify that the promised corrective actions 
have been taken. With this approach, we would be concerned about the 
Service's commitment to taking the needed corrective actions, given 
that it has not been fully responsive to prior recommendations we have 
made.
    Second, legislative limits could be placed on how the Service 
spends administrative funds. For example, the spending of 
administrative funds could be limited to functions necessary for the 
Office of Federal Aid to carry out its most basic responsibilities; 
namely, to (1) administer the formula for getting grant funds to the 
states and other qualified government recipients, (2) review specific 
project proposals from these entities, and (3) audit these entities' 
use of the grant funds for compliance with existing legislation and 
program goals. By placing more restrictions on the use of the 
administrative funds this option would likely result in less money 
being spent administering the program and would make more funds 
available for distribution to the states and other qualified government 
recipients.
    A third option would be to require the Service to use appropriated 
funds to administer the Wildlife and Sport Fish Restoration programs 
and devote all excise tax revenues to state and other qualified 
government recipients' grants. This option would have required the 
Service to annually justify to the Congress the amount of funds it 
needs for administering the program. Hence, how the funds are being 
used and the direction that the program is taking would be more visible 
to the Congress. Also, the Wildlife and Sport Fish Restoration programs 
would be competing against other programs within the Department of the 
Interior for appropriated funds. As in the second option, this option 
could potentially have removed much of the organization's flexibility 
for determining where to use the funds for administrative purposes.

Additional Information on the Use of Administrative Funds
    Subsequent to the July 20, 1999, hearing, the House Resources 
Committee asked us to respond to a number of questions about the use of 
administrative funds raised by our testimony. Appendix I of my 
September 29, 1999, statement provided our responses to these 
questions. I have included this as an appendix to this statement as 
well. For the most part, these responses elaborated on points made 
earlier. However, they also included substantial additional 
information, such as our views on actions the Fish and Wildlife Service 
was planning to take to correct the problems we identified. In this 
regard, we were hopeful but not confident that the agency would be 
committed to implementing the planned changes and that the changes 
would result in lasting improvement. Our lack of confidence was due to 
the Office of Federal Aid's poor track record in dealing with the 
identified problems. For example, in response to our past 
recommendation that all administrative costs be thoroughly documented, 
the Service stated that it had a system that allows it to maintain a 
comprehensive file for documenting all direct charges against the Sport 
Fish Restoration Program. We later found that, in many instances, we 
could not track and verify the status of a grant, the amounts 
authorized for payment, or when the expenditures were made.
    This concludes my prepared statement. I would be happy to respond 
to any questions that you and members of the committee may have.

Contact and Acknowledgments
    For further information, please contact Barry T. Hill at 202-512-
3841. Individuals making key contributions to this and our prior 
testimonies are Lew Adams, Margie Armen, Cliff Fowler, and Roy Judy.

                               APPENDIX I

    Fish and Wildlife Service: Additional Information Related to the 
Uses of Administrative Funds
    Federal Aid administrative funds are used for several purposes 
within the Fish and Wildlife Service. Examples include the uses made by 
the Administrative Grant Program, the Director's Conservation Fund, the 
Office of Federal Aid, and regional offices for such purposes as 
salaries, travel, grants, and contracts. The Service also uses the 
Office of Federal Aid's administrative funds to pay for general 
administrative support services such as telephone usage, equipment 
servicing and space rental, and a contractor to audit the use of 
program funds provided to the states and other qualified government 
recipients. This appendix provides our responses to the additional 
questions asked by the Chairman, House Resources Committee, about these 
and other topics subsequent to our July 20, 1999 testimony. Some of the 
responses address promised corrective action by the Service. We have 
not had an opportunity to update our work or to determine whether, or 
how, the Service has implemented those promised actions.
    Question 1. What is the Administrative Grant Program, how have the 
program's funds been used, and what problems does GAO have with the 
administration of this program?
    Response. The Administrative Grant Program is operated by the 
Office of Federal Aid. The program uses some of the administrative 
funds to support national fish and wildlife projects that provide 
collective benefits to at least 50 percent of the states. The Fish and 
Wildlife Service (Service) annually publishes a notice in the Federal 
Register, announcing the procedures for submitting project proposals, 
deadlines, and the amount of money that is available for administrative 
grants. The applicants submit their proposals to the Office of Federal 
Aid (Office), which reviews each grant against established criteria to 
determine eligibility. To determine eligibility for an administrative 
grant, the Office makes an assessment of the benefits to be derived 
from the proposed project, the importance of providing the grant, the 
problems that need to be addressed, the number of states that are 
affected, and the approach that will be taken to accomplish the 
objectives of the grant. In fiscal year 1998, the Office made about $4 
million in administrative funds available for administrative grants. 
The Office awarded 18 grants ranging from about $18,500 to $684,000 for 
such activities as developing and publishing a fish hatchery 
publication and a wildlife law news quarterly, developing a national 
hunter retention outreach program, and improving public knowledge of 
hunting and related animal use programs in the United States. Since 
fiscal year 1994, the Office has funded 83 grants totaling about $19.5 
million.
    In reviewing administrative grant files, we found that the Office 
was not following standard management practices to ensure that grant 
funds were properly applied and accounted for. Specifically, we found 
that basic internal controls and documentation standards were not being 
used and that the agency was not following the Office of Management and 
Budget's (OMB) requirements for grant management. We reviewed the grant 
files for fiscal years 1993 through 1998 and found them to be 
incomplete, out of date, and disorganized. To illustrate, the files did 
not contain required key financial documents, status reports, or other 
supporting documentation. As a result, in many instances, we could not 
track and verify the status of a grant, the amounts authorized for 
payment, or the time periods in which these expenditures were made.
    We also found instances in which Office of Federal Aid officials 
authorized questionable payments to grantees without thoroughly 
reviewing the submitted documentation. For example, we found that the 
Office paid grantees for alcoholic beverages and excessive meal charges 
that should have been questioned, and for work that was neither related 
to the grant nor ever performed. We are concerned that the problem of 
authorizing questionable payments may be widespread because the 
officials responsible for grant management said that they did not 
review the details supporting requests for payment. Internal controls 
for this aspect of the Office's operations appeared to be nonexistent 
at the time of our review. After our July 1999 testimony on this issue, 
the Service issued a notice in the Federal Register on July 26, 1999, 
terminating the Administrative Grant Program for new administrative 
grants effective in fiscal year 2000. In an August 10, 1999, letter to 
us, the then-Acting Director of the Service stated that the decision to 
terminate the program was due in part to budgetary constraints and in 
recognition of concerns received in response to a September 1998 
Federal Register notice regarding the management of these grants.

    Question 2. What is the Director's Conservation Fund, how has it 
been used, and what problems does GAO have with the administration of 
this fund?
    Response. The Director's Conservation Fund was established in 1994 
and was terminated in March 1999. The Fund was set up for use by the 
Director of the Service to make discretionary grants. From fiscal years 
1994 through 1998, the Director used about $3.8 million in 
administrative funds for 53 grants. The grant funds have been used to 
support the Service's own activities such as conducting regional 
workshops, human resource projects, and specific research projects on 
subjects such as mourning dove productivity in the Central Valley of 
California. These funds have also been granted to private organizations 
such as the FishAmerica Foundation\1\ for such activities as a 
challenge cost-share program to enhance sport fisheries and their 
habitats and to a state game and fish commission for a symposium on 
North America's hunting heritage.
    We found that the Office had not followed OMB's guidance that 
requires agencies awarding grants to notify the public of intended 
funding priorities for discretionary grant programs. Moreover, the 
procedures used for approving grants under the Director's Conservation 
Fund were more open to subjective judgment and much less rigorous than 
the procedures used for approving administrative grants. Under the 
Director's Conservation Fund, there were no specific criteria that a 
grantee needed to meet to obtain approval. The potential grantee 
essentially had to identify only the title, purpose, and estimated cost 
of the project. As we indicated in our response to question 1, the 
criteria for eligibility and approval under the Administrative Grant 
Program were much more delineated. To illustrate, we found three 
grants, totaling $280,000, that were rejected under the Administrative 
Grant Program but subsequently funded by the Director's Conservation 
Fund. We found a fourth grant for $75,000 that met the eligibility 
requirements for an administrative grant but fell below the cutoff 
point for funding. This grant was also funded under the Director's 
Conservation Fund. Finally, we found in a limited review of grants 
awarded during fiscal years 1994 through 1998, that the Office had not 
exercised adequate controls over these grants. Specifically, the Office 
had not followed internal control documentation standards and OMB 
guidance. As with the administrative grant files, the files for this 
program were incomplete, out of date, and disorganized and did not 
contain required financial forms and supporting documentation.
    \1\The FishAmerica Foundation is a nonprofit organization that 
supports projects designed to enhance fish populations through habitat 
enhancement and water quality improvement.
    In its August 10, 1999, letter to us, the Service stated that it 
had terminated the Director's Conservation Fund. According to agency 
officials, the Director made this decision in March 1999, shortly after 
we initiated our audit.

    Question 3. Does existing legislation authorize a national grant 
program as exercised in the Administrative Grant Program and the 
Director's Conservation Fund?
    Response. Program funds for the Federal Aid in Wildlife and Sport 
Fish Restoration Acts are derived from federal excise taxes on selected 
items used in hunting and fishing. The bulk of the program funds are 
available for making grants to states to conduct fish and wildlife 
management and restoration programs and projects. However, the 
legislation expressly reserves a percentage of the program funds to be 
made available for expenditure on ``administration and execution'' of 
the programs. This portion of the program funds is often referred to as 
``administrative funds.'' The two authorizing statutes also 
specifically provide for some additional particular activities to be 
conducted with administrative funds, and they set a maximum amount that 
can be devoted annually to program ``administration and execution'' (up 
to 8 percent of Wildlife Restoration funds and up to 6 percent of Sport 
Fish Restoration funds).
    While program administration is a relatively well-understood 
concept, neither statute specifies what might constitute program 
``execution.'' In our view, the most logical interpretation of that 
language is that authority to use funds for program execution 
encompasses carrying out activities that further program goals but do 
not involve making grants to states. The Department of the Interior's 
Solicitor has issued several opinions that bear on the interpretation 
of program execution with administrative funds. In 1949, the Solicitor 
advised that administrative funds could be used directly by the 
Department to import bird eggs for the purposes of introducing a new 
species of game birds into this country. In 1955 and again in 1985, the 
Solicitor advised that administrative funds could be used to conduct 
surveys that reported on matters other than the consumptive use of 
wildlife. In 1986, the Solicitor determined that administrative funds 
could be used to carry out a national education program and to do so by 
means of grants to ``public or private agencies and organizations.''
    The existing legislation does not specifically direct that either 
the Administrative Grant Program or the Director's Conservation Fund be 
established. However, the authority to use funds for program execution 
is sufficiently broad that these types of programs are not precluded.

    Question 4. On August 10, 1999, the Fish and Wildlife Service 
provided you with a letter enumerating a number of actions it was 
taking to address the concerns raised in your testimony. In light of 
your work in 1993 and 1999, what confidence do you have that the 
Service will actually follow through on its commitments and implement 
the kind of corrective actions it mentions in its letter?
    Response. We are hopeful but not confident that these actions will 
result in lasting change. Our lack of confidence is due to the Office's 
(1) record in dealing with identified problems and (2) reinstatement or 
resurrection of programs under different names that had been terminated 
in response to prior recommendations.
    In 1993, we reported on a number of problems with the use of 
administrative funds for the Sport Fish Restoration Program and made 
recommendations to the agency on how to correct them. In 1994, the 
Department of the Interior notified the Congress that it and the 
Service confirmed their agreement with each of the recommendations in 
our report and identified actions taken in response to the 
recommendations. However, our work in 1999 on the Wildlife Restoration 
Program shows that the assurances given to both the Congress and to us 
in 1993 and 1994 led to little actual change. For example, in response 
to our recommendation that all administrative costs be thoroughly 
documented, the Service stated that it had a system allowing it to 
maintain a comprehensive file for documenting all direct charges 
against the Sport Fish Restoration and other Office of Federal Aid 
programs. Nearly 6 years later, we found that, in many instances, we 
could not track and verify the status of a grant, the amounts 
authorized for payment, or the time periods in which the expenditures 
were made. Furthermore, the Office has not effectively used the 
agency's accounting system's capability to identify costs at the 
project level, thus making it impossible to identify all project-
specific costs. Finally, the Acting Director's testimony submitted to 
your committee for the July 20, 1999, hearing stated that an internal 
review the Service initiated 4 years ago raised some of the same 
concerns that we identified about program administration. The Acting 
Director stated that efforts have been under way to address these 
issues ``but are obviously not completed.''
    The Office of Federal Aid responded to issues raised as a result of 
our 1999 work in part by reaffirming existing policy and by terminating 
programs. Reaffirming existing policies is just the first step. 
Management must ensure that these policies are implemented. Our concern 
is that this additional step either will not be taken or that its 
effectiveness will gradually degrade because of a lack of management 
attention, allowing a similar situation to exist in the future. While 
terminating the Administrative Grant Program and the Director's 
Conservation Fund provided a quick response, no statutory or other 
limitation exists to prevent the programs' reinstatement or 
resurrection under different names. This latter point is of concern 
because the Office of Federal Aid responded to our previous report by 
changing its criteria for approving ``special investigations'' (the 
term the Office used for its projects) but then rescinded those 
changes. Hence, rather than limiting grants to a maximum of (1) 
$200,000 per year for each grantee and (2) 3 years or less duration, 
the Office resumed having no limits at all. Also, rather than calling 
the projects special investigations, the Office renamed them 
``administrative grants'' or included them under the Director's 
Conservation Fund. We are concerned that this type of response could 
recur and, as a result, the agency will again face the same management 
problems that we reported on in our July 20, 1999, testimony.

    Question 5. You have talked about problems in Federal Aid's 
management of travel funds. Could you please elaborate on the problems 
you have identified, including providing specific examples of travel 
abuses?
    Response. We found that the Office did not routinely follow basic 
principles and procedures for managing its travel funds. As we stated 
in our July 20, 1999, testimony, the Service's policy is that staff 
working for the Office-like all Service employees-must receive specific 
approval from the Director of the Service before attending certain 
national conferences. However, we found nine instances in which this 
policy was violated by Office staff who attended conferences in 1998 
and 1999. In addition, we found that the head of the Office filed 
almost $68,000 in travel vouchers for 71 trips taken from October 1995 
through June 1999 but was inconsistent in obtaining approvals for his 
travel vouchers. He had a supervisor approve his travel vouchers for 25 
trips taken from October 1995 through February 1997. For travel taken 
from late February 1997 through May 1999, he had subordinates approve 
38 of his travel vouchers amounting to over $39,000 in travel expenses. 
This practice is not permitted under the Service's travel policy.
    When we questioned the practice of having a subordinate approve a 
supervisor's travel voucher, we were told that the Service's existing 
policy allowed subordinates to sign travel vouchers, and we were 
provided with a copy of a 1991 policy. However, the 1991 policy 
pertained to situations in which an office was isolated or 
geographically removed, making it difficult to obtain proper 
supervisory approval. Regardless, the policy had been superseded in 
1992 by a policy specifically requiring supervisory approval for travel 
vouchers. In addition, a statement printed on the back of the travel 
authorizations specifies that a supervisor is responsible for approving 
a travel voucher.
    After we provided our testimony to the House Resources Committee on 
this issue in July 1999, the Service concurred with the problems we 
identified. In its August 10, 1999, letter to us, the Service said that 
it has suspended the use of open travel authorizations for the Office's 
entire staff and has reapprised all Service staff of its travel rules 
and regulations. In addition, the head of the Office was directed to 
submit all future travel vouchers to his supervisor, the Assistant 
Director for External Affairs, for appropriate review.

    Question 6. Have you identified any additional issues with the use 
of General Administrative Service (GAS) funds by the Fish and Wildlife 
Service?
    Response. In addition to the issues we addressed on our July 20, 
1999, testimony, we have identified two other issues that indicate that 
GAS assessments were either too high in the past or could be lowered in 
the future. The first issue relates to the potential impact on the GAS 
assessment from projects and initiatives funded under the Servicewide 
Administrative Support account managed by the Fish and Wildlife 
Service, which pays for overhead and support expenses such as rental 
payments, telephone service, postage, and training. This account is 
funded from three sources: (1) appropriated funds, (2) reimbursable 
agreements, and (3) GAS. The GAS portion is made up of assessments made 
to the Sport Fish and Wildlife Restoration programs and nine other 
programs.
    From fiscal year 1990 through fiscal year 1998, the Servicewide 
Administrative Support account funded over $10 million in projects and 
initiatives by the Fish and Wildlife Service Director's Office, some of 
which are questionable as central administrative support for the 
Service. Examples of the questionable Director's Office projects and 
initiatives funded under the Servicewide Administrative Support account 
include $400,000 for Atlantic salmon work, $200,000 for wolf monitoring 
and reintroduction, and $100,000 for rhinoceros conservation studies. 
These projects and initiatives were in addition to projects funded by 
the Director's Conservation Fund.
    Service officials said that none of these projects and initiatives 
was funded with the GAS component of the Servicewide Administrative 
Support account. Regardless of which component paid for these expenses, 
if these projects had not been funded, the GAS contribution to the 
account could potentially be reduced. In July 1999, the Service advised 
us that Servicewide Administrative Support funds would no longer be 
used to fund the Director's Office projects and initiatives.
    The second issue relates to the unobligated balance in the 
Servicewide Administrative Support account at the end of the fiscal 
year. On the basis of data we obtained, this account had unobligated 
balances at the end of fiscal years 1990 through 1998. These balances 
ranged from as high as about $7 million in fiscal year 1990 to as low 
as about $100,000 in fiscal year 1998. Service officials informed us 
that these unobligated balances relate to the appropriated fund 
component of the Servicewide Administrative Support account. In total, 
from fiscal year 1990 through fiscal year 1995, over $12 million in 
unobligated balances expired and were not available for use in the 
following fiscal year. Hence, for those years, the GAS component of the 
account could have been reduced. To illustrate, in fiscal year 1990, 
the Service's total GAS assessment was about $5.5 million, of which 
almost $5.2 million came from the Sport Fish and Wildlife Restoration 
programs. In that same year, about $7.4 million in unobligated funds in 
the Servicewide Administrative Support account expired. If the Service 
had spent all of its appropriated fund component in the Servicewide 
Administrative Support account, it would have needed less from the GAS 
component. That should then have translated into a reduced GAS 
assessment and the potential for additional program funds to go to the 
states and other qualified government recipients. Beginning in fiscal 
year 1996, Interior's appropriations acts have stipulated that 
appropriated funds can be obligated over 2 years instead of just 1. And 
as a result, it is unlikely that any unobligated balances will expire.

    Question 7. The Administrative Grant Program was carried out in 
close cooperation with the Grants-in-Aid Committee of the International 
Association of Fish and Wildlife Agencies, raising questions about the 
committee's role. If the now terminated Administrative Grant Program 
was to be reconstituted, should Federal Aid officials reshape the 
committee's involvement in the grant approval process?
    Response. As it was previously conducted, the Administrative Grant 
Program relied heavily on an outside group, the Grants-in-Aid Committee 
of the International Association of Fish and Wildlife Agencies, to 
recommend both the direction of the program and the award of 
administrative grant funds. (See our response to question 1.) Because 
the committee's role was so central to the functioning of the 
Administrative Grant Program, officials of the Office of Federal Aid 
and others questioned whether the committee should have operated within 
the framework of the Federal Advisory Committee Act (FACA). That act 
requires, among other things, that a notice of meetings be published in 
advance in the Federal Register and that papers, records, and minutes 
of meetings be available to the public.
    The International Association of Fish and Wildlife Agencies is 
composed of delegates from the 50 state fish and game authorities, 
foreign governments, private organizations, and officials from the 
Office of Federal Aid. With about 50 members, the Grants-in-Aid 
Committee included state and private delegates as well as key staff 
from the Office of Federal Aid. The committee played an integral part 
in managing the Administrative Grant Program, setting the focus areas 
each year for which grant proposals would be solicited. It also 
evaluated and ranked eligible grant proposals, including proposals from 
its parent organization, the International Association of Fish and 
Wildlife Agencies. Finally, it recommended those grants it believed the 
Office of Federal Aid should fund and the amount of funding for each 
grant. The committee's grant recommendations were typically adopted and 
implemented by the Office.
    The Grants-in-Aid Committee was not chartered as a Federal Advisory 
Committee. As a result, it performed the functions described above 
independently and outside the public view. FACA requires, among other 
things, that advisory committees be chartered and reviewed every 2 
years by the agency head, that committee membership be representative 
and balanced, and that committee proceedings and records be open to the 
public.
    Officials of the Department of the Interior have questioned the 
Grants-in-Aid Committee's status. For example, in a November 1991 memo, 
the Chief of the Federal Aid Office stated that he believed that the 
grant review process used the committee in an advisory capacity and 
that the committee would need to comply with FACA. This opinion was 
shared by the Chief's supervisor who informed the Director of the 
Service in a January 1992 memo, ``The use of the Grants-In-Aid 
Committee has not been approved under the Federal Advisory Committee 
Act and also raises an appearance of a conflict of interest.'' He went 
on to state that it would be in the best interest of the Service to 
discontinue this practice to avoid any further questions or criticism 
of the Service. Although this concern was raised informally to the 
Department of the Interior's Office of the Solicitor, a written opinion 
was not requested, because, according to Service and Office of Federal 
Aid officials, the informal advice they obtained was that there was no 
violation of FACA.
    We did not make a determination about whether the committee should 
have been subject to FACA's requirements. The applicability of the act 
to the committee's activities was outside the scope of our audit work. 
Because the Administrative Grant Program has recently been terminated, 
questions about its former procedures are at this point academic. 
Nevertheless, the committee guided the disbursement of about $4 million 
in Federal Aid funds to administrative grantees each year. It 
functioned as a virtual partner in managing the Administrative Grant 
Program, and because it was never brought under FACA, it operated 
largely without supervision and behind closed doors. If the 
Administrative Grant Program were to be reconstituted, the role of any 
outside group in setting grant program parameters and in evaluating and 
ranking potential grantees should be tailored appropriately. If the 
role is not substantially more limited than what had previously 
existed, there should be a formal determination that the group is 
functioning consistent with FACA.

    Question 8. Are the regional offices in the Fish and Wildlife 
Service using Federal Aid funds to pay for regional activities in a 
consistent manner?
    Response. As we discussed in our July 20, 1999, testimony, we found 
that the Service had no consistent practices for making regional office 
assessments. These assessments are charges that the regions make 
against the administrative funds for salaries, travel expenses, support 
costs, and other administrative activities. Each of the regions uses a 
different approach for making the assessments.
    In its August 10, 1999, letter to us, the Service said that it has 
sought to establish a workable degree of consistency to the regional 
use of administrative funds. It said that as part of its annual budget 
guidance, it has told its regions that no assessments may be levied 
against any program, budget activity, subactivity, or project funded by 
the Federal Aid in Wildlife Restoration Act unless advance notice of 
such assessments and their bases are presented to the Committee on 
Appropriations and are approved by the committee. Subsequently, Service 
and Office of Federal Aid officials told us that they provided this 
guidance since 1997. The Service also said that not all of its regions 
have followed this guidance. To ensure adherence to this stated policy, 
the Service said that it would identify and adopt specific steps to 
help provide consistency and uniformity. It also plans to seek guidance 
in this area from a State/Federal Aid Review Team that has been formed 
to evaluate the administration of the Federal Aid program. The Service, 
however, failed to identify the specific steps it plans to take or the 
schedule for completing them. Service and Office of Federal Aid 
officials told us that they are currently developing a plan that 
identifies the steps needed and their completion dates.

    Question 9. You emphasized the absence of routine audits of Federal 
Aid's use of administrative funds. However, many, perhaps even most, 
federal programs are not routinely audited. Why do you think routine 
audits are so important in the case of the Federal Aid program?
    Response. We think routine audits of the administrative funds are 
needed for several reasons. First, unlike most other federal programs, 
Federal Aid receives dedicated tax revenues each year to administer its 
programs. As a result, program officials do not have to publicly 
justify the programs' spending levels before the Congress each year. 
Second, although Federal Aid provides bi-annual reports on its programs 
to the public, it does not fully disclose all of its spending, as our 
work has shown. For example, the spending associated with the use of 
administrative funds by the Director's Conservation Fund and the 
Service's regional offices is not discussed in these reports. Third, 
only three audits of the administrative funds have been performed over 
the past 20 years, each of which has identified some significant 
management problems. Since the program funding does not have to be 
appropriated and no routine audits are performed, the Federal Aid 
program has had very little oversight.
    Routine audits will provide independent scrutiny of how these funds 
are spent. Given the problems we identified in the Federal Aid programs 
in 1993 and the problems we again found in 1999, we believe that 
routine audits of the use of administrative funds are essential. 
Service and Office of Federal Aid officials told us that they have a 
proposal from an independent firm to perform an audit of the 
administrative funds covering fiscal years 1999 and 2000.

    Question 10. Do you think it is appropriate for Fish and Wildlife 
Service's regional Federal Aid officials to be responsible for 
resolving the audit findings of the Defense Contract Audit Agency's 
(DCAA) state audits?
    Response. The Office of Federal Aid initiated a national audit 
program in fiscal year 1996 to routinely audit how states and other 
qualified government recipients are using the grant funds provided 
under the Sport Fish and Wildlife Restoration programs. Under the audit 
program, each recipient of grant funds will be audited every 5 years 
under a contract with the DCAA. Resolution of the audit findings is the 
responsibility of the Service's regional Federal Aid office covering 
the entity being audited.
    In our opinion, having the Service's regional Federal Aid offices 
perform audit resolution is problematic because it places them in a 
situation of performing dual and somewhat conflicting roles and 
responsibilities. One of the primary missions of the regional offices 
is to work closely with the states in advocating and encouraging their 
participation in the Federal Aid program to enhance the states' 
wildlife and fishery resources. To have these same offices policing the 
program by charging them with resolving audit findings could make it 
more difficult to maintain independence and comply with existing 
internal control standards governing the separation of duties. \2\ 
According to these standards, key duties and responsibilities in 
authorizing, processing, recording, and reviewing transactions should 
be separated among individuals. Furthermore, the deterrent for the 
states to spend funds inappropriately could be jeopardized if the audit 
resolution process is not independent of an organization that has a 
significant role in encouraging the use of grant funds. DCAA officials, 
who perform the audits of the states, also raised this concern to us. 
According to these officials, the Service and the states have a 
partnership, and it may be difficult for a regional Federal Aid office 
to hold states responsible for making the repayments indicated by audit 
findings. Therefore, assigning the responsibility for audit resolution 
to a Department of the Interior organization other than the Service's 
regions would seem more appropriate.
---------------------------------------------------------------------------
    \2\ Standards for Internal Controls in the Federal Government, U.S. 
General Accounting Office, 1983.

    Question 11. In addition to grants made via the Director's 
Conservation Fund and the Administrative Grant Program, during your 
work did you find evidence of other grants?
    Response. We found that the Office of Federal Aid's headquarters 
made grants in addition to those made from the Director's Conservation 
Fund and the Administrative Grant Program. We identified 18 other 
grants amounting to about $2.6 million that were awarded from fiscal 
year 1994 through fiscal year 1998. The grants ranged from $5,000 
awarded to a high school for student training in aquatic environment 
and fisheries management to $400,000 each to three marine fisheries 
commissions. For example, the Gulf States Marine Fisheries Commission 
received its $400,000 in fiscal year 1994 to develop a work plan for 
the sport fish restoration administrative program. Other examples of 
these grants include $25,000 to a state game commission to conduct a 
symposium on North America's hunting heritage, $60,000 to a university 
to publish and distribute a fish and wildlife laws newsletter, and 
about $93,000 to a management firm to produce a handbook for fish and 
wildlife managers and administrators.
    It should be noted that the Federal Aid reports made available to 
the public do not divulge the existence of these grants, why they were 
made, or what the funds were used for, even though the reports 
explicitly state that their intent is to provide a complete accounting 
of where the Federal Aid funds are spent. For example, the message from 
the Office Chief appearing in a 1997 program update states, ``This 
Program Update is intended to remove the mystery of where the money 
comes from and where it goes, to inform the reader about current 
Federal Aid issues and opportunities, and to build knowledge of and 
credibility for the Sport Fish and Wildlife Restoration grant programs 
and the U.S. Fish and Wildlife Service.'' Similarly, in a program 
update for 1999, the Office Chief stated that ``it is in the 
conservation community's best interest'' that the Office provides as 
much information as can be absorbed.
                                                   (141477)
                               __________

 STATEMENT OF JAMIE RAPPAPORT CLARK, DIRECTOR, U.S. FISH AND WILDLIFE 
                  SERVICE, DEPARTMENT OF THE INTERIOR

    Thank you for the opportunity to discuss the Fish and Wildlife 
Service's administration of the Federal Aid in Wildlife Restoration 
Program (Pittman-Robertson Program) and the Federal Aid in Sport Fish 
Restoration Program (Dingell-Johnson or Wallop-Breaux Program), and the 
pending legislation to revise our administrative authorities for those 
programs, H.R. 3671 and S. 2609.
    The Federal Aid program became the source of considerable 
controversy following testimony by the General Accounting Office before 
the House Resources Committee last year, and often unfounded charges by 
various organizations. We acknowledge many of the concerns GAO pointed 
out in their House testimony last year. Where they identified problems-
-and there were problems--we have worked aggressively, and we believe, 
successfully, to resolve them.
    We believe enactment of legislation to clarify authorities for 
administration of the Federal Aid program could be beneficial to the 
program, and play an important role in reassuring America's sportsmen 
and sportswomen that their tax dollars are being used for the intended 
purposes. However, there are three elements of both bills with which we 
have considerable concern, which I will detail later in my statement. 
We could support enactment of either bill if these concerns are 
addressed.
    At the same time we acknowledge many of GAO's concerns, I want to 
assure the committee that the sensational charges made in elements of 
the news media and by some organizations are completely unfounded. No 
funds have been stolen, no grants have been made to animal rights or 
anti-hunting groups, nor has any illegal expenditure been made with 
these funds. As you know, the grant programs established under the 
Federal Aid in Sport Fish Restoration Act (Wallop-Breaux Act), Federal 
Aid in Wildlife Restoration Act (Pittman-Robertson Act), Clean Vessel 
Act (pump-out), and the Coastal Wetlands Planning, Protection and 
Restoration Act provide a broad array of benefits to the States. These 
funds have helped states restore fish and wildlife habitats, develop 
thousands of boating access sites and sanitation pumpout facilities, 
and restore thousands of acres of wetlands. In addition, millions of 
the Nation's young hunters have taken hunter education courses offered 
by the States, making hunting a safer family activity.
    Funds for these programs are collected from excise taxes paid by 
sportsmen on firearms and ammunition, archery equipment, fishing tackle 
and motorboat fuels. These programs are administered by the Service 
through our Division of Federal Aid. They are perfect examples of user-
pay, user-benefit conservation mechanisms and they are being studied by 
other countries as potential models for their own conservation efforts.
    This year, the Fish and Wildlife Service provided almost $500 
million to states to manage the Nation's fish and wildlife resources 
and related programs from excise taxes provided by sportsmen. Since the 
beginning of the first grant program--the 60 year old Wildlife 
Restoration program--over $7 billion has been provided to the States.
    I would also like to point out that the Federal Aid program picture 
is not entirely a negative one. Additional funds have been made 
available for allocations to the States as a result of a Federal Aid 
initiative. In 1998, the Service initiated a Working Group, comprised 
of representatives from the offices of Senator John Breaux and 
Congressman John Tanner (representing the Congressional Sportsmen's 
Caucus), International Association of Fish and Wildlife Agencies 
(IAFWA), Wildlife Management Institute, Archery Merchants and 
Manufacturers Organization, Internal Revenue Service, the Customs 
Service, and the Bureau of Alcohol Tobacco and Firearms, to review the 
accuracy and timing of excise tax collections and deposits in the 
Wildlife Restoration Account.
    As a result of this Working Group's efforts, more than $20 million 
was recovered and transferred to the Account. These funds were 
allocated to the States in fiscal year 1999.
    Our efforts also identified ways to transfer excise taxes to 
Treasury more rapidly from the Internal Revenue Service. Over $10 
million in excise tax collections are now available for apportionment a 
year earlier than in the past. These earlier transfers lead to more 
interest accrual to the accounts. In addition, we initiated with 
Treasury's Bureau of Public Debt, a reconciliation of the Sport Fish 
Restoration and Boat Safety Accounts within the Aquatic Resources Trust 
Fund, which has returned significant funds to the Sport Fish 
Restoration Account. Other efforts, such as coordinating closely with 
the Corps of Engineers to identify their long-term construction 
schedule under the Coastal Wetlands Planning, Protection and 
Restoration Act, led to improvements in investment strategy for those 
funds, in that we were able to invest at higher rates.
    We have also initiated, with assistance from the States and 
industry, a training program for IRS District Office Excise Tax agents 
who are responsible for monitoring collection of the program excise 
taxes. The program is designed to give them a better understanding of 
what items are to be taxed and how the revenues are used by the States.
    We feel that our oversight and management of revenues has been 
aggressive, innovative and productive, resulting in many tens of 
millions of dollars being available for the Federal Aid programs. We 
look forward to the time in the near future when we will be able to say 
the same of our internal operations related to these programs.
    I want to begin my detailed discussion of this issue by pointing 
out that a considerable number of changes to improve administration of 
the Federal Aid program were underway at the time the 1999 GAO review 
began. Additional actions have been taken as a result of the 1999 GAO 
House testimony. I would note that we have not received a final report 
from the GAO on their current review of the program, although I have 
formally asked for it in writing. In 1993, GAO released a report on 
administration of the program that made the following recommendations: 
1) require the Washington and Regional offices to document and support 
all administrative cost charges made to the Federal Aid program; 2) 
equitably allocate among all applicable programs the costs of 
initiatives that benefit the Service or Department as a whole; and 3) 
follow established policies and procedures when selecting special 
investigations (which later became the Administrative Grants and 
Director's Conservation Fund), consider the priority needs of the 
States in making these grants, and monitor them to ensure objectives 
are achieved and results disseminated. Later that year, we initiated a 
new budget review process to ensure that all requests for Federal Aid 
funds were adequately justified, and the Federal Aid program began 
maintaining files of all direct charges to the Sport Fish Restoration 
program.
    In 1994, we implemented another of the GAO recommendations by 
revising the formula by which Service programs were assessed for 
general administrative services, which reduced amounts assessed against 
the Federal Aid office, and we required that calculation of the amount 
needed for these general administrative services be reviewed annually. 
We ended the practice of charging overhead costs to the State grants 
portion of the account, and implemented the practice of describing 
cross program initiatives involving Federal Aid in the Service's Budget 
submission.
    We implemented another GAO recommendation by publishing in the 
Federal Register policy and procedures for funding special 
investigations, redesignated as Administrative Grants; this was 
published annually from 1994 until the program was terminated in 1999. 
We also referred all proposed grants which met the criteria to the 
Grants in Aid committee of the International Association of Fish and 
Wildlife Agencies, (IAFWA) which represents all of the State wildlife 
agencies, in order to receive their advice on priorities for funding 
these programs, again as recommended by GAO.
    In 1997, we issued guidance to Regional Directors relating to 
approvals for charges against the Federal Aid accounts.
    Taken together, these initiatives represent an agency response to 
every recommendation that was made by GAO in 1993, and in a manner 
consistent with those recommendations.
    We also had our own on-going efforts to improve the program. In 
1996, we initiated, apart from the GAO recommendations, a new program 
to audit the State's use of funds apportioned under the Federal Aid 
program. We also began to design a new grant management information and 
tracking computer system.
    In September of 1998, we published a Federal Register query to 
solicit public input to identify better ways to manage administrative 
grants. Subsequently, we decided to terminate the administrative grants 
program. In a May 12, 1999, letter to the IAFWA, the Service announced 
its plans to eliminate the grants program due in part to concerns 
received in response to the Federal Register notice regarding the 
management of these grants. In July, we published a Federal Register 
notice terminating future Federal Aid administrative grants.
    During the Fall of 1998, in our review of the uses of 
administrative funds, we became concerned about the Director's 
Conservation Fund. While these funds supported many worthwhile 
conservation projects, it was decided to reduce the funding available 
during Fiscal Year 1999 and to terminate the program for future years. 
Notification was made on this decision in March 1999.
    Another initiative of the Service was the establishment of a State/
Federal Review Team to review administration of the Federal Aid 
program. During a meeting with the IAFWA in March 1999, the Service 
initiated an oversight evaluation of Washington and regional-level 
administration of the Federal Aid program to be conducted in 
cooperation with our State partners. The State/Federal Review Team met 
formally for the first time on July 27 and 28, 1999, and then again on 
August 4, 5 and 6. The Team identified ways in which the Federal Aid 
program could be more efficient, effective and responsive. During this 
evaluation, the Review Team also considered current and previous GAO 
findings and recommendations to improve program management.
    In addition, we have established a new audit program for grant 
funds in all the states. The audit cycle will complete in-depth audits 
of all States by the end of Fiscal Year 2001. The audits are being 
conducted independently by the Defense Contract Audit Agency. These 
audits are coordinated fully with the Office of Inspector General and 
they cover only audit areas not covered by state auditors under the 
Single Audit Act. Many state departments of natural resources have had 
little or no audit coverage in over 15 years.
    I want to stress that all of these actions and decisions were taken 
well in advance of receiving any input from the GAO from its 1999 
review of the program.
    I would now like to address the specific issues raised by GAO in 
their House testimony last year. First, GAO's testimony refers to an 
$85 million discrepancy as the Service attempted to reconcile accounts 
in its new grant financial management and information system. However, 
this figure was not then accurate, and the nature of the actual 
discrepancy must be put in context. Many of these errors represent 
differences among balances in a system maintained by the Division of 
Federal Aid and the official administrative accounting system used to 
track all Service funds.
    Since 1986, the Division of Federal Aid had maintained its own 
records rather than rely upon the Service-wide Federal Financial System 
(FFS) as the primary system to track its funds, as Federal Aid did not 
believe the FFS system provided the information it needed. The primary 
difference is that the Division of Federal Aid kept track of amounts 
obligated for transfers to the States, while the FFS system tracked 
actual expenditures (i.e. the transfer of the funds to the States). The 
obligations and expenditures did not occur at the same time, leading to 
apparent discrepancies in the bookkeeping when records from one system 
were compared to the other.
    In 1998, in order to address this and other problems, the Federal 
Aid Office and the Service's Division of Finance commenced a joint 
effort to identify the specific grant records, correct data errors, and 
most importantly, create an interface between the systems. This 
reconciliation has been a time and labor intensive effort, but we have 
fully reconciled these records, with every dollar accounted for. We are 
also confident that we will complete implementation of the new 
interface later this month, and that it will eliminate recurrence of 
this problem.
    It is important to note here that the error was in how Federal Aid 
maintained its own set of books, which were not reflective of how money 
was actually expended by the financial arm of the Service, and that no 
funds have been lost.
    Second, to address the financial management weaknesses within the 
Federal Aid program that the GAO identified, we established six 
internal working teams and a management structure to guide the efforts 
of the teams. The structure and approach are based upon discussions 
held with Federal Aid representatives and auditors for both GAO and the 
Inspector General. These teams focused on financial reconciliation, 
grants management, audit resolution and the Federal Aid Information 
Management System (FAIMS). Recommendations from each team are being 
implemented into the program.
    Third, GAO's testimony identified a ``missed opportunity to earn 
over $400,000 in interest income.'' GAO is referring to an advance 
payment of $9.7 million the Service transferred to the Bureau of Census 
for work on the National Survey of Hunting, Fishing and Wildlife 
Associated Recreation. The advance payment represented the amount we 
believed at the time was necessary for the Bureau of the Census to 
ensure on-schedule completion of the survey. We recognize that interest 
income was lost. To avoid similar future losses, we have, in 
coordination with the Bureau of Census, developed a cash forecast of 
the needs to support the survey work and instituted a policy to make 
only those payments essential for incremental progress in carrying out 
the survey. Thus, interest income will not be lost in the future.
    Fourth, GAO's testimony noted travel discrepancies in the Office of 
Federal Aid. Concurring that this problem warranted immediate 
attention, the Service rescinded the open travel authorization for the 
entire office, re-apprised all staff of Service travel rules and 
regulations, and required all Office travel to be approved by the 
Assistant Director for External Affairs until last month, when the new 
Division Chief was in place.
    We also reviewed all international travel between 1994 and 1999, 
and found 6 trips which appeared related more to conservation in the 
host nation than the administration of the Federal Aid program. Those 
costs have been repaid to the Federal Aid accounts.
    Fifth, GAO's testimony noted that the Service does not have a 
routine audit program for the review of the use of administrative 
funds. In 1998, the Service initiated efforts with the Defense Contract 
Audit Agency (DCAA) to establish such an audit program, but DCAA 
ultimately advised us they would be unable to develop this program. The 
Service agrees that an audit program for administrative funds is 
important and has contracted with an outside auditing firm to conduct 
such an audit. We expect to receive an interim report on their audit of 
FY 1999 administrative funds next month, and an audit of the current 
fiscal year's funds will begin following completion of the FY 1999 
audit.
    Another issue discussed by GAO was a stated lack of uniformity or 
guidance with respect to Service regional office uses of administrative 
funds. Although direct administrative support services constitute a 
legitimate use of administrative funds, the Service has sought to 
provide a workable degree of consistency--recognizing that our State 
clients and their needs vary dramatically from Region to Region. As 
noted earlier, we issued guidance on this issue in 1997. Thus, contrary 
to the GAO testimony, there was and is guidance on this subject.
    We unfortunately must acknowledge that not all Regions followed 
this guidance. I have had a direct and pointed discussion about this 
with all of our Regional Directors following the House hearings, and 
believe this issue is resolved.
    Lastly, GAO's testimony refers to an accumulation of ``over 
$100,000 in contract generated fees, the disposition of which is 
unclear.'' The Service has thoroughly reviewed the contract in question 
and finds no ambiguity whatever regarding the ``fees'' generated under 
this contract. The contract specifically states that the Government 
pays to the contractor the costs of providing services to cooperators. 
The contractor is allowed to charge non-cooperators, primarily non-
government organizations and private researchers, costs for copying, 
compiling, and mailing information they request. Thus, the ``generated 
funds'' are not ``profits'' to the contractor, but are fees the 
contractor collects to offset its costs.
    Now, I would like to address the Service's use of administrative 
funds to provide grants. This has been one of the most contentious 
issues in the House Committee's review of the Federal Aid program. The 
Federal Aid in Wildlife Restoration Act authorizes the Service to use 
up to 8 percent of the funds in the program for administration and 
execution of the program. The Federal Aid in Sport Fish Restoration 
statute authorizes the Service to use up to 6 percent of funds (after 
making certain deductions) for necessary investigations, administration 
and execution of that program. Congress gave the Secretary and the 
States considerable flexibility to determine within the parameters of 
the law which programs or projects to fund. We acknowledge that our 
management processes for overseeing these grant funds were deficient. 
But we also believe that under current law the Service enjoys 
considerable leeway in identifying and funding timely and important 
conservation opportunities with these funds.
    We would point out that the concept of awarding of grants utilizing 
administrative funding from the Sport Fish and Wildlife Restoration 
programs to provide information and assistance to the Service and the 
State fish and wildlife agencies has been an ongoing process, over many 
years, withstanding legal scrutiny from the Department of the Interior 
Solicitor's Office, and has been supported by State agencies.
    As far back as 1955, the Solicitor's Office issued an opinion 
recognizing that administrative funds could be utilized to fund a 
project aimed at surveying the expenditures of boaters and anglers. In 
1986, the Assistant Solicitor for Fish and Wildlife affirmed the 1955 
opinion, and endorsed the concept that the funding of administrative 
grants was justified where the information developed from such projects 
would be valuable in administering the Federal Aid Program, and would 
be useful to States in determining the types of restoration projects 
for which Federal assistance was being sought.
    Acquiring such information serves the administration of the Federal 
Aid program, and the authority for the Service to enter grant 
agreements for this purpose is delegated from the Secretary's authority 
under the Fish and Wildlife Coordination Act (16 U.S.C. 661), which 
authorizes the Secretary to provide assistance to and cooperate with 
Federal, State and public or private agencies or organizations for a 
broad range of fish and wildlife purposes.
    While we recognized that corrective measures were needed to improve 
management of the Administrative Grant program, and began to identify 
better ways of managing the program prior to its cancellation, we 
maintain that the Service's use of administrative grants to fund 
special projects has served a valuable function to both the Service and 
the States in administering the Federal Aid program. Nonetheless, as I 
have already stated, we have terminated the Administrative Grants 
Program.
    Both H.R. 3671 and S. 2609 address this issue by providing a 
statutory basis for the grants. We have no objection to this, and would 
defer to the States as to the amount of funds which should be available 
for these grants. The Fish and Wildlife Service took very seriously the 
criticism of our management of the Federal Aid program by the General 
Accounting Office, although as noted above we strongly disagreed with 
certain elements of their statement. We have taken a number of actions 
to improve the program since the GAO testimony, in response to their 
concerns and the recommendations of the Federal-State Review Team.
    In part due to the Team's recommendation and in part due to our own 
on-going workload analysis, we have instituted re-alignments in both 
the Washington and Regional Offices which will place Federal Aid, 
Migratory Birds and other state-related programs under the same 
management. Until recently, Federal Aid was under the Assistant 
Director for External Affairs, who also supervises the Service's 
Congressional and Public Affairs programs. The time needed for these 
two activities makes it virtually impossible for this individual to 
provide effective day-to-day management or oversight of the Federal Aid 
program.
    In addition, the chief of the Washington office of the Federal Aid 
program was assigned to other duties earlier this year, and then 
accepted a position at another agency. His replacement, an individual 
both familiar with the program and with a strong financial background, 
is now on board. Similarly, in the Regional Offices, the Federal Aid 
offices now report to senior managers with strong mandates.
    This last year we have initiated cost saving measures in every area 
of the our administration of the program, returning $3 million of the 
funding available to us to the States for their use this year, and are 
actively pursuing ways to further economize in program expenditures. As 
part of this effort, we are initiating an analysis of the program 
operations nationally, with the assistance of an outside contractor, to 
determine the number of staff and the expertise needed to properly 
administer this program. We are also reviewing, and have met with the 
States regarding, ways to streamline compliance with Federal 
requirements relating laws such as the Endangered Species Act, National 
Environmental Policy Act, Americans with Disabilities Act, and the 
various civil rights statutes.
    We believe that we have undertaken strong and effective action to 
address the problems within our Federal Aid office. We are not yet 
where we want to be, but we are getting there. We welcome the oversight 
provided by this committee as an important element in ensuring that we 
operate these programs in an effective and efficient manner.
    I mentioned at the beginning of my statement that we had three 
concerns over the pending bills. The first and most important is that 
in their effort to downsize our administrative effort, the bills do not 
provide sufficient funds to administer the program. Both bills provided 
$14,180,000 for FY 2001, and declining amounts over the next two years, 
after which time the funding level would increase with the cost of 
living. Currently, we are authorized not to exceed 8 percent of the 
Wildlife Restoration funds and not to exceed 6 percent of the Sport 
Fish Restoration funds for administration, or about $32 million 
annually.
    We have proposed to reduce this to not to exceed 4 percent for each 
program, or approximately $18.8 million, and a language change that 
would provide for including the ``small grants'' programs statutorily 
created within the Sport Fish program as part of base on which the 4 
percent is calculated.
    We are thus proposing a 50 percent reduction in administrative 
funds under the Wildlife Restoration account, and a reduction of one-
third in available funds under the Sport Fish Restoration account. 
However, we cannot go lower than this and properly run the program.
    The House funding level, which is repeated in S. 2609, is 
inadequate. The House Committee majority decided that there should be 
63 employees administering the program nationwide, with a budget of 
$10,000,000, and set forth in the committee report the numbers of 
persons, titles and grade levels they felt were appropriate for each 
Federal Aid office. In contrast, we currently have an authorized full 
time employee (FTE) level for the program of 146, and due to our 
efforts to economize, approximately 120 people actually on board.
    In negotiations after we strongly objected to this funding level, 
the majority staff offered to provide funding for the current staff, 
with a phase-down to a lower staff number. Among the information we had 
provided to the House Committee was that the total cost in salary and 
all benefits for an average Federal Aid employee was $76,000. They 
reached the $14,180,000 figure by on-the-spot multiplication of the 
$76,000 figure by the 57 additional employees now on the payroll, and 
adding that to the amounts they had previously calculated were needed 
for the 63 FTE program. They subsequently provided us with corrections 
to those calculations, and we have shared them with your committee's 
staff.
    However, in doing this, they provided no additional funds for 
overhead for these additional 57 employees. The very existence of these 
employees would result in additional costs to us for telephones, 
computers, rent, utilities and other indirect costs. The funding levels 
in these bills would realistically support approximately 85 employees, 
and could result in a Reduction in Force (RIF) for the Federal Aid 
program.
    The most frustrating aspect of this for us is that there has been 
no public suggestion from GAO, the States, or any organization 
representing hunters, anglers or boaters--those who pay the taxes and 
benefit from the programs--that the Federal Aid program is overstaffed.
    We therefore strongly urge the committee to adopt the reduced 
administrative funding levels for these programs that we have proposed, 
rather than the unworkably lower amounts called for in the two bills. 
We support the requirements in both bills that a budget justification 
for use of these funds be submitted to the authorizing committees each 
year, so you will have every opportunity to review how we propose to 
spend these funds. Furthermore, if the review of the program staffing 
and expertise needs now underway results in our finding ways to operate 
the program at less cost, we will share that information with you and 
reduce our spending accordingly. However, that review cannot be 
completed in time to be reflected in this legislation. In addition to 
this issue, the bills both set forth 12 categories of allowable 
expenditures. While we have no problems with these, we are concerned 
that there is no provision for unanticipated needs. We propose that we 
be authorized to make an expenditure outside of these 12 categories if 
the Secretary notifies this committee and the House Resources Committee 
in writing in advance, and waits 30 days for any comments you may have. 
This is the same process used with the Appropriations Committees for 
reprogrammings, and has worked well for many years.
    Our last concern is that Title III of both bills contains statutory 
provisions for specific positions and management structures within the 
program. This is unwarranted micromanagement. If the Director of the 
Service is to be held directly accountable for the operation of this 
program and it is quite clear that there will be significant 
Congressional oversight for years to come then the Director should be 
able to manage it in the manner he or she believes most effective. We 
therefore urge the committee to delete sections 302 and 303.
    The oldest Federal Aid program--the Pittman-Robertson Program--is 
more than 60 years old. The Dingell-Johnson or Wallop-Breaux program 
will celebrate its 50th year during the year 2000. Since their 
inception, these programs have contributed over $7 billion to the 
States and U.S. affiliated territories for their fish, wildlife, 
wetlands, and boating projects. Without these programs, many states 
would not have realized the fish and wildlife management successes that 
they now enjoy. Successful administration of this program requires a 
complex network of management systems. Over the past several years, the 
Service has been working energetically to improve these systems so that 
we can keep pace with the evolving needs of the States. These ongoing 
improvements, and others which we will develop as a result of 
recommendations from the Congress, the GAO, and the States, will enable 
us to continue to keep our Federal Aid Programs at the forefront of 
fish and wildlife conservation in the new millennium.
    That concludes my formal statement. I will be pleased to respond to 
any questions you may have.
                               __________

 STATEMENT OF R. MAX PETERSON, EXECUTIVE VICE PRESIDENT, INTERNATIONAL 
               ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Thank you, Mr. Chairman. I am Max Peterson, Executive Vice-
President of the International Association of Fish and Wildlife 
Agencies, and I appreciate the opportunity to share with you the 
perspectives of the Association on the administration of the Federal 
Aid in Wildlife and Sportfish Restoration programs by the USFWS. As you 
are aware, all 50 Sate fish and wildlife agencies are members of the 
Association. These two programs, popularly known as the Pittman-
Robertson Act (wildlife) and Dingell-Johnson/Wallop-Breaux Act 
(sportfish) have to be considered by any follower of fish and wildlife 
conservation as two of the most important federal acts that served as 
the foundation of State-based conservation efforts to ensure the 
sustainability of the fish and wildlife resources of this Nation for 
the appropriate use and enjoyment of our citizens.
    Enacted early in the genesis and growth of the American 
conservation movement (Pittman-Robertson in 1937; Dingell-Johnson in 
1950) these two acts reflect the continuing support of the hunters, 
anglers, boaters and shooters of this country to willingly pay the 
excise tax on hunting and fishing equipment, and outboard motor fuel 
taxes, in order to ensure the conservation of fish and wildlife 
resources, and safe boating use of our Nation's waters. These programs 
are also long-standing examples of good state-federal cooperation in 
the management of fish and wildlife resources, which, as you are aware, 
are principally under the jurisdiction of the States, or under shared 
and concurrent jurisdiction with the USFWS for migratory birds, listed 
threatened and endangered species and anadromous fish.
    The Association is concerned about recent problems with 
administration of these programs by the USFWS and agrees that 
Congressional action and legislative clarification is needed. The 
Association strongly supports action to ensure the integrity, viability 
and continued effectiveness of these highly successful and popular 
programs.
    As you would expect, Mr. Chairman, the Association has had a long 
history of involvement with these programs at every stage of their 
legislative and administrative growth dating back to the early decades 
of the last century. With respect to the use of the up to 6 percent 
(Dingell-Johnson/Wallop-Breaux) and 8 percent (Pittman-Robertson) that 
the statutes make available to the Secretary for ``administration and 
execution'' of the programs, we have raised concerns at various times 
since 1988 with some USFWS expenditures that we considered would not 
fall within either statutory language or a generally accepted 
understanding of what constitutes administration of the program by the 
FWS in their role of delivering the apportioned funds to the States. We 
did this while also recognizing that the statutory language with 
respect to this function of the Secretary lacks explicitness and 
specificity in detail. At a minimum, we believed that, absent explicit 
statutory guidance, the use of the administrative funds should be for 
activities for which both the USFWS and the State fish and wildlife 
agencies concurred. We took our belief in this from the statutes which 
identify the USFWS and the State fish and wildlife agencies as the 
statutory partners responsible for implementing these Acts. And, 
secondly, although it is not explicitly provided for in the statutes, 
the State fish and wildlife agencies and the USFWS have historically 
agreed to use some of these 6 percent and 8 percent administrative 
funds to conduct a National Survey of Fishing, Hunting and Wildlife 
Associated Recreation (since 1955) which has been of immense value to 
the USFWS and the State fish and wildlife agencies in each state. 
Further, for the last 20+ years, the States and the USFWS have agreed 
to use some of these funds to administer a program of grants (the 
National Administrative Grants program) to complete high priority 
projects for national fish and wildlife conservation which have 
benefited all the States collectively. In addition to their on-the-
ground benefits for fish and wildlife resources and our citizens who 
appropriately use and enjoy them, the cost of developing and 
implementing these projects of national benefit to the States is 
significantly less when done ``nationally'' than if each state 
undertook the project on its own. I attach some examples of these 
projects to this testimony for the committee's information.
    The law provides that the funds (up to 6 percent and 8 percent) 
that are not expended by the Secretary for administration of the 
programs are apportioned to the States. Since about 1992, the USFWS has 
used the full 6 percent and 8 percent, including since about 1994, 
funds for the so-called Director's Conservation Fund (which Director 
Clark eliminated in 1999). No provision for State concurrence with 
grants made under this fund was ever employed. Further, in February 
1995 the Service proposed to use $2 million of Sportfish administrative 
funds to support fish hatchery transfers to the States because 
operational funds for this purpose had not been requested in the 
Administration's fiscal year 1996 budget. The Association opposed that 
use of funds, but the Assistant Solicitor for Fish and Wildlife 
concluded that the Director enjoys great discretion to fund activities 
using administrative funds and there was no legal impediment to using 
these administrative funds for hatchery transfers to the States.
    Two years ago, the Director asked the States to undertake an effort 
to improve the efficiency of the administration of the National 
Administrative Grants program, explaining that the cost to the USFWS 
Office of Federal Aid was excessive and constrained their ability to 
effectively administer these funds. After a year of work by our 
Association, including due public notice and review, on a revised 
procedure under which the States would assume a greater administrative 
burden, the Director in July 1999 announced the cancellation of the 
National Administrative Grants. In April of 1999, the Director had 
advised the Association of the discovery of a projected deficit in 
fiscal year 1999 administrative funds, which was attributed to: 1) 
costs of state audits by Defense Contract Audit Agency; 2) cost of 
automating the grants delivery system (FAIMS); and 3) costs of 
administering the small grants programs under Wallop-Breaux. The result 
was cancellation of the NAG program. Enclosed for the committee's 
information is a chronology of these events as contained in a 
resolution adopted by the Association at our Annual Meeting in 
September 1999 in Killington, VT.
    The Association believes also that the use of the GAS overhead 
formula with respect to overhead costs, as opposed to an assignment of 
actual costs, resulted in significantly higher assessment to the trust 
fund programs than to other USFWS programs to which was applied actual 
cost assessment. This practice, since about 1993, also contributed 
greatly to escalating costs in the administration of the Federal Aid 
programs.
    About a year ago, at the Association's request, the Director of the 
USFWS agreed to appoint a joint state-federal review team, co-chaired 
by (now retired) Deputy Director John Rogers and Jerry Conley, Director 
of the Missouri Department of Conservation and Chair of the 
Association's Grants-in-Aid Committee. The agreed to purpose of the 
team was to make recommendations for improvements to the administration 
of the Federal Aid program by the USFWS that would make it more 
efficient, effective, and responsive. While the work of the review team 
proceeded, the Association adopted action at the business meeting 
during its 1999 Annual meeting directing that the Association staff 
work towards the following legislative changes to the administration of 
the Wildlife and Sportfish Restoration Acts:
    1). Clearly define within the Acts the phrase ``for administration 
of this Act'' to indicate only funds necessary for the USFWS to perform 
its function including delivery of apportioned funds to the state fish 
and wildlife agencies by the Secretary;
    2). Specifically authorize in the Acts a program for funding 
projects of national benefit to the States collectively and authorize a 
process for states to approve such projects with a provision to 
apportion funds (to the States) if all are not used; and
    3). Recommend appropriate levels of funding for each of these (1 & 
2) ``subaccounts'', and legislatively protect these subaccounts from 
co-mingling.
    The state-federal review team submitted its final report to all of 
the State Fish and Wildlife Directors and the Director, USFWS, on 
November 17, 1999 with extensive recommendations to improve the 
administration of the Federal Aid programs to make them more efficient, 
more effective and more responsive. In December 1999, the Association's 
Executive Committee met to consider comments from the State Fish and 
Wildlife Agencies on the review team report, and amplified the review 
team report with the following recommendations relative to suggested 
legislative reform of administration of the Federal Aid program:
    1). The Executive Committee reaffirmed the action taken by the 
Association at its September 1999 business meeting.
    2). The Executive Committee reaffirmed that a clearer definition of 
``administration'' needs to be legislatively defined to correct the 
ambiguity that currently exists.
    3). The Executive Committee reaffirmed that the Acts should be 
legislatively amended to specifically authorize a program for funding 
projects of national benefit to the states collectively and to 
authorize a process for states to approve such projects.
    4). The Executive Committee recommended that 3 percent (Dingell-
Johnson/Wallop-Breaux) and 4 percent (Pittman-Robertson) be made 
available under the Act to the Secretary to administer the programs, 
with a phase-in to permit orderly change.
    5). The Executive Committee recommended that 2 percent from each 
Act be made available for projects of national benefit in order to 
fully realize the benefits of projects like the National Fishing, 
Hunting, and Wildlife Associated Recreation Survey and for projects of 
multi-state benefit. A copy of the Executive Committee recommendations 
and the state-federal review team report is appended to this testimony 
for the committee's use.
    Although I realize that this is not a bill hearing Mr. Chairman, 
let me quickly share with you the Association's perspectives on H.R. 
3671 and S. 2609. As you know, H.R. 3671 passed the House on April 5, 
2000 by a vote of 423-2. S. 2609 is similar to H.R. 3671.
    The Association strongly supports legislative reform to the 
administration of the Federal Aid programs in the context of the 
recommendations in the actions taken by the Association which I just 
chronicled for the committee. The Association supports H.R. 3671 
because, in concept, it embraces the Association's position. However, 
we would urge the committee when it turns to marking-up legislation, to 
give serious consideration to the following improvements to H.R. 3671 
which would make it consistent with the details of the Association's 
recommendations and we believe better meet the objective of improving 
the efficiency, effectiveness and responsiveness of the program.
    The recommendations include the following:
    1. H.R. 3671 would provide $5 (or $7 million under S. 2609) 
annually for projects of national benefit. At least four existing 
programs funded at about $4 million from each Act per year (the 
National Fishing, Hunting, and Wildlife-Associated Recreation Survey, 
the Management Assistance Team, the Administrative Grants Program, and 
the Library Reference Service), at the recommendation of and 
concurrence with the States, have been funded for several years by 
administrative funds. The $5 million provided by H.R. 3671 is not 
sufficient to fund these four programs and to include other projects of 
multi-state or national benefit that the States might want to fund 
collectively at much less expense than if each state conducted them 
individually. Examples include coordination in developing an automated 
fishing and hunting licensing project; Hooked on Fishing Not on Drugs; 
an international framework to benefit migratory songbirds across 
Mexico, the U.S. and Canada called Partners in Flight; and other 
examples as appended to this testimony. For the last several years, 
about $2 million for each of the two funds have been used for projects 
of national benefit. IAFWA's position is that 2 percent of each fund 
(approximately $4.5 million each) should be available annually for 
projects of national benefit.
    2. As you know, under existing law, the USFWS can currently utilize 
up to 6 percent of Wallop-Breaux and 8 percent of Pittman-Robertson 
funds to administer the two programs. H.R. 3671 (and S. 2609) would 
reduce this to a straight dollar amount of $14,180,000 the first year, 
and to a further gradual reduction over the next two years. IAFWA's 
position is that 3 percent of Wallop-Breaux and 4 percent of Pittman-
Robertson ($16 million total) funds should be available annually to the 
USFWS for delivery of apportioned funds to the States. The funding 
level of $14,178,000 is not believed to adequately and effectively 
deliver apportioned funds to the States. Failure to adequately fund 
this program does not benefit the states because it impacts timely 
review of projects necessary for prompt reimbursement to States of 
apportioned funds.
    3. Over the years, several grant programs have been added to the 
Sport Fish Restoration Program. These include the Clean Vessel Act 
Pumpout Program ($10 million/year), the Boating Infrastructure Grant 
Program ($8 million/year), and the National Outreach and Communication 
Program ($5-10 million/year). Although these program funds are 
withdrawn before the calculation of administrative funds is made, no 
specific provision is made for funds to the FWS to administer these 
small grant programs. The FWS is now considering using sport fish 
restoration administrative funds to administer these programs. IAFWA 
recommends that the attached language be included in H.R. 3671, 
specifying that administrative costs for each small grant program 
should be made available from the fund specified for each program and 
not from Sport Fish Restoration administrative funds. This would save 
approximately $1.5 million SFRA administrative funds.
    Finally, Mr. Chairman, let me share some observations with you 
about the provision in H.R. 3671 and S. 2609 which would earmark an 
additional amount of Pittman-Robertson dollars to the States for hunter 
education and bow safety programs. I understand that this reflects the 
concern from some in the hunting and shooting sports community that the 
States aren't spending all of the funds available to them under 
Pittman-Robertson for these activities. Our concern is that using only 
the expenditure of Pittman-Robertson funds as a measure of the States 
responsiveness in providing these programs is inappropriate and not an 
accurate reflection of State programs. Further, we believe strongly 
that the State fish and wildlife directors are in the best position to 
determine in their states, through working with their hunting 
constituency what the priority needs for Pittman-Robertson funds are, 
and that these decisions should not be directed from Washington.
    We would thus appeal for contained allowance of the discretion of 
expenditure of these funds by each Director.
    Let me quickly share with you the record of success of the States 
with respect to these programs. A recent survey of state hunter 
education programs revealed that 43 responding states spent $26 million 
on hunter education in fiscal year 1999. This was $3 million more than 
the $23 million of Pittman-Robertson hunter education funds available 
to them for that year. The additional funds come from state hunting 
license and other state appropriated funds. This did not include the 
value of over $7 million of in-kind contribution by their volunteer 
instructors, which number approximately 55,000. Since 1949, more than 
25 million students have received hunter education training.
    The state fish and wildlife agencies have developed and are 
implementing very successful hunter education programs. These programs 
provide mandatory hunter education certification to all first time 
hunters. As a result, hunting related accidents have been reduced 
dramatically. These programs are funded with a mixture of Pittman-
Robertson federal aid funds, state license funds, general 
appropriations and the in-kind contribution of thousands of program 
volunteers. The states are committed to continue and expand hunter 
education and safety programs, a well as archery and firearm range 
construction and enhancement. As long as this commitment exists, the 
Association strongly believes that it is preferable to give the state 
as much flexibility as possible in how they spend their funds so they 
can address state specific needs and use their federal dollars for 
maximum benefits.
    As another reflection of the States responsiveness to the bow 
hunting constituency in particular, over the past three decades, the 
success of state fish and wildlife programs have greatly increased bow-
hunting opportunities. In conjunction with expanding wildlife 
populations, the establishment of longer bow hunting seasons, liberal 
bag limits, and special bow hunting seasons, the number of bow hunters 
has increased significantly. This has occurred at a time when the 
number of gun hunters has been relatively stable.
    From 1991 to 1996, the number of bow hunters in our country 
increased by 22 percent from 2.7 million to 3.3 million (National 
Survey of Fishing, Hunting and Wildlife-Associated Recreation). All 
indicators are that this increased participation is continuing. The 
opportunities are not just happenstance, but proactive and responsive 
measures taken by the State fish and wildlife agencies to provide more 
opportunities to this constituency.
    In conclusion, Mr. Chairman, the Association is committed to 
working with you, Chairman Smith, Senator Baucus and Senator Boxer to 
bring appropriate legislative reform to the administration of the 
Pittman-Robertson and Dingell-Johnson/Wallop-Breaux programs this year. 
The problems surfaced in administering the program by the USFWS are 
serious and require legislative clarity in the statute in order to 
remedy them. The Association believes that the recommendations that we 
have made to the committee will contribute to the passage of a 
legislative proposal, and, when enacted, will greatly improve the 
integrity, efficiency, effectiveness and responsiveness in delivering 
to the States the apportioned funds of this hugely successful program. 
Since their enactment, these Acts have provided over $7.1 billion to 
the States for fish and wildlife conservation, hunter safety and 
education programs, and boating safety programs for the millions of our 
citizens who appropriately use and enjoy the bountiful natural 
resources of our great Nation. Let's make sure we continue this success 
story for future generations of Americans.
    Thank you Mr. Chairman, and I would be pleased to answer any 
questions.
                                 ______
                                 
                ATTACHMENTS TO MR. PETERSON'S TESTIMONY

               The National Administrative Grants Program

    These programs have, for more than 20 years provided a way for the 
states to pool resources and solve common problems effectively and 
efficiently. These multi-state grant projects optimize the several 
states' ability to meet their responsibilities in the field of fish and 
wildlife management.
    Often misunderstood or taken for granted, multi-state projects have 
played a crucial role in state fish and wildlife agency response to 
challenge for more than 20 years. In addition to pooling resources to 
solve common problems economically, this program has been a source of 
venture capital to search for new and innovative techniques.
    A few examples of some recent multi-state projects resulting from 
this program include:

Economics of Hunting, Fishing and Bowhunting in the United States
    The data generated have provided the only information available on 
the economic Anew is of hunting and sling on a state-by-state basis. 
The states have used these data extensively and they have been 
important to the agencies in calling attention to the benefits of 
agency programs both to the resources and to the people who use them. 
Virginia's use of these data to secure additional funding for resource 
programs has set an example here that other stases are considering.

Becoming An Outdoors Woman
    This project has helped the states implement programs to meet 
changing demographics and increase our ability to respond positively to 
the changing needs of our constituents. The project has provided 
training and instructional materials for the states to use in 
developing and implementing programs for women interested in hunting, 
fishing and outdoor wildlife-related activities.

Automated Wildlife Data Systems
    A project that enables states to assess cutting-edge technology 
that very few states could have afforded individuals. The use of 
automated data system enables the states to provide up-to-date full 
service programs to constituents. This has saved both time and expense 
for state agencies.

Partners in Flight
    This project has provided a national neotropical migratory bird 
conservation program. Under a national framework, bird conservation 
plans are under development for each state and/or physiographic region. 
This is a partnership program between state agencies, Federal agencies, 
universities and non-government agencies. The project provides land 
managers with information on 400 species of neotropical migrants for 
incorporation into land management plans.

Shooting Range Symposia
    These symposia, held triennially, have been instrumental in 
facilitating increases in state range development and shooting sports 
activities by pooling expertise for presentation en masse to state 
managers. These symposia hare also provided a forum for emerging data 
for technology transfer on newly developed range safety techniques and 
emerging environmental issues.

Harvest Information Program
    This project tackled the myriad of problems faced by Federal and 
State waterfowl managers associated with insufficient harvest data. The 
information gleaned is subsequently used for surveys conducted by the 
U.S. Fish and Wildlife Service to collect improved information 
necessary for the proper management of migratory game birds. This 
Program, well on the way to addressing this need, could face 
termination short of accomplishing its goal if there were no multi-
state grants program.

Hooked on Fishing Not on Drugs
    This partnership project with the Future Fisherman Foundation has 
assisted states in establishing programs to encourage and provide 
opportunity for children to participate in recreational fishing and not 
become involved in drug use.

Furbearer Management Outreach
    There is probably no more controversial and contentious issue 
facing most state managers than dealing with over-abundant furbearers. 
This project is paired with a multi-state testing project and is 
nationally coordinated but regionally developed. Developed best 
management practices will be critical to the maintenance of state 
furbearer management, which utilizes trapping as a successful wildlife 
management tool.

Wildlife Disease Handbook
    This project pooled existing information in one convenient location 
for reference by state wildlife managers.

National Shorebird Conservation Plan
    This project developed a National Shorebird Conservation Plan to 
protect, enhance and restore migratory shorebirds in all of the states.
1-800-Ask Fish
    A project to assist the states in establishing a program to provide 
public information on fishing opportunities and to sell hunting and 
fishing licenses via a toll-free telephone number.
                                 ______
                                 
                          RESOLUTION NUMBER 3
 REFORM OF SPORT FISH AND WILDLIFE RESTORATION ADMINISTRATIVE FUNDS USE

    WHEREAS, for more than half of this century the Federal Aid in 
Wildlife and Sport Fish Restoration Programs (Pittman-Robertson and 
Dingell-Johnson/Wallop-Breaux) have delivered to the Nation a broad 
array of fish and wildlife benefits. A legacy of sound administration 
and oversight by the Fish and Wildlife Service, care by the States in 
selecting and implementing projects, and the continuing support of 
hunters, anglers, shooters, boaters and manufacturers have made these 
programs successful and durable; and
    WHEREAS, the Association has had occasion in recent years to 
protest decisions by the U.S. Fish and Wildlife Service (Service) to 
use administrative funds for purposes related only tangentially to 
``administration and execution'' of these programs. Congress authorized 
the Secretary of the Interior to expend up to 8 percent on the wildlife 
side (6 percent on the sport fish side) for purposes of administration 
and execution with the remainder, after deduction for specific purposes 
established by Congress, followed by mandatory apportionment to the 
States. By degrees, the Service arrived at the position that unused 
amounts within the 6 and 8 percent ceilings may be expended at the 
discretion of the Director for fish and wildlife purposes bearing some 
relation to State programs, whether or not the States themselves 
consented\1\; and
    WHEREAS, related to the use of funds for purposes not clearly 
within the ``administration and execution'' authority, for the past 2 
years the Association teas listened attentively on behalf of the 
States, developed proposals, studied alternatives, and sent delegations 
of Association officers to Washington in an effort to address the 
Service's concern that its efforts in carrying out the administrative 
grant program (a $4 million program) are too time-consuming in relation 
to the much larger state grant program ($450 million); and
    WHEREAS, these Association efforts were nullified when the Service 
made the sudden discovery of a projected deficit in fiscal year 1999 
administrative funds, leading the Acting Director on July 26, 1999, to 
announce the cancellation of sport fish and wildlife restoration 
administrative project funding\2\; and
    WHEREAS, following cancellation of the administrative grant 
program, the Association was invited by the Service ``to join in a 
comprehensive review of the Federal aid process with the goal of making 
the entire program more responsive and efficient, and it promptly 
accepted the Service invitation because of the critical importance to 
state government members of fish and wildlife restoration funds; and
    WHEREAS, certain uses of administrative funds by the Service, as 
well as the methodology by which the Department of the Interior 
assesses charges against sport fish and wildlife restoration 
administrative funds for Service overhead, are now being questioned in 
investigations underway by tire General Accounting Office and the House 
Committee on Resources.
    NOW, THEREFORE, BE IT RESOLVED, that the International Association 
of Fish and Wildlife Agencies hereby
    1. Reaffirms its longstanding commitment to the principle that, in 
the final analysis, excise taxes are available under these programs 
because of the willingness of hunters, anglers, other recreationists 
and manufacturers to be taxed in order to support State programs to 
restore fish and wildlife resources and associated recreation;
    2. Stresses that, in pursuance of that trust, unused administrative 
funds ought either to be apportioned to the States or expended to 
undertake projects, to which the States give their consent through the 
Association, that provide fish and wildlife conservation benefits to a 
majority of the States and which no single State, or even several 
States, could undertake on its own;
    3. Expresses deep dissatisfaction that the administrative grant 
program, an adjunct of the sport fish and wildlife restoration programs 
of unique value to the States, has been canceled, in part because funds 
have been diverted to questionable uses including projects for which 
State consent was not given;
    4. Urges the Congress to remove any ambiguity in the statutes 
relating to program administration that has served as a hinge for 
attempts to enlarge the discretion of the Director or the Secretary 
with respect to amounts within the statutory ceilings, including a 
tightening of what it means to administer and execute these programs, 
and to establish on a firmer footing the multi-state projects that 
benefit a majority of States; and
    BE IT FURTHER RESOLVED, that the International Association of Fish 
and Wildlife Agencies supports oversight by the Fish and Wildlife 
Service and the states as safeguards essential to the continued success 
of these programs, including periodic audits of the States, Federal-
state policy clarification, and conduct of a comprehensive review of 
ways to streamline the administration of the wildlife and sportfish 
restoration programs.

                               END NOTES

    \1\(a) In 1988 the Director proposed to use administrative funds to 
support joint venture projects under the North American Waterfowl Plan 
without observing established procedures for securing state 
concurrence. On further review, the Director assured Association 
President Doig that ``No administrative funds will be used to 
substitute for regular appropriations.''
    (b) In 1993 a GAO report recommended that, in expending funds for 
special investigations (administrative grants), established policies 
and procedures be followed by the Service in considering priority needs 
of States.
    (c) In 1994, without notice or request for comment, the Director's 
Conservation Fund was established, drawing up to $500,000 each year 
from P-R administrative funds and a like amount from D-J/W-B 
administrative funds. From its inception, 35 grants totaling $3.8 
million have been made under the Director's discretionary fund. 
Established procedures for identifying State concurrence were not 
employed.
    (d) In February 1995 the Service proposed to use $2 million of 
sport fish administrative funds to support fish hatchery transfers to 
the States because operational funds for the purpose had not been 
requested in the administration's fiscal year 1996 budget.
    (e) In March 1995 the Office of the Solicitor, post hac, confirmed 
the Director's proposed use of administrative funds to support hatchery 
transfers. In a draft memorandum notably short on analysis, the 
Assistant Solicitor-Fish and Wildlife concluded that the Director 
enjoys discretion to fund activities using administrative funds and, if 
expenditures do not exceed the 6 percent statutory ceiling, no legal 
impediment exists to funding hatchery transfers to the States.
    (f) March 1999, after questions were raised by GAO, the Service 
terminated the Director's Conservation Fund.
    \2\In April 1998 the Service identified focus areas in soliciting 
proposals for administrative grants and restated established procedures 
for selecting projects. 63 Fed. Reg. 17882 (April 10, 1998). in July 
1999 the Service canceled the administrative grant program. 64 Fed Reg. 
40386 (July 26, 1999). In between those dates:
    (a) On May 26,1998, the Service gave notice of intent to reconsider 
procedures for funding national administrative grants, advising that 
the Service would develop a full range of options for funding future 
national conservation priorities. 63 Fed. Reg. 28514 (May 26, 1998).
    (b) On September 16, 1998, the Service invited comment on five 
alternatives to the administrative grant process then in existence on 
grounds the program is too time consuming and is inefficient for the 
Service to administer given the size of the administrative fund program 
($4 million) in relation to the much larger state grant program ($425 
million). 63 Fed. Reg. 49606 (September 16, 19998).
    (c) At the Association's September 1998 meeting in Savannah, the 
Grants-in-Aid Committee recommended and the Association approved 
Alternative 3, under which the Association would take over 
solicitation, ranking and approval of projects, with final approval by 
the Director and administration of grants by the Division of Federal 
Aid.
    (d) On December 14,1998, the Association was notified that the 
Service had selected Alternative 5, a single annual grant proposal by 
the Association listing specific fish and wildlife conservation action 
needs which, if approved by the Director, would be administered by the 
Association.
    (e) Following the Service's selection of Alternative 5, the 
Association assembled a team to work with the Office of Federal Aid to 
modify Alternatives 3 and 5 to address the desire of the Service to 
reduce its time-consuming involvement in the administrative grant 
program.
    (f) On January 25, 1999, the Executive Committee agreed that the 
Association would administer the national administrative grant program 
under a modified Alternative 5.
    (9) By letter dated February 17,1999, Association technical 
committee chairs and regional association presidents were advised that 
the Association had been working for 10 months to resolve 
administration of the national administrative grant program. The 
Association solicited committee and regional association 
recommendations for priority conservation needs, on an expedited 
schedule, by March 15, 1999.
    (h) At the Executive Committee meeting of March 27,1999, the 
Director agreed to meet with State representatives in early April to 
set administrative program funding priorities.
    (i) During the meeting of April 6,1999, the Director advised that 
the sudden discovery of a projected deficit in fiscal year 1999 
administrative funds would require prompt action to reduce 
expenditures, and the Director agreed to consult with State 
representatives before taking final decisions. A report to State fish 
and wildlife directors advised them to ignore rumors about the future 
of the administrative grant program. The projected deficit was 
attributed to:
    <bullet>  Costs of administering small grant programs. Sometime in 
early 1999 the Service concluded that the costs of administering small 
grant programs created by amendments to the Sport Fish Restoration Act 
(Clean Vessel Act Pumpout Program, the Boating Infrastructure Program, 
and the Coastal Wetlands Planning, Protection and Restoration Program) 
could not be assessed against the grant amounts authorized by statute 
but must instead be absorbed out of Sport Fish Restoration Act 
administrative funds. Additional cost: $1 million per annum.
    <bullet>  Costs of state audits by Defense Contract Audit Agency. A 
substantial amount not present prior to fiscal year 1997. Additional 
cost per annum not revealed in the public notice of cancellation.
    <bullet>  Costs of automating the grants delivery system (Federal 
Aid Information Management System). Costs are said to be much greater 
than 2 years ago when the Service began this process. Additional cost 
per annum not revealed in the public notice of cancellation.
    (g) By letter dated May 12, 1999, the Director advised that the 
Service would be unable to offer a national administrative grant 
program for fiscal year 2000.
    (k) By letter dated May 25,1999, Association President Holmes 
expressed appreciation to Director Clark for her agreement To back up 
and take another look'' at the reductions in administrative funds 
spelled out in the Director's letter dated May 12,1999.
    (l) By letter dated May 28,1999, Director Clark advised President 
Holmes that no good options exist in the short term and further review 
of administrative funding decisions taken by the Service would be a 
futile exercise.
    (m) By notice of July 26, 1999, the Service announced the 
cancellation of Federal Aid in Sport Fish and Wildlife Restoration 
Administrative Project Funding. 64 Fed. Reg. 40386 (July 26, 1999).
                                 ______
                                 
        International Association of Fish and Wildlife Agencies
                               memorandum
TO: State Fish and Wildlife Directors
FROM: David Walla, President
DATE: December 30, 1999
SUBJECT: Executive Committee Action on Review Team Report

    As you know, the Executive Committee met in Washington, DC on 
December 12-13, 1999. A major part of the meeting was devoted to 
developing an Association position on the joint Fish and Wildlife 
Service/State review of the Sportfish and Wildlife Restoration 
Programs. I had previously sent each of you a copy of the Review Team's 
report and requested your review and comments. Although the time for 
review was short, we received and compiled responses from 29 states 
prior to the Executive Committee meeting.
    As you would expect, we received a wide variety of responses. Due 
to this range of opinions, the Executive Committee used the responses 
as a general guide to help arrive at positions on specific 
recommendations committee also had the benefit of a brief presentation 
on the report by Fish and Wildlife Service Deputy Director John Rogers 
and Lob Miles, a member of the review team. We then spent more than 2 
hours discussing the responses arch the states as well as our 
experiences in our own states in working with the Sport Fish and 
Wildlife Restoration Programs.
    There was general agreement that it was timely to take a look at 
how to improve these programs to make them ``more effective and more 
responsive''--which was the basic charge to the Review Team. Retaining 
the confidence of hunters and anglers, as well as Members of Congress, 
and the public were recognized as important considerations.
    We also recognized that changes of any kind arc seen as threatening 
to some even though there has been great changes in the capability of 
states and their ability to manage programs in the more than 60 years 
since the Wildlife Restoration Program was begun. This was reflected 
both in the Review Team Report and in the comments of most states.
    It was obvious that in most cases, the State Federal Aid 
Coordinators had played a significant role in the report review and the 
compilation of their state's comments. In many cases the report hat 
been discussed with Fish and Wildlife Service Regional Federal Aid 
personnel.
    Our Executive Committee, and our state members, expressed strong 
recognition of the value of the Sport Fish and Wildlife Restoration 
Programs and the role they have played in advancing fish and wildlife 
management in our country. They acknowledge the partnership 
relationship that exists between the Fish and Wildlife Service (FWS) 
the states and that our combined efforts have been responsible for the 
success of these two programs. They expressed their desire that this 
partnership continues and that the Service retain an administrative and 
oversight role to help insure program integrity and public confidence.
    Executive Committee members were concerned about the recent 
accusations and the negative publicity that the various program reviews 
and investigations have generated. They recognize the need to act 
promptly to address and remedy the problems. Even though change can be 
disturbing and even threatening to some, they support the need to 
streamline the administrative processes that guide the Acts 
implementation. They want this to be done in a cooperative manner that 
assures continued public confidence in these two remarkably successful 
programs.
    Our Executive Committee was generally in agreement with the 
recommendations of the review team, even though they did not agree 
completely with some of the findings. They adopted the following 
positions on certain issues or recommendations contained in the report.
    1) The action by the Association's business meeting was reaffirmed 
(see Item 4).
    2) The proposed new mission statement does not adequately reflect 
the nature of the legal partnership that exists between the FWS and the 
states. The Service's role is important but limited, with roost of the 
funding by law being apportioned to the states. The FWS oversight 
responsibilities, such as eligibility, audits, training, fiscal 
management, etc. should be acted to the new mission statement. We win 
provide the FWS with the suggested new language.
    3) A clearer definition of administration and execution needs to be 
legislatively defined to correct the ambiguity that currently exists 
and to more clearly define the greater responsibilities that the states 
will assume. Much has changed since the 1937 and 1950 responsibilities 
were defined and it is timely to reflect those changes.
    4) The Sport Fish and Wildlife Restoration Acts should be amended 
to specifically authorize a program for funding project of national 
benefit to the states collectively and to authorize a process for 
states to approve such projects, with a provision to apportion funds if 
all are not used (items three and four above were addressed by a motion 
adopted at our business meeting in Killington (copy attached).
    5) The amount the two acts specify that the Secretary may use for 
administration should be reduced from its current level of six and 8 
percent, respectively, to three and 4 percent, with a phase in time to 
permit orderly change. It was noted in the discussion that 3 and 4 
percent is close to the amount actually spent prior to 1998 for FWS 
administration. Additional administrative funds were spent for such 
items as the National Fishing and Hunting Survey, Management Assistance 
Team, the Library Reference Service and Administrative Grants Program, 
which the review team recommended placing in a separate category of 
national projects. In addition, such things as the Director's 
Conservation Fund and the transfer of fish hatcheries have in the past 
come from administrative funds. So the initial reaction of some states 
and some FWS people that the report essentially cut in half the amount 
the Service would have for administration is clearly not correct. To 
administer these two programs effectively and responsively will require 
both the Service and the states to cooperate in the streamlining 
effort.
    6) The 1-percent that the report recommends for projects of 
national benefit should be increased to 2-percent of each fund. The 1-
percent would only fund currently committed activities such as the 
National Fishing and Hunting Survey, MAT and the Library Reference 
Service, leaving no funds for any other projects of national benefit. 
Although it might be possible to reduce the cost of the Survey, MAT and 
the Reference Service, adoption of the report's one-percent 
recommendation would effectively terminate the previous competitive 
administrative grants program for the foreseeable future. Projects of 
substantial benefit have and should continue to be funded from 
administrative funds, with a clear process for unused funds to be 
apportioned to the states.
    7) The tam ``Federal aid'' should be replaced with Sport Fish and 
Wildlife Restoration Trust Fund. These are clearly trust funds financed 
by hunters, anglers and boaters and not a Federal handout.
    8) There have occasionally been problems with the Regional 
Directors making decisions with which a state director disagreed. 
Currently it is unclear what recourse a state has in such a situation 
and to whom the state can appeal. An informal appeal or review process 
should be established to address questions in a timely manner.
    I want to thank each of you for the time you took to review this 
important document and for providing me with your thoughtful responses. 
From your efforts, it is obvious that state members are greatly 
concerned for the future of the Sport Fish and Wildlife Restoration 
Programs, and are willing to work with the Fish and Wildlife Service 
and with Congress to assure their continued surpass.
                                 ______
                                 
    Sport Fish and Wildlife Program Review and Recommendations for 
                              Improvement
                           November 17, 1999

                              INTRODUCTION

    Since their passage in 1937 and 1951, the Wildlife Restoration and 
Sport Fish Restoration Acts, respectively, have been the centerpiece of 
wildlife resource conservation in the United States. These highly 
successful Acts have set the benchmark for fish and wildlife management 
worldwide. In total, these Acts, and their administration, have been 
very successful. As time has passed, evolution in the role of the 
partners requires a reexamination of the traditional administration of 
this program. This review addresses that need and culminates in 
recommendations that represent fundamental changes in the 
administration of the Wildlife and Sport Fish Restoration Acts. 
Realizing numerous desired and needed changes to the administration of 
these landmark programs, this review lays the foundation for a new 
mission and a new program. Recommended changes to program 
administration occur in the following areas:
    <bullet>  Mission
    <bullet>  Leadership and Management of the Federal Aid Program
    <bullet>  Basic Program Administration and Execution
    <bullet>  Projects of National Benefit
    <bullet>  Implementation

Background
    The last joint FWS/state review of the federal aid programs was 
conducted in 1988. That review focused primarily on how the states and 
the U.S. Fish and Wildlife Service (FWS) administered the apportioned 
funds. States and the FWS believe that a comprehensive review of how 
the FWS uses the 6 and 8 percent authorized by the Sport Fish and 
Wildlife Restoration Acts, respectively, for administration of the 
programs is needed to guide management activities for the next 5-10 
years. In addition, events during 1998 and 1999, such as a significant 
shortfall in the amount of funds available for proposed administrative 
activities, a Government Accounting Office Audit of the FWS use of 
administrative funds, and Oversight Hearings by the House of 
Representatives Committee on Resources contributed to the need for a 
review of FWS administration of the programs.
Charge
    The purpose of this review is to identify ways to make the programs 
more efficient, more effective and more responsive.
    The review and evaluation were conducted by a team of 
representatives designated by the FWS and the state fish and wildlife 
agencies through the International Association of Fish and Wildlife 
Agencies (IAFWA). The FWS and the state fish and wildlife agencies are 
the two statutory partners specified in the Wildlife and Sport Fish 
Restoration Acts. Recommendations for action by the Director of the FWS 
are provided in this report. The team also provides recommendations 
applicable to the states.
    This review team considered the following broad areas in preparing 
this report:
    a.The current administration processes and costs for both programs 
relative to the statutory requirements; b.The commitment of financial 
and human resources to administer each of the programs; c.The budgetary 
and planning processes used in administering the programs. This 
included a review of the current budget processes and recommendations 
to ensure the future costs and commitments are given adequate 
management attention; and d.The operational portion of the programs 
involving the approval of projects, commitment of funds and 
reimbursement/transfer of funds to the states.

Review Process
    Representatives from the FWS, state fish and wildlife agencies and 
IAFWA met on four different occasions for a total of nine days to 
review the use of administrative funds and develop this report. In 
addition, review team members visited each FWS Regional Office (staff 
from Region 7 joined the Region 1 meeting in Portland) and the 
Washington, DC Office to meet separately with state federal aid 
coordinators and their FWS counterparts. They discussed the following 
questions related to FWS use of administrative funds (with an emphasis 
on FWS administration of the funds apportioned to the states):
    1) what is working well;
    2) what is not working as well as it could;
    3) what could be done to address deficiencies identified above;
    4) if we were starting from scratch, what suggestions can be 
offered for designing/delivering the federal aid programs to gain 
efficiencies and effectiveness.

                      FINDINGS AND RECOMMENDATIONS

                               I. MISSION

    Finding: The existing mission statement for the Division of Federal 
Aid does not adequately reflect the growth in state capabilities and 
expertise since Program inception and the corresponding reduced need 
for some facets of Program management at the Federal level. 
Additionally, the services needed by the states during the next 5-10 
years will evolve to include more streamlined delivery of Program 
funds. The existing mission statement reads: ``Strengthen the ability 
of State and Territorial fish and wildlife agencies to restore and 
manage fish and wildlife resources to meet effectively the consumptive 
and non-consumptive needs of the public for fish and wildlife 
resources.''
    Recommendation: Adopt a new mission statement as follows: 
``Effectively collect, manage and deliver sport fish and wildlife 
restoration funds and other partnership funds to support state and 
territorial agencies in carrying out their fish, wildlife and boating 
program missions'' (see addendum).

        II. LEADERSHIP AND MANAGEMENT OF THE FEDERAL AID PROGRAM

A. Finding

    The administration of the Fish and Wildlife Restoration Programs 
has not received adequate attention and priority by the FWS. The 
current program apportions $500 million annually to the states. A 
program of such importance does not receive sufficient representation 
at the Directorate level of the FWS. The general belief among FWS 
Federal Aid staff is that they have no support from a Directorate that 
places little importance on their Program.
    Years of inadequate and weak leadership have lead to a general 
deterioration of program function and output. The Division Chief has to 
spend a large amount of time on important external matters. This left a 
critical void in internal staff management within the Washington 
Office. Additionally, staffing in the Program has not, at times, 
reflected the need for personnel with direct knowledge of the Program 
and with the skills and abilities to administer the Program 
effectively. Development of staff in terms of career potential, 
personal growth, recognition, and mobility has not been a focus for 
management.
    The FWS's current organizational structure makes it extremely 
difficult to administer a national program that is consistent and 
clearly defined. As a result of the leadership and management issues 
cited above, the Regions do not look to Washington for leadership. The 
role of the Washington Office has become unclear to staff in Washington 
and the Regions. Due in part to this lack of clarity it is difficult to 
get agreement among the Regions on issues involving more than one 
Region or State and there is often duplication of efforts between the 
Regions and the Washington Office. Serious attention must be given to 
establishing and implementing clearly understood roles and 
responsibilities for the Washington Office and Regions.
    Recommendations:

    1. Elevate the status of Fish and Wildlife Restoration Programs 
within the FWS by establishing an Assistant Director for Sport Fish and 
Wildlife Restoration and other Partnership Funds.
    2. Strengthen the Division Chief's responsibilities to include 
internal staff leadership and management of the Washington Office. One 
of the primary responsibilities of this position should be to ensure 
job responsibilities are delineated, operational procedures are 
defined, and the organizational structure and staffing is adequate to 
support the demands of the organization. It is necessary that the 
Division Chief position provide the necessary management for the office 
to include the challenging decisions on staffing and policy issues that 
are internal to the office.
    3. Ensure that personnel brought into the Program in both the 
Washington and Regions have the necessary knowledge, skills and 
abilities to administer the Program effectively. Ensure that Program 
staff receive appropriate career development, recognition, growth, and 
mobility opportunities commensurate with other FWS programs and in 
accordance with FWS policies.
    4. Develop and implement clearly understood roles and 
responsibilities for the Washington Office Division of Federal Aid and 
its Regional counterparts. Issues such as: budget development, 
financial management, audit coordination, policy development, policy 
interpretation, national consistency, program evaluation, staffing, 
operational support to the Director and Regional Directors, 
Congressional liaison, and outreach, among others, should be addressed.

    B. Finding:

    In recognition of the need for a unified, integrated system for 
tracking apportioned fund obligations and accomplishments, in 1995, the 
FWS undertook development of the Federal Aid Information Management 
System (FAIMS). This system was intended to replace existing fiscal 
(FAPALS) and information (FAIRS) systems that could not be made Y2K 
compliant and to facilitate electronic apportioned funds management. 
Neither of the older systems were compatible with the Department of 
Interior's Federal Financial System (FFS) used for Interior wide 
accounting.
    FAIMS is scheduled to be developed in three phases: 1) FWS tracking 
of apportioned funds and accomplishments; 2) state tracking of 
apportioned funds and electronic submission of new proposals; 3) and a 
geographic information system.
    To date in excess of $8 million has been spent on system 
development. There has been limited involvement by appropriate state 
personnel to determine the states' needs for delivery of apportioned 
funds and an additional $11 million is projected to be spent over the 
next three years for further development, implementation and 
maintenance. There has been no cost/benefit analysis of this system and 
no effort to contain development and implementation costs. The 
excessive cost of this system has placed a burden on administrative 
funds available to the FWS to administer the Acts.

    Recommendations:

    1. The FWS should immediately contract for a thorough, independent 
system analysis of the FAIMS program. This independent analysis should 
include: needs, system requirements and design, cost, benefits and 
alternate ways of delivering an appropriate system. The independent 
analysis should be completed within 90 days of acceptance of this 
report. Implementation, in consultation with the Steering Committee 
recommended in part V of this report, should be completed by October 1, 
2000.
    2. The analysis should involve appropriate state and federal aid 
personnel in identification of needs and system requirements.
    3. Until this analysis of FAIMS is completed, all new development 
work should cease. Efforts should be limited to those necessary to 
ensure that Phase I is fully operational and maintained and that 
appropriate training, technical support, user manuals and operational 
and maintenance costs are provided.

    C. Finding:

    In 1996, the FWS's Federal Aid program implemented a nationwide 
audit program providing audits of the states, territories and the 
District of Columbia every five years. The audit program was 
implemented in response to deficiencies noted in the 1994 Office of the 
Inspector General audit findings of the FWS's Federal Aid program. The 
audit program has been viewed as a mechanism to improve the financial 
integrity in the administration of the federal aid program. The purpose 
of the audit program, therefore, is to assure state monies received 
through the federal aid program meet the intended project purposes and 
benefits for which the monies were granted and that programs are 
conducted in compliance with applicable federal requirements.
    Audits have been conducted by a single governmental organization 
under contract with the FWS. Audit findings are reported to the 
Department of Interior's Office of the Inspector General for 
resolution. As of September 30, 1999, 28 audits have been completed, 3 
are completed in draft and 21 are in progress. To conduct the audit 
program to date has cost $4.4 million. It is projected to cost an 
additional $4.6 million to finish auditing the 66 entities in the 
Federal Aid program, for a total of $9.0 million.
    During the first audit cycle, audits were conducted by multiple 
audit offices and teams of the contract agency. As a result, there was 
no consistent approach or application by the contract auditors in 
conducting their audit activities. Furthermore they had limited 
knowledge or expertise in the area of natural resource programs either 
at the state or federal levels.
    An audit of a state fish and wildlife program is should review 
state records within the context of the existing state financial and 
program performance reporting systems. The audit contractors' charge is 
not to mandate specific accounting and reporting systems, as long as 
the state system meets legal reporting requirements. However, there has 
been evidence that the audit contractors have demanded changes to state 
systems to conform to the contractors view of ``appropriate financial 
accountability''.
    To have an effective audit resolution system, resolutions must be 
acted on promptly, decisively and consistently. Significant problems 
exist with the timely resolution of audit findings and secondarily with 
the provision of audit reports, either in draft or final form, to the 
respective State. Delays in the resolution of audit findings have been 
attributed to internal communication issues in the FWS and with the 
contract auditors.
    Approximately 25 percent of audit costs relate to the FWS's on-site 
orientation, program briefings of contract auditors on basic federal 
aid activities, and general communications between the regional federal 
aid staffs and the contract auditors. Because it has been the practice 
by the contract audit agency to rotate their audit teams across FWS 
regions, many of the efficiencies gained by those teams in learning 
regional/geographic specific issues is lost by the frequency of the 
rotation. Furthermore, this rotation process places a greater burden on 
the open communications that are encouraged by the FWS by necessitating 
a re-training of audit staffs. This extraordinary amount of time 
consumed in communications and retraining has inflated audit costs. No 
effort was made, that we are aware of, to develop a comprehensive and 
less disruptive training and orientation program for the auditors.
    The current cost of a single audit by the contract agency is 
approximately $157,000 per state. In the course of this review, it came 
to our attention that one state completed an independent audit of its 
federal accounts for $11,000. It may be incorrect to assume that the 
two audits are comparable; however, it does suggest that there is some 
reason to question the gross disparity in costs of the audit programs.

    Recommendation:

    The Service should contract for an independent review of the audit 
program. This independent review should be undertaken within three 
months of acceptance of this report and be completed within 90 days of 
its initiation. The review of the audit program should address:

    a.Redefine the scope and criteria of the revised audit activity.
    b.A review of similar federal grant audit programs either at the 
state or federal level. The intention of this review would be to 
identify those ``best practices and models'' for possible adoption by 
the Fish and Wildlife Service in streamlining the Sport Fish and 
Wildlife Restoration grants audit program.
    c.Better definition of the criteria for selection of an auditor.
    d.Completion of the audit program in a way that will bring the 
highest quality at the least cost.
    e.Development of a comprehensive orientation program for the audit 
agency; maintenance of a cohesive and consistent regional audit 
program--keeping audit teams in place once trained.
    f. Development of an audit resolution process that assures timely 
and consistent disposition of audit findings.

    D. Finding:

    The FWS has established a system of periodic audits of state Fish 
and Wildlife Restoration Programs to ensure compliance with Program 
procedures and regulations. There is no comparable audit program within 
the FWS directed at its own administrative use of federal aid funds.

    Recommendation:

    The FWS should establish an independent audit program for its 
administration of federal aid funds to ensure program integrity and 
compliance with established business practices.

    E. Finding

    The Sport Fish and Wildlife Restoration Program is funded by 
manufacturers' excise taxes and import duties that are collected by 
several Federal Agencies. Past experience has shown that funds are 
often not fully collected, credited or distributed to the FWS. This 
frequently results in a loss of interest income to the program. Recent 
experience has shown that active involvement and tracking by the FWS 
dramatically increases receipts into the Program.

    Recommendation:

    The FWS should strengthen and institutionalize its capability to 
monitor and collect funds. This capability should be part of a fund 
management program that includes proper investments for maximum 
returns. This fund management program should be given a high priority 
by the FWS as a vital part of the administration of the Sport Fish and 
Wildlife Restoration Programs.

            III. BASIC PROGRAM ADMINISTRATION AND EXECUTION

Finding:
    The relationship between the FWS and the states relative to 
resource management expertise and staff training has evolved into a 
relationship of co-equals. The implications of this changed 
relationship have not been fully reflected in the day to day 
administration and execution of the program. Because of changes in the 
level of biological and management expertise in the states, it is only 
necessary for the FWS to review state grant applications for 
eligibility. As currently administered, pre-award compliance issues 
represent a major component of Federal Aid oversight responsibilities. 
Transfer of compliance to states and realignment of the functions of 
the Federal Aid program with a new focus on delivery of trust funds to 
the states for eligible activities will result in a substantial 
reduction in administrative cost while ensuring program integrity is 
maintained. Training in program administration to ensure integrity is a 
necessary basic component of efficient administration, as are audits, 
apportioning funds and financial management.
    There is no definition for ``administration and execution'' of the 
Acts provided within the Acts. This causes confusion about what costs 
may be charged to administration and funded by the six and eight 
percent authorized by the Acts. Recent uncertainty, has arisen 
concerning the proposed funding to be used to administer specific grant 
programs established by the Sport Fish Restoration Act, such as the 
Clean Vessel Act, Coastal Wetland Grants, Fishery Outreach and Boating 
Infrastructure program. Administrative funds from the Sport Fish 
Restoration Act have been proposed by the FWS to fund the 
administration of these specific grant programs. This will be an 
additional administrative cost to the program.

    Recommendations:

    1. Expenditures by the FWS for administration and execution should 
be capped at 3 percent (Sport Fish Restoration) and 4 percent (Wildlife 
Restoration). This reduction should be phased in over a period not to 
exceed two years, subject to a schedule developed, in consultation with 
the Federal/State Steering Committee recommended in part V of this 
report.
    2. Define the term ``administration and execution'' to mean those 
actual administrative expenses of the Washington and Regional offices 
necessary only to deliver apportioned trust funds to the states, 
including, but not limited to, eligibility determinations, audits of 
state and federal programs, financial management and necessary training 
of state and federal personnel.
    3. The actions required to deliver apportioned funds to the states 
should be altered to address the new mission.
    4. FWS reviews of state grant applications should focus on 
eligibility, while activity related to biological and substantiality 
reviews should be minimized.
    5. To the extent practical and consistent with law, grant 
compliance requirements should be delegated to the states.
    6. Training of both state and federal staff in program 
administration is needed to ensure consistency and effectiveness.
    7. Unless otherwise directed by Congress, administrative costs for 
each small grant program should be made available from the fund 
specified for each program and not from Sport Fish Restoration Act 
administrative monies.

                    IV. PROJECTS OF NATIONAL BENEFIT

Finding:
    For over 20 years a portion of administrative funds provided by the 
Sport Fish and Wildlife Restoration Acts have been used to fund 
projects of national benefit to a majority of the states. These 
projects have been selected through a screening and ranking process by 
the IAFWA representing the interest of the states and forwarded to the 
Director of the FWS with a recommendation for funding. This process has 
funded many valuable projects benefiting the hunter and angler, state 
agencies and industry partners.
    Within the last two years the FWS announced the termination of this 
process, but then agreed with the states to cooperatively improve the 
process. The improved process was never implemented because the FWS 
again terminated the process due to projected costs in excess of the 
administrative funds available. The states, through the IAFWA and the 
FWS, have consistently supported the funding of such projects and 
continue to believe these projects can serve a valuable benefit to 
wildlife resources and the states charged with their stewardship. There 
have been situations in recent years when the FWS has funded projects 
rejected by the IAFWA. Also in 1994, the FWS established a ``Director's 
Conservation Fund'' of approximately $1 million annually for funding 
other projects independent of the states' process. In March 1999, the 
``Director's Conservation Fund'' was terminated.

    Recommendations:

    1. That within the six and eight percent for administrative funds 
provided to the Secretary within the Sport Fish and Wildlife 
Restoration Acts, no more than one percent of each Act's apportionments 
to the states be made available to fund Projects of National Benefit. 
This shall be a separate fund from all other administrative funds.
    2. The Joint Federal/State Steering Committee (recommended in part 
V of this report) prescribe a process to identify Projects of National 
Benefit and by which project proposals will be submitted, reviewed and 
selected by the states. Such projects as the National Survey of 
Fishing, Hunting, and Wildlife Associated Recreation would be eligible 
for funding through this process. There should be no funds expended for 
Projects of National Benefit by the FWS outside of this process.
    3. That up to three percent of the funds provided to support 
Projects of National Benefit may be used for administrative expenses 
for either the FWS or the IAFWA, depending on which administers the 
project. This does not include the cost of staffing to coordinate or 
implement a project. Such costs are considered direct project costs.

                           V. IMPLEMENTATION

Finding:
    The FWS has been party to, and the subject of several past internal 
and external reviews of the Federal Aid Program. These reviews have 
provided numerous recommendations for improvement. Unfortunately, the 
FWS has not implemented all recommendations. Additionally, development 
of program administrative policy, operational plans and annual 
operating budgets has been carried out solely by the FWS with no 
participation by its statutory partner--the States. This in-house 
process has not allowed for sufficient input and oversight, and as a 
result confidence in the FWS's commitment to program efficiency is low.
    The name ``Federal Aid'' does not correctly describe or portray the 
Wildlife and Sport Fish Restoration Acts and the use of dollars 
collected under these Act and administered by the FWS and applied by 
the states.

    Recommendation:

    The Director of the FWS and the President of the IAFWA should each 
designate three representatives to serve on a joint Federal/State 
Steering Committee. Initially, this group will be responsible for 
providing recommendations to the Director on:

    a.Development of the annual operating budget of the FWS for 
administration of the Federal Aid Program.
    b.Progress towards meeting the phase-in schedule for adjusting to a 
lower budget (see III-1 above).
    c.Progress made on implementation of the recommendations presented 
in this report.
    d.The Steering Committee should discuss and recommend to the IAFWA 
and the FWS a name to replace ``Federal Aid.''

                               CONCLUSION

    Implementation of these recommendations will lay the foundation for 
a new mission and new administration of the Wildlife and Sport Fish 
Restoration programs. It addresses the needs of states and the FWS by 
making the program more effective, more efficient and more responsive. 
Overall the sportsmen and women of the nation who contribute their tax 
dollars to these programs, along with the natural resources they 
address will be the true beneficiaries. Implementation of the 
recommendations will result in a true partnership between the FWS and 
the state fish and wildlife agencies in administering and carrying out 
the provisions of these historic Acts that form the backbone of modern 
fish and wildlife management in our Nation. This review and its 
recommendations were the work of the following state and federal 
employees appointed by the President of the International Association 
of Fish and Wildlife Agencies and the Director of the U.S. Fish and 
Wildlife Service. The review team extends its thanks to all the state 
and federal employees who participated in this effort.
    Jerry Conley, Cochair, Missouri Department of Conservation.
    John Rogers, Cochair, U.S. Fish and Wildlife Service.
    Jack Buckley, Massachusetts Division of Fisheries and Wildlife.
    Walt Gasson, Wyoming Game and Fish Department.
    Mary Gessner, U.S. Fish and Wildlife Service.
    Tom Jeffrey, U.S. Fish and Wildlife Service.
    Rick Lemon, U.S. Fish and Wildlife Service.
    Bob Miles, International Association of Fish and Wildlife Agencies.
    Marvin Moriarty, U.S. Fish and Wildlife Service.
    Tom Melius, U.S. Fish and Wildlife Service.
    Tom Niebauer, Wisconsin Department of Natural Resources.
    Gordon Robertson, West Virginia Division of Natural Resources.
    Kathy Tynan, U.S. Fish and Wildlife Service.

                                ADDENDUM

    REVISED DICTION STATEMENT FOR THE FEDERAL AID IN SPORT FISH AND 
                      WILDLIFE RESTORATION PROGRAM
             PREPARED BY THE FEDERAL AID REVIEW TEAM--1999

    Effectively collect, manage, and deliver sport fish and wildlife 
restoration funds and other partnership funds to support state and 
territorial agencies in carrying out their fish, wildlife and boating 
programs.
Intent
    Effectively collect--Washington, DC Office of Federal Aid 
aggressively pursue all legally mandated program revenues and credits 
them to the appropriate sport fish or wildlife restoration account.
    Manage--Financial management (including investment of program 
revenue), periodic audits, both performance and financial of state/
territorial apportioned funds projects and Federal oversight of both 
performance and financial programs.
    And deliver:--Get the money to the states/territories as quickly 
and with as few ``strings'' as possible, eligibility remains a Federal 
responsibility, substantiality is delegated to state/territorial fish 
and wildlife agencies, compliance requirements relegated to the maximum 
extent permissible by Federal statute.
    Sport fish and wildlife restoration funds--The Federal Aid in Sport 
Fish Restoration and Federal Aid in Wildlife Restoration Acts.
    To Suggest--to facilitate, to assist the states and territories, to 
be an advocate for the states and territories.
    State and territorial agencies--the statutory partners with the FWS 
for implementing the Acts.
    In carrying out their fish wildlife and boating programs--project 
selection, design and implementation is at the discretion of the states 
and territories; intent of the program is to meet state/territorial 
priorities.

                         SPORT FISH RESTORATION
               COSTS TO ADMINISTER SMALL GRANTS PROGRAMS

    Add the underscored material to 16 U.S.C. 777c(?d):

    The Secretary may use not more than 4 percent of the amounts 
available each fiscal year under subsections (a), (b), and (c), 
respectively, to pay the costs of investigations, personnel and 
activities related to administering those programs. Of the balance of 
each such annual appropriation remaining after the distribution and use 
under subsections (a), (b), and (c) of this section, respectively, so 
much, not to exceed percentum of such balance, as the Secretary of the 
Interior may estimate to be necessary for his or her expenses in the 
conduct of necessary investigations, administration, and the execution 
of this act, for an outreach and communications program and for aiding 
in the formulation, adoption, or administration of any compact between 
two or more States for the conservation and management of migratory 
fishes in marine or freshwaters shall be deducted for that purpose, and 
such sum is authorized to be made available until the expiration of the 
next succeeding fiscal year. Of the sum available to the Secretary of 
the Interior under this subsection for any fiscal year, up to 
$2,500,000 may be used for the National Outreach and Communication 
Program under section 777g(d) of this title in addition to the amount 
available for that program under subsection (c) of this section. No 
funds available to He secretary under this subjection may be used to 
replace funding traditionally provided through general appropriations, 
nor for any purposes except those purposes specifically authorized by 
this act. The Secretary shall publish a detailed accounting of Oh. 
projects, programs, and activities founded under this subsection 
annually in ``he Federal Register.
    [A definition of ``administration and execution,'' mutatis 
mutandis, would be added as would a statutory footing for conservation 
projects of national benefit.]
                               __________

  STATEMENT OF SUSAN R. LAMSON, DIRECTOR, CONSERVATION, WILDLIFE AND 
  NATURAL RESOURCES INSTITUTE FOR LEGISLATIVE ACTION, NATIONAL RIFLE 
                              ASSOCIATION

    Mr. Chairman and members of the subcommittee: I appreciate the 
invitation extended to the National Rifle Association to testify before 
you today. The subject of this hearing, which is the performance of the 
Fish and Wildlife Service in the management of the Federal Aid Program, 
is of extreme importance to each and every one of our 3.8 million 
members. Even though the Federal Aid Program is responsible for 
managing both the Federal Aid in Wildlife Restoration Act and the 
Federal Aid in Sport Fish Restoration Act, my remarks are directed to 
the Wildlife Restoration Act also known as Pittman-Robertson since the 
products taxed under that law are products bought by our members.
    Because the purchase price of every rifle, every shotgun, every 
handgun and every box of ammunition includes the excise tax passed 
along to the consumer by the manufacturer, it makes every firearm 
owner, hunter and recreational shooter a stakeholder in how the 
Pittman-Robertson trust fund is managed. However, it has only been in 
the last year when Congressional investigations were conducted, 
hearings were held, and legislation was developed that these 
stakeholders have ever had a seat at the table to discuss the 
management of the trust fund that they have willingly financed for over 
sixty years.
    Much has been said and will be said here today about the visionary 
concept that was launched in the 1930's to raise funds for fledgling 
state agencies to manage wildlife within their borders. And that 
dedicated stream of funding came none too soon. At the time, only a 
handful of people recognized the progressive loss of wildlife and 
habitat that was occurring as a result of unregulated hunting and poor 
land management and utilization practices. Those who sounded the alarm 
were hunters and it was hunters who looked to themselves and not to the 
federal government in search of a solution.
    Given citizens' general disdain of taxes, it is nothing short of 
remarkable that in an era of great economic upheaval and misery, 
legislation was introduced to impose an excise tax on the common man's 
products for the needs of wildlife, not humans. The Pittman-Robertson 
legislation as it came to be called was carried through Congress on the 
shoulders of those who would be paying the tax, the sportsmen of this 
country. While a number of landmark laws were passed prior to the 
Pittman-Robertson Act, such as the Lacey Act and the Migratory Bird 
Treaty Act, the trust fund legislation was unique because it provided 
dollars, rather than imposed penalties, in an effort to save wildlife. 
The law gave the state fish and wildlife agencies the boost they needed 
to launch the science of wildlife conservation.
    Because of the incredible achievements of the states in restoring 
wildlife and habitat coupled with the faith and trust in the government 
to manage the trust fund wisely, sportsmen were willing to accept an 
extension of the tax to handguns and archery equipment in the 1970's. 
Mr. Chairman, I don't think it would be farfetched to suggest that if 
the tax proposal were suggested today, the response would be a 
resounding ``No.'' The faith and trust of our members and millions of 
other gun owners across the country has been eroded by the findings of 
the investigations conducted by the General Accounting Office and the 
House Committee on Resources into the Fish and Wildlife Service's 
management of the Federal Aid Program.
    For decades, the Fish and Wildlife Service had enjoyed a reputation 
for its frugal use of the funds provided by Pittman-Robertson to cover 
administrative costs of managing the trust fund. However, in recent 
years, certain events drew the NRA's attention to how these funds were 
being used. The first event was the creation of an Administrative Grant 
Program. The Program used administrative funds, in excess of that 
needed to cover management costs, to fund projects that benefitted 
multiple states. Although the NRA had no argument with the concept, we 
saw no authority for it in law and at no time were the stakeholders who 
pay the tax consulted about the creation of such a program.
    In 1998, the Service attempted to restructure how the 
Administrative Grant Program would be managed, but it chose to address 
the issue only with the states. The states are the recipients of the 
funds; they do not generate the funds and neither does the Service. 
Those who should have been invited to the table, the taxpayers, were 
absent from the discussions. Even though the management options were 
published for public comment, the review was informal. It was not 
conducted as a formal rulemaking. Either the agency did not see the 
importance of public review or did not believe there was concrete 
authority in law to provide the foundation for formal rulemaking. 
Regardless of the reason, it became increasingly clear that the Service 
had lost sight of who serves as the backbone of the trust fund.
    The second alarm was set off when a Director's Conservation Fund 
was created. The fund was designed for the personal use of the 
Director. It funded projects that did not have to receive the approval 
of the Federal Aid Program office nor approval through the 
Administrative Grant process that had been created by the Service and 
the states. In this case, the NRA did take issue with the concept of a 
Director's pet-project account and decidedly saw no authority in law 
for its creation.
    Following the creation of the Administrative Grant Program and the 
Conservation Fund was information coming out of the Service that 
Pittman-Robertson funds were being used to pay for foreign travel of 
Federal Aid Program employees. The NRA had concerns with the appearance 
of ``mission creep'' on the part of the Service since the funds are to 
benefit state fish and wildlife agencies, not foreign governments. Then 
came information about the creative use of the funds for covering the 
costs of opening regional offices, funding personal positions external 
to the Federal Aid Program office and other expenses that left the 
impression that the administrative funds were being ``raided'' for 
Service-related purposes, not for the trust fund's established 
purposes.
    The final shock wave came over a proposal submitted by an animal 
rights group for use of Administrative Grant funds to pay for anti-
hunting propaganda. Even though the proposal was rejected because it 
did not meet the Pittman-Robertson criteria, word came out that the 
Federal Aid Program employee who made the decision was being pressured 
to reverse it and that because of what may have been perceived as 
insubordination, the Service attempted to transfer that employee from 
the Federal Aid Program office. The NRA will not delve into that 
incident in this testimony because the issue is addressed in the House 
Resources Committee hearing record. Suffice it to say, the NRA had 
reason to believe the Service was progressively distancing itself from 
its core constituency in executing its management responsibilities for 
the Pittman-Robertsons trust fund.
    What brought all of NRA's concerns to the surface was the 
introduction of the Conservation and Reinvestment Act (CARA). Title III 
of that Act amends the Pittman-Robertson Act to provide a conduit to 
the state fish and wildlife agencies for a portion of the 
outercontinental shelf (OCS) oil and gas lease revenue. The original 
bill allowed (as does the Pittman-Robertson Act) a percentage of the 
total revenue to be used by the Fish and Wildlife Service to cover 
administrative costs. First, to be clear, the NRA supports CARA because 
Title III is in the bill. However, in light of our concerns over the 
Service's increasingly creative use of administrative funds, we 
questioned the wisdom of providing millions more dollars to the Service 
absent a performance evaluation over its use of the administrative 
funds already being provided. The NRA owes a debt of gratitude to House 
Resources Committee Chairman Don Young, who introduced the CARA bill on 
the House side, for responding to the sportsmen's concerns by launching 
the first audit of the Pittman-Robertson fund in its sixty year 
history.
    It is not necessary in this testimony to address the findings of 
the audit conducted by the General Accounting Office and the 
information provided by the witnesses called to testify at the House 
oversight hearings last year. All of that is public record. What I do 
want to focus on today is not the problems that were uncovered, but the 
solutions to those problems.
    The NRA participated alongside a number of organizations last year 
in discussions on what those solutions should be. All of the taxpayers 
were represented--the industry, the hunters, the recreational shooters, 
the archers, the anglers and the boaters. What emerged from those 
discussions was H.R. 3671.
    There were those in the wildlife conservation community who feared 
that the revelations from the GAO audit and other investigations would 
create a groundswell of dissidents who would call for the dismantling 
of the trust fund and the removal of the excise tax. Mr. Chairman, not 
a single NRA member that I am aware of has contacted the Association 
asking that we call for an abolishment of the Act. All of our members 
support sound wildlife conservation and firearm safety programs and are 
willing to put their money on the line to ensure the future of these 
programs. What they want are the problems to be fixed so that everyone 
can go about their individual pursuits in the knowledge that their 
funds are being well managed for the benefit of wildlife conservation, 
hunting and the shooting sports.
    Mr. Chairman, from the time issues over trust fund management 
emerged, the NRA has fully supported the continuation of the Pittman-
Robertson trust fund and its excise taxes. Our concerns have centered 
on the use of the administrative funds, not on the fundamental purposes 
of the Act. Even though we have publicly chastised the agency for its 
mismanagement and abuses of the administrative funds, we have supported 
keeping the management of the trust fund within the Service so long as 
the identified problems are solved and solved quickly.
    Though this hearing is an oversight hearing, my remaining comments 
are directed to the House and Senate reform bills, H.R. 3671 and S. 
2609 respectively, titled Pittman-Robertson Wildlife Restoration Act 
and the Dingell-Johnson Sport Fish Restoration Act. The following is a 
brief discussion of the legislative provisions of importance to the 
NRA.

Administrative Funds
    Both bills have as their core provision a list of administrative 
costs that are authorized for coverage by the administrative funds. 
This provision is crucial as it has been made clear by the 
investigative hearings and testimony before the House Resources 
Committee that the Service engaged in permissive spending and extremely 
liberal interpretations of the law for its own benefit. This provision 
makes clear what are and are not allowable costs. It is crucial that 
any bill adopted by Congress contain a list of allowable costs as well 
as language specifically prohibiting the coverage of any cost not 
specifically authorized by the bill.

Audit Requirements
    Both bills contain a requirement for periodic audits and a detailed 
reporting system for submitting those findings to the Congress and to 
the states. This is a critical aspect of any reform legislation. Once 
the initial problems have been solved, a mechanism is needed to ensure 
the taxpayer-sportsman that his dollars are truly being held by the 
Service ``in trust.'' The audit process should be transparent; that is, 
have reporting requirements so all stakeholders (like shareholders) are 
informed about the financial management of their trust fund. It is also 
a way to make small course corrections when needed which will prevent a 
crisis situation from developing that requires reform legislation to 
resolve.

Authorized Administrative Costs
    The NRA has not weighed in on the debate between the Fish and 
Wildlife Service and authors of the House and Senate bills over how 
much administrative funds the Service should be allowed and whether 
that amount should be a flat figure or a reduced percentage of what is 
allowed in current law. It is clear, however, that the percentage of 
funds that Pittman-Robertson provides is generous, too generous. The 
Federal Aid Program can effectively and efficiently manage the trust 
fund on less. The Service should be able to document to the Congress, 
to the states, and to the taxpayer-sportsman its needs for the program. 
The NRA could support a change to the bills regarding the annual set-
aside for administration as long as the alternative approach can be 
justified.

Firearm and Bow Hunter Education and Safety Program Grants
    The NRA fully supports provisions in both bills that reserve a 
specified amount of excise tax revenue to be apportioned among the 
states for hunter education and shooting range programs. This money 
would be in addition to what is made available by the Pittman-Robertson 
Act for use by the states at their discretion for those programs. The 
discretionary amount is one-half of the annual excise tax revenue 
collected from the sale of handguns and archery equipment. In the 
1970's when the Pittman-Robertson Act was extended to handguns and 
archery equipment, sportsmen asked that some of the revenue be 
``earmarked'' as most handgunners and archers utilize shooting ranges, 
not open land for hunting. However, they backed down from an earmarked 
amount after receiving assurances from the states that those funds 
would be used to benefit recreational shooting. Unfortunately, that has 
not played out as promised. While many states have used some of that 
discretionary revenue for range development, many other states have a 
dismal track record in the eyes of the taxpayer-shooter.
    Based upon information developed by the International Association 
of Fish and Wildlife Agencies, over half the states reported that they 
do not use Pittman-Robertson funds for shooting range development. One 
of the major reasons given for range closures is financial. Only half 
the states have developed an inventory of shooting ranges and just 14 
states have developed a strategic plan for shooting range development. 
Yet, forty-five states reported that they feel there is still a 
significant need for additional shooting ranges in their state.
    The NRA has not in the past advocated an earmarking of funds, but 
instead has relied upon the good faith effort of the states to live up 
to the agreement made in the 1970's with the taxpayer-shooters. 
However, H.R. 3671 and S. 2609 are perfect vehicles for providing a 
modest amount of dedicated funds to the states who have said financial 
resources are a stumbling block to range development. Dedicating such 
funds acts to fulfill a commitment made long ago.

Multi-State Conservation Grant Program
    The NRA supports the creation, in law, of such a program. As noted 
above, the NRA supported the concept of an Administrative Grant Program 
created by the Fish and Wildlife Service and the states, but expressed 
concern that there was no legal authority to do it. The NRA supports 
the states' desire to have some amount of the dollars that would 
otherwise be apportioned to the states individually, instead pooled at 
the federal level to conduct conservation projects of mutual benefit to 
multiple states. The NRA supports the funding level in S. 2609 that is 
over and above the amount provided in H.R. 3671. However, we are not 
wedded to the dollar figure and could accept a higher amount so long as 
the states concur.
    What is important to the NRA is that the funds not be used by any 
organization or for any project that promotes or encourages opposition 
to hunting or trapping. Second, the projects must benefit a majority of 
the states nationwide or by region. Third, organizations representing 
sportsmen, conservationists and industry must have a seat at the table. 
Both the House and Senate bills require that the International 
Association of Fish and Wildlife agencies consult with these 
organizations in preparing a priority list of projects to be funded. 
Forth, the International should not be precluded from being a grant 
recipient.

Assistant Director for Wildlife and Sport Fish Restoration Programs
    The NRA supports establishing a position of Assistant Director for 
Wildlife and Sport Fish Restoration Programs who will report directly 
to the Fish and Wildlife Service Director. We recognize that the 
arguments against placing such a provision in law is that it would have 
Congress micromanaging the Service. From our perspective, however, such 
a position is needed. Many of the problems uncovered about the Federal 
Aid Program can be attributed to the fact that it was relegated to a 
lowly position within the Service, a backwater program. A lot of that, 
I am sure, is due to the fact that the states, not the Service, are the 
beneficiaries of the trust funds. It gave the Service leadership little 
incentive to make management of the Federal Aid Program a top priority 
among other programs and issues requiring the Director's personal 
attention. Elevating the Federal Aid Program to the level of an 
Assistant Director will change that.
    Furthermore, if Congress passes CARA, hundreds of millions of 
dollars will flow through the Pittman-Robertson trust fund annually. 
Presently, the Pittman-Robertson Act and the Federal Aid in Sport Fish 
Restoration Act bring in nearly $400 million annually in excise tax 
revenue for the Service to administer. CARA will greatly increase the 
Service's trust fund responsibilities. That ought to be reflected in 
the Service's management matrix.
    In conclusion, Mr. Chairman, the NRA is most anxious for this 
Congress to pass reform legislation. We know what the problems are and 
we have the solutions. Even though there may be disagreements over some 
of the provisions of H.R. 3671 and S. 2609, I am confident that 
resolution is achievable if all are committed to passing a reform bill 
before the end of the 106th Congress.
    The Pittman-Robertson Act and its counterpart are unprecedented in 
the world and while the conservation dollars raised can be counted in 
the billions, the conservation benefits are inestimable. It is 
important for all of us who cherish our fish and wildlife resources to 
see that the sportsmen and women of this country are accorded the 
respect they deserve by having their trust restored in the Service's 
management of the Federal Aid Program. The NRA respectively requests 
that the members of this subcommittee and the full committee act 
expeditiously on a reform bill.
                               __________

  STATEMENT OF MIKE NUSSMAN FOR THE AMERICAN SPORTFISHING ASSOCIATION

    Mr. Chairman, I appreciate the opportunity to testify before the 
subcommittee on behalf of the recreational fishing industry. My 
testimony today addresses the administration of the Federal Aid in 
Sport Fish Restoration Program (the Program). My comments specifically 
deal with the history of the program, the U.S. Fish and Wildlife 
Service's management of the program, and our recommendations for any 
legislation considered by the committee. This testimony is given on 
behalf of the 400 members of the American Sportfishing Association 
(ASA).
    ASA is a non-profit trade organization whose members include 
fishing tackle manufacturers, boat builders, retailers, state fish and 
game agencies, angler organizations, and the outdoor media. For more 
than fifty years, ASA and its predecessor organizations have promoted 
the conservation of fisheries resources and supported measures that 
improve the aquatic environment.

                               BACKGROUND

    As vice president of the association whose members contribute 
approximately $100 million to the Program each year, I am pleased to 
provide the committee with some thoughts on the administration of the 
U.S. Fish and Wildlife Service's Federal Aid in Sport Fish Restoration 
Program. As you know, this program is of extreme importance to the 
recreational fishing industry. Despite being among the most popular 
outdoor activities, sport fishing is also big business. The most recent 
estimates have nearly 50 million Americans fishing for recreation. In 
pursuing their sport, these citizens spend nearly $40 billion annually 
and support 1.2 million jobs.
    The Federal Aid in Sport Fish Restoration Program is an excellent 
example of a user pays-user benefits program. Anglers and boaters pay a 
little more for their equipment and fuel and in return enjoy increased 
fishing and boating opportunities. These monies are deposited into the 
U.S. Treasury and then disbursed to state fish and game agencies for 
sport fish restoration, wetlands conservation, aquatic education, 
outreach, boat safety, and boating access and facilities projects. The 
cycle is completed with a return of benefits to the users through 
improved sport fishing and boating opportunities.
    The Program was launched in 1950 when Representative John Dingell 
(MI) and Senator Edwin Johnson (CO) pushed for and passed the Federal 
Aid in Sport Fish Restoration Act. Based on a similar bill (the 1937 
Pittman-Robertson Act) that placed an excise tax on specific hunting 
equipment, the Sport Fish Restoration Act was aimed at dealing with the 
expanding number of anglers and the declining quality of the resource. 
Utilizing the same user pays-user benefits model as Pittman-Robertson, 
the Dingell-Johnson Act as it became known, was an immediate boon to 
state fish and game agencies that previously could not provide adequate 
attention to fisheries due to strapped budgets. Instead of having to 
fund 100 percent of a fisheries improvement project, now under Dingell-
Johnson, for every one dollar invested by the state, the Federal 
Government could contribute three dollars. During the years immediately 
following passage, monies form the collection of excise taxes vastly 
improved the quality of America's sport fishery resources.
    However, in 1984, in response to a growing list of needs, a new set 
of amendments to the Program were passed spurred on by Senator Malcolm 
Wallop (WY) and John Breaux (LA). These 1984 Wallop-Breaux amendments 
expanded the list of taxable sport fishing articles to include nearly 
all sportfishing equipment. In addition, a 3 percent tax on electric 
trolling motors and fish finders was added along with a redirection of 
the tax on motorboat fuel. The Wallop-Breaux amendments expanded the 
pool of money made available to the states by six fold, from an average 
of $40 million before 1984, to $241 million in 2000.
    Since the 1984 Wallop-Breaux Amendments, the Federal Aid in Sport 
Fish Restoration Act has undergone changes resulting from other 
amendments. Many of the changes increased funding for programs such as 
boating safety and created new programs such as the coastal wetlands 
and clean vessel (pumpout) programs. In 1998, the Transportation Equity 
Act for the 21st Century reauthorized the Federal Aid in Sport Fish 
Restoration Act simultaneously increasing monies received from motor 
boat and small engine fuels taxes (beginning in fiscal year 2002), 
creating a boating infrastructure program, and an outreach and 
communications program.
    Additionally, other changes to the Act in 1998 increased the 
minimum percentage of state allocations to be invested in boating 
access and facility projects from 12.5 percent to 15 percent, and 
raised the maximum percentage of state allocations to be used for 
aquatic education and outreach and communications from 12.5 percent to 
15 percent. Boating Safety programs administered by the U.S. Coast 
Guard also realized increased funding.
    The impact of the Dingell-Johnson/Wallop-Breaux excise tax has been 
substantial. According to the U.S. Fish & Wildlife Service, over one 
billion dollars has been reimbursed to the states since the original 
act passed fifty years ago. These funds have helped develop more than 
1,500 new fishing access sites, improved 9,700 public boat ramps, and 
supported creation or restoration of 400 lakes covering 60,000 acres 
and fish habitat enhancements on more than 3,900 miles of streams and 
rivers. In addition, the funds have supported state fish hatchery and 
stocking programs, education efforts, weed control and habitat 
improvement projects, and fishery research.

                     ADMINISTRATION OF THE PROGRAM

    Mr. Chairman, the Sport Fish Restoration Program has a huge impact 
on the sportfishing industry. It affects pricing decisions, marketing 
decisions, even production decisions made by the industry. However, 
through its investments in the fishery resource, the program enabled 
the sportfishing industry to grow substantially throughout the 1960s, 
70s and 80s.
    The General Accounting Office (GAO) has raised a number of serious 
problems regarding the administration of the program. The U.S. Fish and 
Wildlife Service has indicated that they have responded, or are 
responding to the majority of problems raised by GAO. The sportfishing 
industry is deeply concerned by the charges made by GAO. No industry 
can pay ten percent of every dollar they collect, in addition to income 
taxes on their profits, and not be troubled by the GAO testimony.
    The industry is strongly supportive of taking all necessary action 
to establish greater accountability and transparency in administration 
of the Federal Aid program. I would like to make clear that the sport 
fishing industry's position is that it is absolutely essential to 
resolve the administrative oversight questions in a most timely manner. 
We think it is vital that America's anglers and boaters, along with the 
industry that pays the tax, get their moneys' worth.
    In addition, we believe the administration of the Sport Fish 
Restoration Program has not received the attention and focus from the 
U.S. Fish and Wildlife Service that a half of a billion dollar annual 
program deserves. We would not argue over the importance of the other 
missions of the U.S. Fish and Wildlife Service. They are all important! 
But they are not more important than the successful administration of a 
Sport Fish (or Wildlife) Restoration Program.

                            RECOMMENDATIONS

    The recommendations I will make here today are supported by my 
membership as well as the American League of Anglers and Boaters 
(ALAB), a coalition of 25 angling and boating interest groups that 
includes the International Association of Fish and Wildlife Agencies as 
well as a variety of nonprofit and for-profit organizations.
    Our primary interest is in the Sport Fish Restoration Program. 
However, since the Sport Fish and the Wildlife Restoration Programs are 
implemented by a single state agency and are administered by a single 
unit of the U.S. Fish and Wildlife Service, both programs are closely 
interrelated. Legislative changes to one of the programs can have 
indirect impacts on the other. It is with this understanding that we 
make the following comments on the administration of the Sport Fish and 
Wildlife Restoration Programs
    There is no doubt that the U.S. Fish and Wildlife Service can and 
should do a better and more effective job of administering the Sport 
Fish and Wildlife Restoration Programs. Two bills have been introduced, 
S. 2609, the ``Pittman-Robertson Wildlife Restoration Act'', sponsored 
by Senators Craig and Crapo, and H.R. 3671, the ``Wildlife and Sport 
Fish Restoration Programs Improvements Act of 2000'', sponsored by 
Congressman Young and others, to address this need. Both S. 2609 and 
H.R. 3671 redefine the responsibilities of the U.S. Fish and Wildlife 
Service in this regard and increase their accountability to Congress 
and the states. We believe that such a legislative approach is needed 
to clarify the administration of the program and the goals of the Act.
    However, ASA has concerns in four key areas of S. 2609 and H.R. 
3671. They include:
    1. S. 2609 and H.R. 3671 would provide $7 and $5 million, 
respectively for a Multi-State Conservation Grants Program ($3.5 and 
$2.5 million, respectively, from each fund). At least four existing 
programs (National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation, Management Assistance Team, Administrative Grants Program, 
and Library Reference Service), at the recommendation and concurrence 
of the states, have been funded for several years and would fall under 
this proposed program. The funds provided by S. 2609 and H.R. 3671 are 
not sufficient to fund these four programs or to include other projects 
of multi-state or national benefit that might need to be carried-out 
collectively at much less expense than if each state conducted them 
individually. It is ASA's recommendation that 2 percent of each fund 
(approximately $4.5 million each) be available annually for the Multi-
State Conservation Grants Program.
    2. The Sport Fishing and Boating Partnership Council (SFBPC) was 
created to provide a mechanism to give advice to the Secretary of 
Interior on sport fish restoration and other fishing and boating 
issues. The SFBPC has been widely recognized for its collaborative 
efforts and has undertaken major assignments by the Congress such as 
that called for in TEA-21. Those that contribute to the sport fish 
restoration fund believe that the SFBPC is an invaluable tool for 
ensuring that those that pay the tax are heard when critical decisions 
are made within the U.S. Fish and Wildlife Service. The activities of 
the SFBPC have been funded by Sport Fish Restoration administrative 
funds at approximately $400,000 per year. It is ASA's recommendation 
that language be included in the bills specifying that funding be set 
aside for the work of the SFBPC.
    3. Under existing law, the U.S. Fish and Wildlife Service can 
currently utilize up to 6 percent of Sport Fish Restoration and 8 
percent of Wildlife Restoration Funds to administer the two programs. 
The bills would significantly reduce this to a straight dollar amount 
of $14,180,000 the first year, with gradual reductions over the next 
two years to $12.6 million. This is a significant reduction in 
administrative funding and we are concerned it would have a negative 
impact on these two very successful programs. ASA recommends that 3 
percent of Wallop-Breaux and 4 percent of Pittman-Robertson funds or 
$16 million be available annually to the U.S. Fish and Wildlife Service 
for administration of the program and delivery of apportioned funds to 
the states.
    4. Over the years, several grant programs have been added to the 
Sport Fish Restoration Program. These include the Clean Vessel Act 
Pumpout Program ($10 million/year), the Boating Infrastructure Grant 
Program ($8 million/year), and the National Outreach and Communications 
Program ($5-10 million/year). Although funds for these programs are 
withdrawn from the Sport Fish Restoration Account before the 
calculation of administrative funds is made, no specific provision is 
made in the bills for funds to administer these small grant programs. 
The U.S. Fish and Wildlife Service is now considering using Sport Fish 
Restoration administrative funds to administer these programs. This 
would further weaken the administration of the Sport Fish Restoration 
Program. It is ASA's recommendation that language be included in the 
legislation specifying that administrative costs for each small grant 
program be made available from the funding specified for each program 
and not from Sport Fish Restoration administrative funds.
    Legislation providing focus and guidance to the Sport Fish and 
Wildlife Restoration Acts would significantly improve the 
administration of these programs. The recommendations that we have made 
will enhance the legislation being considered and should ensure the 
continued success of these vital programs. Your consideration of our 
views is appreciated and we stand ready to work with the committee.
                               __________

  STATEMENT OF DR. TERRY Z. RILEY, DIRECTOR OF CONSERVATION, WILDLIFE 
                          MANAGEMENT INSTITUTE

    Mr. Chairman: I would like to thank you and your committee for 
inviting the Wildlife Management Institute (WMI) to provide testimony 
on the administration of the Federal Aid Programs by the U.S. Fish and 
Wildlife Service. The Wildlife Management Institute appreciates your 
personal interest in resolving problems identified within the 
``Pittman-Robertson Wildlife Restoration Act'' (P-R Act) and the 
``Dingell-Johnson Sport Fish Restoration Act'' (D-J Act).
    WMI has had a long-term interest in both the P-R Act and the 
associated programs developed at the state level. We have been actively 
involved with the P-R Act since it was passed by the U.S. Congress in 
1937, and we are vitally concerned that the P-R Act remain an integral 
part of wildlife conservation in the future. As you are aware, these 
Acts have been the cornerstone of the most successful conservation 
programs in North America. The on-the-ground success stories that can 
be attributed to these Acts are too numerous to recount, however, 
notable successes include the return of elk, white-tailed deer, wild 
turkey, pronghorn antelope, bison, giant Canada geese, and wood ducks 
to much of their historic range in America. Virtually none of these 
successes would have happened without the funds provided by this unique 
partnership among state and federal wildlife agencies, industry, 
hunters, anglers and conservationists.
    We concur with those concerned about mismanagement or inappropriate 
use of funds available through the P-R Act, and generally we support 
any needed reforms to the current Act that would correct existing 
abuses. However, we are deeply concerned that changes in the current 
funding level would result in a serious reduction of Federal Aid staff. 
There is no evidence that large cuts in administrative funds are either 
justified or warranted, but they would seriously impact the delivery of 
program funds to the states. The proposed amount for program 
administration in H.R. 3671, the ``Wildlife and Sport Fish Restoration 
Programs Improvement Act of 2000,'' would result in a 50 percent 
reduction in Fish and Wildlife Service staff currently delivering these 
programs to the states. We believe this reduction would seriously 
affect wildlife management, research and education programs across the 
country.
    WMI recommends that any legislative changes to the P-R Act should 
direct 4 percent of the annual funding for Administration of the Act. 
We believe a fixed percentage rather than a fixed amount provides for 
adequate fiscal controls while allowing program growth and needed 
flexibility. The 4 percent amount is based on the estimated 
expenditures by the U.S. Fish and Wildlife Service for the actual 
administration of the program, using the categories of Authorized 
Administrative Costs defined in Section 9 of H.R. 3671.
    While WMI strongly supports federal oversight of the P-R Act 
program, we believe that oversight must be balanced against the goal of 
the founding legislation to create and improve state-level wildlife 
management, research and education programs. The legislative and 
implementation history of the P-R Act clearly indicates that activities 
undertaken as a result of this legislation and subsequent funding are 
state actions and not federal actions. Any language that alters this 
relationship should be avoided. We believe the appropriate role of the 
Fish and Wildlife Service is to review project eligibility, and 
determine if they are ``substantial in character and design.'' Also, we 
believe the terms ``evaluate, approve, disapprove and advise'' found in 
Sections 9(a)(4) and 9(a)(12) of H.R. 3671 provide greater federal 
program oversight than currently exists. We recommend that these 
sections be replaced with, ``Costs to review, evaluate and advise on 
project eligibility, and determinations that comprehensive fish and 
wildlife resource plans under section 6(a)(1) and wildlife restoration 
projects under section 6(a)(2) are substantial in character and 
design.''
    One problem with attempting to legislatively authorized specific 
program costs, is that new concepts and technologies needed to execute 
the program might be omitted. WMI believes that a complete prohibition 
of costs not specifically authorized in Section 9(b) ``Unauthorized 
Costs'' of H.R. 3671 is shortsighted. We are not fully convinced that 
the current list of authorized costs identified in Section 9 is 
complete. We recommend that any legislative changes to the P-R Act 
develop a process to allow unanticipated, legitimate costs, that 
currently are not identified in H.R. 3671, be considered for future 
inclusion. The simplest way to achieve this is to provide for 
Congressional oversight in a manner similar to the way current re-
programming requests are handled. WMI recommends that ``unless approved 
by the authorizing Congressional Committee'' be added to the end of 
this section of H.R. 3671.
    WMI believes that the creation of an Assistant Director for a 
Wildlife and Sport Fish Restoration Program should not be created by 
statute. The internal organization of an agency is a prerogative of the 
Executive Branch subject to Congressional review. This relationship 
should not be altered for this program. The head of the agency, in this 
case the Director of the Fish and Wildlife Service, is and should be 
responsible for implementing and executing the statutory requirements 
of the P-R Act. WMI recommends that any legislative changes to the P-R 
Act exclude any and all references to an Assistant Director for 
Wildlife and Sport Fish Restoration Program.
    WMI strongly supports providing funds to enhance hunter education 
and shooting range development. State hunter education programs 
continue to provide the necessary training and experience for our youth 
in safe handling and use of firearms, and in the ethics of hunting, 
land stewardship, and private property rights. Public shooting ranges 
provide safe places to discharge firearms, improve firearm safety and 
handling by the general public, and reduce conflicts between firearm 
owners and those who are often alarmed by the sights and sounds of 
firearms. The need for these important programs was identified in the 
1971 and 1973 amendments to the P-R Act, however, we believe that a 
fixed percentage of funds from the P-A Act available each year will 
allow greater certainty for program development than having the program 
depend on whatever remains after other program expenses are met. Past 
program decisions clearly indicate that funding demands on agencies are 
so great that many important programs do not get funded unless they are 
prescribed in this manner. Unfortunately, as a result of these 
competing demands, the current national aggregate funding for hunter 
education programs only utilizes approximately 55 percent of the 
funding that was made available in the 1973 modification to the P-R 
Act. While the balance of these funds have been used for important 
wildlife programs, the need for investing in hunter education and 
shooting ranges has not been fulfilled. Societal changes dictate that 
these investments be made now. WMI recommends that any legislative 
changes to the P-R Act should direct 2 percent of the annual funds to 
``Firearm and Bow Hunter Education and Safety Program Grants'' rather 
than a fixed amount.
    The now defunct Administrative Grants Program was similar to the 
``Multi-state Conservation Grant Program'' described in Section 11 (a) 
of H.R. 3671 and was an extremely valuable program that has assisted 
states by developing a broad array of new information and management 
tools. In many cases these tools paved the way for integrating 
innovative management activities and projects into mainstream state 
wildlife management programs. However, the funding level currently 
contained in the H.R. 3671 is far below the actual need that exists for 
innovative program and information development. These funds should not 
be artificially capped, because the states have both direct and 
indirect control over the potential expenditure of these funds. WMI 
recommends that any legislative changes to the P-R Act should direct 2 
percent of the annul funds to a ``Multi-state Conservation Grant 
Program'' rather than a fixed amount.
    In addition, many, if not most, of the projects funded by the now 
defunct ``Administrative Grants Program'' technically could not be 
described as ``wildlife restoration projects,'' as defined in Section 
11 (b) (2) of H.R. 3671. Examples include the numerous ``human 
dimensions'' and economic studies funded by these grants, as well as 
grants to support various technical symposia and data collection 
efforts. These projects did not directly ``restore'' any wildlife, but 
they did provide important information that aided wildlife restoration 
efforts.
    WMI recommends that any legislative changes to the P-R Act should 
authorize the U.S. Fish and Wildlife Service to consider a broad array 
of projects for funding in support of wildlife restoration. Inserting 
the term ``in support of'' before ``wildlife restoration projects'' in 
Section 11 (b) (2) of H.R. 3671 would authorize a broad array of 
projects to be considered for funding. A similar insertion should be 
included in Title II, Section 201 (a) (2).
    The U.S. Fish and Wildlife Service and the U.S. Geological Survey 
Biological Resources Division both have obtained grants from the now 
defunct ``Administrative Grants Program.'' The grants that were awarded 
to these agencies have supported projects such as the ``National Survey 
of Fishing, Hunting, and Wildlife-Associated Recreation'' and important 
bird-banding and harvest surveys, which clearly have benefitted a 
majority of states. WMI recommends that any legislative changes to the 
P-R Act should expand the list of eligible grantees to include both the 
U.S. Fish and Wildlife Service and the U.S. Geological Survey 
Biological Resources Division [Section 11 (c) of H.R. 3671.]
    The ``Clarification'' language found in Title I, Section 101, 
Section 11 (e) of H.R. 3671 and in Title II, Section 202, Section 
14(3)(e) is inconsistent. WMI recommends that the language found in 
Title I be adopted.
    WMI believe that the P-R Act could be enhanced by the creation of a 
``Sportsmen Trust Fund Advisory Council.'' The purpose of this proposed 
Council would be to enhance the broad partnership aspect of the Federal 
Aid Program; develop processes for stronger programmatic oversight and 
reviews, conflict resolution, and development of administrative 
budgets, policies and operational plans; and create a process for 
administering and implementing the ``Multi-state Conservation Grant 
Program.'' We suggest that the Council be composed of representatives 
from the U.S. Fish and Wildlife Service; State wildlife and fisheries 
management agencies; industries that manufacture goods that are taxed 
under this Act, or trade groups representing those industries; and non-
governmental conservation/sportsmen organizations who have demonstrated 
a long term interest in advancing the purposes of this Act. Council 
members would be appointed by the Department of the Interior and would 
report on the health of the Program to Congress every five years.
    Mr. Chairman, thank you again for inviting WMI to provide testimony 
on the administration of these important Federal Aid Programs. Please 
contact me if you have any questions regarding our suggestions or if 
you would like to further discuss this important legislation.
                                 ______
                                 
                                American Fisheries Society,
                                                     June 19, 2000.

The Honorable Robert C. Smith, Chairman,
Committee on Environment and Public Works
Senate Office Building,
    Washington, DC 20510-6175.

Dear Chairman Smith: I am writing on behalf of the members of the 
American Fisheries Society (AFS) to express their views regarding 
changes to Pittman-Robertson Wildlife Restoration Act and Dingell-
Johnson Sportfish Restoration Act. The American Fisheries Society as 
the Nation's largest association of fisheries and aquatic science 
professionals, with 10,000 members representing all states, 
commonwealths, and trust territories, we believe it is essential that 
interests of our members and our profession be considered in the 
development of legislation affecting agencies supporting fisheries and 
aquatic science and conservation. We ask that this letter be included 
in the official record.
    The Society recognizes the need to restore public confidence in the 
integrity of these programs, particularly their administration by the 
U. S. Fish and Wildlife Service (USFWS). However, the Wildlife and 
Sportfish Restoration Programs are the most successful user benefit-
user pay programs. These programs foster a unique partnership among 
State and Federal fish and wildlife agencies, industry, and non 
governmental conservation and professional organizations. For over 50 
years these two programs have played a critical role in State fish and 
wildlife agencies' efforts in restoring the Nation's fish and wildlife 
resources. We caution you to take no action that would diminish the 
effectiveness of these programs.
    Whereas AFS agrees that appropriate action must be taken to address 
identified deficiencies in the FWS' administration of the two programs, 
care must be given to insure that sufficient resources are provided for 
effective and efficient oversight and management of Federal funds The 
Society agrees with the Federal Aid Review Team Report to establish an 
Assistant Director for Federal Aid. This seems all the more acute with 
the recent decision to abolish all the Assistant Regional Director-
Federal Aid positions. If the Federal Aid program is to be highlighted 
as a first rate element of the USFWS, it needs to have a much higher 
profile than is currently being considered in agency's reorganization. 
We believe that imposing dollar caps on administrative cost similar to 
those developed in the House will severely hamper the FWS ability to 
properly administer these programs. The Society believes the programs 
could be reduced with no significant harm from their present levels of 
6 percent and 8 percent to 4 percent for each program. If a fixed 
dollar cap must be imposed we believe that with reductions in overhead 
and adoption of substantial streamlining at least $18 million, with 
annual adjustments to reflect changes in the cost of doing business, 
are needed to properly administer these programs.
    For many years the FWS has used administrative funds to support a 
multi-state conservation grant program. These funds support projects 
selected by the states including such ongoing efforts as the National 
Survey of Hunting, Fishing, and Wildlife Associated Recreation, the 
Fish and Wildlife Reference Service, the Management Assessment Team 
(MAT) and the National Administrative Grants Program (NAGP). The 
Society recommends that 2 percent of Wildlife Restoration and Sport 
fish Restoration funds be made available for a multi-state conservation 
grant program. This would amount to approximately $9 million at current 
funding levels.
    We are in general agreement with the action taken by the House on 
these programs, especially with regard to the identification of 
activities for which administrative funds may be used, the audit 
requirements, and the certification and reporting requirements. The 
Society appreciates the effort made in addressing the problems in 
administrating these programs. We are ready to work with you and your 
staff in any way possible.
            Sincerely,
                     Ghassan N. Rassam, Executive Director.
                                 ______
                                 
                              National Wildlife Federation,
                           Office of International Affairs,
                                                     July 28, 2000.

The Honorable Michael D. Crapo, Chairman,
Fisheries, Wildlife and Drinking Water Subcommittee,
Environment and Public Works Committee,
U.S. Senate,
Washington, DC 20510.

Dear Chairman Crapo: I am writing to you regarding the July 19, 2000, 
oversight hearing on the U.S. Fish and Wildlife Service's (Service) 
administration of the Federal Aid Program held by the Senate 
Environment and Public Works Subcommittee on Fisheries, Wildlife and 
Drinking Water. The National Wildlife Federation (NWF) and our 
constituents have long supported both the Federal Aid in Wildlife 
Restoration Act (Pit/man-Robertson Wildlife Restoration Act) and the 
Federal Aid in Fish Restoration Act (Dingell-Johnson-Wallop-Breaux 
Sport Fish Restoration Act). I respectfully request that these comments 
be accepted for the hearing record.
    The Pittman-Robertson and Dingell-Johnson programs are models of 
success. Strong support from hunters and anglers, secure and automatic 
appropriation of the funds provided by sportsmen and sportswomen, 
professionalism of the state fish and wildlife agencies, and oversight 
provided by the Service have all contributed to the success of these 
programs. These programs have contributed to the remarkable recovery of 
many species of fish and wildlife including wild turkey, pronghorn, 
deer and striped bass. With these outstanding accomplishments and 
continuing strong support from hunters and anglers, they hold great 
promise for the future, but only as long as they are held essentially 
intact.
    As a result of some questions over the U.S. Fish and Wildlife 
Service's administration of the Pittman-Robertson and Dingell-Johnson 
programs, Congress has held several oversight hearings. NWF has shared 
some of the same concerns over accountability issues related to the 
Service's administration of the programs. Therefore, we are gratified 
that the Service has accounted for the funds that were originally in 
question, modified and improved their accounting process, and made 
other administrative adjustments as well.
    Our interest in writing to you now is to ensure that these programs 
continue as strong components of the nation's conservation agenda. We 
generally believe that the Service's recent actions will keep these 
programs on track as two of the most successful cooperative state/
Federal conservation programs in our nation's history. NWF believes it 
is imperative that these programs remain intact and that no changes be 
made which would cripple the ability of the state fish and wildlife 
agencies or the Service to deliver these programs.
    I would like to take this opportunity to outline some of the 
concerns NWF has with the Wildlife and Sport Fish Restoration Programs 
Improvement Act of 2000 in the House (H.R. 3671) and the Senate (S. 
2609). Specifically, both H.R. 3671 and S. 2609 authorize insufficient 
appropriations for the U.S. Fish and Wildlife Service to administer the 
programs. The authorizations must be increased to meet the Service's 
identified needs to fully administer the programs. Furthermore, the 
authorizations should be expressed as a percentage basis rather than a 
fixed amount. By providing an authorization expressed as a percentage, 
the administrative resources can correspondingly shrink or expand as 
the funding contracts or expands, based upon revenues.
    We are also concerned that definitions within the H.R. 3671 and S. 
2609 could exclude important studies such as the National Hunting and 
Fishing Survey; this study is conducted approximately every 5 years and 
provides critical information regarding many forms of wildlife-
associated recreation. Further, the restrictions placed on allowable 
expenditures by the Service may be so restrictive as to exclude some 
appropriate administrative activities in the future that are not yet 
identifiable.
    Finally, we are aware that there has been some consideration given 
to providing a sunset clause for the Pittman-Robertson and Dingell-
Johnson programs. NWF opposes such a suggestion. The long term 
reliability and security of funding has furthered conservation by 
allowing state agencies and others to focus their energy and efforts on 
actual conservation activities, rather than being distracted by 
periodic efforts to reauthorize the legislation. A sunset clause is 
entirely unnecessary if its purpose, as has been suggested, is to allow 
Congress to periodically review the programs. The fact that both the 
House and Senate have recently completed oversight hearings in the 
absence of a sunset provision, is perfect testimony to the fact that 
such a sunset clause is unnecessary.
    Thank you for your consideration of these comments on the Pittman-
Robertson and Dingell-Johnson programs. We welcome the opportunity to 
further discuss these comments and any other aspects of these programs 
or pending legislation.
            Sincerely,
       James S. Lyon, Senior Director, Legislative Affairs.
                                 ______
                                 
               STATEMENT OF THE SAFARI CLUB INTERNATIONAL
 
   Safari Club International appreciates the opportunity to submit for 
the record, our testimony in support of S. 2609, the Craig/Crapo 
Wildlife and Sport Fish Restoration Programs and Improvement Act of 
2000.
    Thousands of Safari Club International members believe that if it 
is passed this bill will be one of the most important additions to 
wildlife conservation programs since the original Pittman-Robertson 
legislation was enacted in 1957.
    S. 2609 will correct past misuses of the Pittman-Robertson funds by 
the U.S. Fish and Wildlife Service (FWS). It will ensure that 
sportsmen's excise tax dollars are being used for the purposes that 
original Pittman-Robertson/Dingell-Johnson statutes intended.
    Safari Club International testified on the House side during the 
Resources Committee investigations into misuse of the Pittman-Robertson 
funds. We agree with Chairman Young's concerns, but are supportive of 
the Senate's attempts to reach consensus on some of the more 
controversial aspects of the legislation.
    Specifically, we are in favor of administrative funding levels that 
are reflective of a fact-based need outlined by FWS. To date, we have 
not seen information that supports the Services desire for funding 
levels significantly higher than what the House and Senate propose. 
However, if FWS can supply such information, and increased 
administrative funding levels do not detract from funding levels 
already in place for other programs in S. 2609, Safari Club is not 
likely to oppose such increases.
    We also support the ``Authorized Administrative Costs'' 
specifically outlined in Sec. 9(a) of S. 2609. Based on the past track 
record of the FWS with regard to spending sportsmen's dollars on 
programs and policies not intended by the original Pittman-Robertson 
legislation, such guidelines are both warranted and necessary.
    However, we also understand the Service's concerns that there may 
come a time in the future when the need arises to spend money in an 
area not specifically delineated in the legislation, but that the FWS 
feels falls under the purview of Pit's intents. FWS has requested that 
they be allowed to ``petition'' Congress so that they may, in effect, 
``reprogram'' money outside the realm of Sec. 9(a). This concept 
deserves further investigation and Safari Club is interested in the 
theoretical process, but we would reserve final judgment until after 
we've seen the details of such a proposal.
    Safari Club International strongly supports Sec. 10, the Firearm 
and Bow Hunter Education and Safety Program Grants at the $16 million 
funding level proposed in the Senate bill, S. 2609. As you may know, 
the International Hunter Education Association (IHEA), an arm of the 
International Fish and Wildlife Association (IAFWA), has stressed that 
there is a potential for Federal funding for hunter education programs 
in every state under the current Pittman-Robertson statute, but to date 
there has not been a priority for these funds.
    Finally, Safari Club is aware of an inquiry by Senate Environment 
and Public Works Committee Chairman Bob Smith regarding the possible 
proposal of a plan to reauthorize the Pittman-Robertson program every 
few years. While we would certainly be willing to discuss such a plan 
with the Chairman, our initial reaction to such a plan would be to 
oppose it. It is our experience that reauthorizations, while clearly 
necessary for some Federal programs, tend to bring with them changes 
that may not be based on scientific fact and past experience. Pittman-
Robertson is arguably the most successful mass conservation program 
ever in the United States if not the world. It has a demonstrated track 
record based on a plan and program that works well.
    We agree that the upcoming changes proposed in S. 2609 are both 
necessary and welcome and we fully support the bill, however we do not, 
at this time, support suggestions for regularly scheduled 
reauthorizations of the legislation.
    Thank you again for giving us the opportunity to submit this 
testimony in strong support of S. 2609. We look forward to any further 
questions or discussions you may have.


</pre></body></html>
